<html>
<title> - DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR 2018</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]



         DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR 2018

_______________________________________________________________________

                                 HEARINGS

                                 BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED FIFTEENTH CONGRESS

                              FIRST SESSION
                              
                               _________

                    SUBCOMMITTEE ON HOMELAND SECURITY

                     JOHN R. CARTER, Texas, Chairman

  JOHN ABNEY CULBERSON, Texas
  CHARLES J. FLEISCHMANN, Tennessee
  ANDY HARRIS, Maryland
  STEVEN M. PALAZZO, Mississippi
  DAN NEWHOUSE, Washington
  SCOTT TAYLOR, Virginia

  LUCILLE ROYBAL-ALLARD, California
  HENRY CUELLAR, Texas
  DAVID E. PRICE, North Carolina
  C.A.DUTCHRUPPERSBERGER,Maryland

  NOTE: Under committee rules, Mr. Frelinghuysen, as chairman of the 
full committee, and Mrs. Lowey, as ranking minority member of the full 
committee, are authorized to sit as members of all subcommittees.

               Valerie Baldwin, Kris Mallard, Laura Cylke,
                          and Christopher Romig
                            Subcommittee Staff

                                ____________

                                  PART 2
                     DEPARTMENT OF HOMELAND SECURITY

                                                                     Page
                                                                     
  Coast Guard Requirements, Priorities, and Future Acquistion Plans.....1
                                                                      
  United States Department of Homeland Security........................73
                                                                      
  Immigration and Customs Enforcement and Border Protection...........207
                                                                      

                      [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                  __________

          Printed for the use of the Committee on Appropriations

                                  __________

                    U.S. GOVERNMENT PUBLISHING OFFICE

  27-050                    WASHINGTON : 2017





                      COMMITTEE ON APPROPRIATIONS

                                ----------                              
             RODNEY P. FRELINGHUYSEN, New Jersey, Chairman


  HAROLD ROGERS, Kentucky\1\
  ROBERT B. ADERHOLT, Alabama
  KAY GRANGER, Texas
  MICHAEL K. SIMPSON, Idaho
  JOHN ABNEY CULBERSON, Texas
  JOHN R. CARTER, Texas
  KEN CALVERT, California
  TOM COLE, Oklahoma
  MARIO DIAZ-BALART, Florida
  CHARLES W. DENT, Pennsylvania
  TOM GRAVES, Georgia
  KEVIN YODER, Kansas
  STEVE WOMACK, Arkansas
  JEFF FORTENBERRY, Nebraska
  THOMAS J. ROONEY, Florida
  CHARLES J. FLEISCHMANN, Tennessee
  JAIME HERRERA BEUTLER, Washington
  DAVID P. JOYCE, Ohio
  DAVID G. VALADAO, California
  ANDY HARRIS, Maryland
  MARTHA ROBY, Alabama
  MARK E. AMODEI, Nevada
  CHRIS STEWART, Utah
  DAVID YOUNG, Iowa
  EVAN H. JENKINS, West Virginia
  STEVEN M. PALAZZO, Mississippi
  DAN NEWHOUSE, Washington
  JOHN R. MOOLENAAR, Michigan
  SCOTT TAYLOR, Virginia
  
  ----------
  <SUP>\1\}</SUP>Chairman Emeritus


  NITA M. LOWEY, New York
  MARCY KAPTUR, Ohio
  PETER J. VISCLOSKY, Indiana
  JOSE E. SERRANO, New York
  ROSA L. DeLAURO, Connecticut
  DAVID E. PRICE, North Carolina
  LUCILLE ROYBAL-ALLARD, California
  SANFORD D. BISHOP, Jr., Georgia
  BARBARA LEE, California
  BETTY McCOLLUM, Minnesota
  TIM RYAN, Ohio
  C.A.DUTCHRUPPERSBERGER,Maryland
  DEBBIE WASSERMAN SCHULTZ, Florida
  HENRY CUELLAR, Texas
  CHELLIE PINGREE, Maine
  MIKE QUIGLEY, Illinois
  DEREK KILMER, Washington
  MATT CARTWRIGHT, Pennsylvania
  GRACE MENG, New York
  MARK POCAN, Wisconsin
  KATHERINE M. CLARK, Massachusetts
  PETE AGUILAR, California

                   Nancy Fox, Clerk and Staff Director

                                   (ii)




 
        DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR 2018

                              ----------                              

                                            Thursday, May 18, 2017.

   COAST GUARD REQUIREMENTS, PRIORITIES, AND FUTURE ACQUISITION PLANS

                                WITNESS

ADMIRAL PAUL F. ZUKUNFT, COMMANDANT, U.S. COAST GUARD

                           Opening Statements

    Mr. Carter [presiding]. Good morning. Subcommittee will 
come to order. I see that some of our colleagues have a hard 
time getting up in the morning.
    Mr. Ruppersberger. Do we get an award for the ones who came 
in?
    Mr. Carter. Absolutely. Special red star by your name. You 
get to brag. Maybe even a gold--from Baltimore, yes--got up and 
drove here.
    Welcome, to everybody. We are really glad to have you.
    Admiral, we are pleased to have you.
    Here comes brother Cuellar. Sure some others will be here. 
Others will be coming in soon, and I am glad that we have got 
everybody here.
    Admiral Zukunft, we are getting started on another year. We 
are really grateful that you are here this morning to talk to 
us about what is going on with the Coast Guard.
    As you are aware, we are all aware that we don't have our--
have the budget out yet, but we are--because we are on a kind 
of a crammed up schedule to get things done on next year's 
budget--next year's appropriations bills, we thought you cluing 
us in about the needs, we will be able to have a memory of that 
as we get--when we get our budget and then we will come back to 
it and talk about it.
    The Coast Guard has a complex mission requiring significant 
resources including vessels, aircraft, and especially 
personnel. With responsibilities ranging from securing the 
Nation's borders, safeguarding maritime commerce, and ensuring 
environmental stewardship of the U.S. ports and waterways, to 
interdicting drug trafficking and illegal immigration, and 
combating transnational crime, these challenges are diverse and 
require a force that is robust, agile, and well-equipped.
    Congress provided substantial funding in the fiscal year 
2017 omnibus appropriations to improve readiness, recapitalize 
vessels and aircraft, modernize shore facilities, and recruit 
and retain a quality force. The committee is eager to hear from 
you on how you intend to sustain these efforts along with your 
priorities and concerns. I am especially interested in your 
plans to recapitalize the Coast Guard's aging fleet and vessels 
and aircraft.
    With the funding Congress provided in fiscal year 2017 the 
Coast Guard now has four vessel modernization programs 
underway. The NSC and FRC programs are well established. I 
would like to hear the Coast Guard's plans for the polar 
icebreaker and the offshore patrol cutter, as well as plans for 
addressing the remaining vessels in your fleet, many of which 
are past their useful life.
    In addition, in your recent State of the Coast Guard 
address you stated a bigger force is needed. I look forward to 
hearing from you on what is driving the staffing requirements 
and on strategies to fund this growth, especially in light of 
the recapitalization efforts that the Coast Guard will need to 
continue to address in the future budget submissions.
    Although the fiscal year 2018 budget isn't expected until 
next week, unmet needs will remain. The subcommittee will face 
tough decisions to ensure critical priority programs are 
adequately funded and that all funding appropriated is, in 
fact, executable. Your testimony today will help guide this 
committee in making those tough decisions.
    After we receive your budget, I look forward to a candid 
discussion about unmet needs that were not addressed.
    Admiral, every agency is operating in a constrained 
resource environment. However, I believe few can match the 
Coast Guard's consistently excellent performance recruiting and 
maintaining a quality force, sustaining operations with aging 
assets, recapitalizing for the future, and taking care of Coast 
Guard families. This is no easy task.
    I commend the leadership and the Coast Guard men and women 
who serve this Nation so very ably.
    And I also want to take this opportunity to commend 
Commander JoAnn Burdian as she completes her assignment as the 
Coast Guard's liaison to the House of Representatives. I have 
dealt with many liaison officers from our military services as 
chairman of this subcommittee and a member of the Defense 
Appropriations Subcommittee, and I can tell you that Commander 
Burdian is one of the best. An ardent, responsible, and 
trustworthy advocate, she has been invaluable--an invaluable 
asset to the staff and the force multiplier for the Coast 
Guard.
    I and my staff will miss her and wish her well in her next 
assignment, where I know she will continue to serve the Nation 
and the Coast Guard with distinction.
    Before I turn to the admiral for his statement, the text of 
which will be included in the record, I first want to recognize 
my distinguished ranking member, Ms. Roybal-Allard, for any 
remarks she may wish to make.
    Ms. Roybal-Allard. Thank you, Mr. Chairman.
    Welcome, Admiral, to this morning's hearing.
    The Coast Guard has a critical set of missions that we must 
properly support. That is why I was pleased we were able to 
provide funding above the fiscal year 2017 request for the 
Coast Guard, including $233 million above the request for the 
acquisition, construction, and improvements account, which 
funds the recapitalization of the Coast Guard air and marine 
assets; and $92 million above the request for operating 
expenses.
    As was mentioned, we don't currently have any detail on 
what is included in the fiscal year 2018 budget request for the 
Coast Guard. However, with this administration's focus on 
border security we have seen in the ``skinny budget'' the other 
DHS programs are cut.
    With the forthcoming 2018 request in mind, we need to know 
how the Coast Guard is operating and what resources are needed 
to support your important missions, especially for personnel 
and operations.
    I also would like to thank JoAnn Burdian for her hard work 
with the Appropriations Committee on behalf of the Coast Guard 
and the American people and wish her well on her next 
assignment. She will be with us for a little while longer, but 
this is probably our last opportunity to publicly recognize her 
service.
    Thank you again for joining us this morning, Admiral, and I 
look forward to our discussion.
    Mr. Carter. Admiral, before you begin I want to recognize 
your lovely wife here today with us. I have had the pleasure of 
being at your home and also traveling with you, and I know that 
she is the wind beneath your wings. So we are very proud to 
have her here today.
    You may proceed.
    Admiral Zukunft. Good morning, Chairman Carter and Ranking 
Member Roybal-Allard. And first of all, thank you for calling 
out the many accomplishments of JoAnn Burdian. And I will stay; 
she will leave. But we have many great Coastees, and certainly 
many that will be able to fill her place.
    I also want to thank the distinguished members of this 
subcommittee and thank you for the opportunity to speak with 
you today. And especially I thank you for your support of the 
United States Coast Guard. In particular, I appreciate your 
advocacy for the fiscal year 2017 consolidated appropriation as 
it funds key readiness and modernization initiatives and better 
positions us to address today's evolving challenges.
    I ask that my written statement be entered into the record.
    Mr. Carter. It will be.
    Admiral Zukunft. The Coast Guard is first and foremost an 
armed service that advances national security objectives in 
ways that no other armed service can. It begins with our 
authorities that include over 60 bilateral agreements to 
enforce rule of law in the territorial seas and on the high 
seas around the world, and many foreign nations depend on the 
United States Coast Guard to be their maritime law enforcement 
against transnational criminal organizations.
    Applying these authorities, in 2016 we removed a record 201 
metric tons of cocaine and we brought 585 smugglers--these are 
transnational criminals--to justice here in the United States, 
where our prosecution rate is 100 percent. It is less than 10 
percent in their nations of origin.
    And today our greatest challenge in this campaign is really 
one of platforms and people. And we must maintain our current 
pace in recapitalizing the Coast Guard fleet while advancing 
shore-based unmanned aerial systems to enhance our surveillance 
capacity.
    So in 2016 we awarded a contract to complete the buildout 
of our fleet of 58 fast response cutters, all at an affordable 
price, and Bollinger Shipyards delivered the most recent four 
with zero discrepancies. And we awarded the acquisition of the 
first nine offshore patrol cutters to Eastern Shipbuilding 
Group, the down payment for a program of record of 25 of these 
very capable platforms that meet our requirements--and again, 
at an affordable price.
    And we are cutting steel today at Huntington Ingalls 
Shipyard on the ninth national security cutter. We have also 
stood up an integrated program office with the Navy and awarded 
industry studies to commence the buildout of a fleet of three 
heavy and three medium icebreakers--all meaningful steps to 
keep our Nation on an accelerated path to deliver the first 
heavy icebreaker in 2023.
    And we also received our fourth consecutive clean financial 
audit opinion and have minimized acquisition cost growth and 
timeline slippages.
    The Coast Guard is the only armed service that has been 
funded below the Budget Control Act floor in our annualized 
operations and maintenance appropriation. Going forward, we 
will need 5 percent annual growth in our operations and 
maintenance accounts and at least $2 billion for major 
acquisitions to operate and maintain our assets and preserve 
our acquisition programs.
    And I am working to rebuild our long-overlooked inland 
fleet of 35 inland construction tenders with an average age of 
52 years. Now is the critical time in sustaining our inland 
rivers system and overall maritime transportation system that 
contribute $4.5 trillion of commerce on an annual basis. This 
fleet is essential to our economic and our national security.
    And finally, we need to grow the Coast Guard and with 
respect to our most critical asset: our people. Over the next 5 
years we need to restore the 1,100 reserve billets that were 
taken out of circulation as we faced difficult budget 
priorities, and we need to bring on another 5,000 active duty 
members into our service over the next 5 years while sustaining 
our more than 8,500 civil servants.
    This is the direction that the world's best coast guard--
our United States Coast Guard--must steer into the future.
    And so on that note, I sincerely thank the unwavering 
support of this subcommittee to address our most pressing 
needs. With the continued support of the administration and 
Congress, the Coast Guard will remain semper paratus--always 
ready.
    Thank you for the opportunity to testify today, and I look 
forward to your questions.
    [The information follows:]
    <GRAPHIC><TIFF>T7050A.001
    
    <GRAPHIC><TIF1>T7050A.002
    
    <GRAPHIC><TIF2>T7050A.003
    
    <GRAPHIC><TIF3>T7050A.004
    
    <GRAPHIC><TIF4>T7050A.005
    
                  RECAPITALIZATION OF THE COAST GUARD

    Mr. Carter. I thank you, Admiral.
    We are--keep a time clock, but we are going to loosely keep 
the time clock. We are here to get information today.
    I want to start off with something you just mentioned that 
I have been looking at and thinking about. You state the 
recapitalization of the Coast Guard is the highest priority. 
However, many vessels that you operate have reached or 
surpassed their projected service life--the inland cutter fleet 
in particular, which you just mentioned.
    This is so vital to the $4.5 trillion of economic activity 
that occur on our Nation's waterways, and they are in desperate 
need of replacement. Only 10 of the 35 cutters are under 50 
years old, and one that was commissioned in 1944. We don't even 
want to think of how old that is.
    The magnitude of this recapitalization and modernization 
effort will require tradeoffs annually. Beyond the major 
programs like the NSC, the FRC, the OPC, and the polar 
icebreaker, does the Coast Guard have a viable plan to address 
the requirements of this vital but aged fleet, and what 
strategic risk are you taking as a consequence of focusing the 
recapitalization program on the NSC, FRC, and OPC, and the 
icebreaker?
    Admiral Zukunft. Chairman, thank you for that question.
    And this is not a new need, a new requirement. This is one 
that has lingered over time as we looked at other programs, 
other major acquisitions, and we did not want to put those 
acquisition programs at risk.
    But eventually you have to air out your dirty laundry. And 
this is the time to do that. This provides full disclosure of 
what our unmet requirements are.
    As we build out the national security cutter, actually the 
ninth national security cutter will cost less than the sixth. 
As we look at keeping a hot product line going and then 
realizing economies of scale, the cost of those are coming 
down.
    The fast response cutters are now coming out with zero 
discrepancies. So with mature product lines we are driving down 
costs and then holding requirements steady.
    We have already reached out to the Army Corps of Engineers 
in looking for a commercial off-the-shelf design for an N-1 
tender that can be modified depending on where it is going to 
be operating but would have the same engines, basically the 
same design, and can be built for roughly about $25 million a 
copy in a commercial shipyard here in the United States, which 
would also stimulate job growth, as well.
    When you actually go down to the waterfront and you go on 
this--the Coast Guard cutter Smilax, which is, in fact, 73 
years old, the first thing you notice are there are no women 
assigned to it because these ships were not designed for mixed-
gender crews back in the 1940s. We have done a lot of lead and 
asbestos mitigation to make sure that these are still safe to, 
you know--are habitable, and if they are not we take them out 
of service.
    But at the end of the day, I mean, this is what maintains 
our infrastructure, our inland waterway system. And through 
that waterway that connects the deep-water ports are over $4.5 
trillion of commerce each and every year.
    The heartland of the United State are maritime states in 
the true sense--Kentucky, Tennessee, Ohio, Illinois, and so on 
down the upper Mississippi River, lower Mississippi River. When 
you look at the latticework of waterways that we have and what 
the--what burden that takes off our other highways, it really 
is what I would call geographic envy to any other Nation that 
looks at our geography, but again, maintained by this fledgling 
fleet of 35 ships. The time to replace them have arrived.
    Mr. Carter. One other quick question: In your State of the 
Coast Guard address you stated that emerging global threats 
warranted an increase in the NSC program from eight to nine 
ships. There is no question the national security cutter is a 
tremendous asset, performing well above expectations. It is, 
however, one of the many tools in the toolkit that the Coast 
Guard needs to successfully execute its complex and diverse 
missions.
    Funding a capital ship like the NSC is expensive. As you 
know, we will be faced with a budget decision to include 
production funding for a 10th NSC in the fiscal year 2018 
budget. Will adding more NSCs and reducing or foregoing other 
recapitalization efforts like the OPC, FRC, and inland cutters 
better serve the Coast Guard?
    Admiral, let me ask you today, as I will ask the secretary 
next week, does the Coast Guard need more national security 
cutters to execute its 11 statutory missions? Will the 10th 
cutter endanger other priority recapitalization programs like 
the offshore patrol cutter, the fast response cutter, or the 
polar icebreaker? Please be specific.
    Admiral Zukunft. Thank you, Chairman. And I have gone on 
record in the past when we laid out our program of record for 
eight national security cutters, with our biggest concern being 
any additional growth, what risk that would impinge upon the 
buildout of the offshore patrol cutter.
    What we received was topline relief to build a ninth 
national security cutter with long lead-time materials. In 
fact, that ship is under construction right now.
    Will we put that ship to use? Absolutely. In fact, today 
one of our national security cutters, the Hamilton--she is 
still in her first year of service--will be returning to port 
with 17 metric tons of cocaine. In fact, there are 27 metric 
tons of cocaine on Coast Guard cutters today.
    So when we looked at what our requirements were for our 
entire fleet, our full program of record, we didn't have global 
refugee flows, we did not have trafficking activity, we weren't 
addressing the nine-dash line, and we weren't addressing 
potential conflict with North Korea. So the world has changed 
at a much more accelerated pace since we built out this program 
of record.
    But I will be specific. The offshore patrol cutter is our 
number one priority in recapitalizing our legacy fleet of 
today.
    A 10th national security cutter, yes, if that is funded 
upon the top line will I put it to use? Absolutely.
    But we need to look at what the follow on, the out-year 
costs are, as well--not just the initial acquisition but, as I 
mentioned earlier, it is our annualized operating and 
maintenance funding. That needs to be built into this 
algorithm, as well--not just acquisition, but the sustainment 
piece of that, as well.
    Mr. Carter. And I agree with that.
    Ms. Roybal-Allard.
    Ms. Roybal-Allard. This review will lead to a permanent end 
to live tissue training.
    Can you tell me how the review will proceed, what will be 
examined, and if experts from within our outside of the Coast 
Guard will be used?
    Admiral Zukunft. Ranking Member, this will in all 
likelihood be a contract service, just as the legacy live 
tissue training was. And like you, I found that, quite 
honestly, abhorrent, in terms of meeting our mission 
requirements.
    So we will move to a simulation. It may be more expensive, 
but for us it will be the right thing to do to prepare our 
Coast Guard members who may be deployed to theaters where they 
may encounter traumatic injuries.
    Ms. Roybal-Allard. Okay. I believe there is some evidence, 
however, that it is cheaper to do it this way, so I am hoping 
that that will be true.
    Admiral Zukunft. Yes, ma'am. And again, I look at this as 
the right thing to do.
    Ms. Roybal-Allard. Thank you.

                             CYBER SECURITY

    This past week we saw the devastating effects of a 
cyberattack involving ransomware across many countries, and the 
news has reported that over 100,000 organizations have been 
affected in 150 countries. As vital physical infrastructure is 
increasingly dependent on the Internet, the potential damage of 
these attacks increases significantly.
    The Coast Guard is responsible for cybersecurity for one 
such piece of infrastructure, and that is, you know, the ports. 
What would be the impact of such an attack to the movement of 
commerce, and what would be the impact of a delay in operations 
mean to commerce if the ports were to shut down even for an 
hour or a day?
    Admiral Zukunft. Ranking Member, this probably goes back to 
2014 when there was a work delay on the West Coast as the 
longshoreman workers were revisiting their contract renewal for 
5 years. When I went out there I flew over the ports of L.A. 
Long Beach and I counted over 70 fully laden container ships 
anchored offshore because they could not engage in commerce.
    That immediately impacts the Rust Belt, the manufacturing 
floors. It affects the stocking in major distributors. We live 
in a just-in-time environment. The daily cost is over $1 
billion a day, and then the jobs that get added onto that, as 
well.
    This was a man-made disruption. The very same thing can 
happen because about 90-plus percent of our ports are fully 
automated. They have taken the human out of the equation, if 
you will, so everything from cargo manifests to actually moving 
and then forwarding that container, as well.
    So industry is turning to the Coast Guard in terms of what 
are the, you know, the national standards, if you will, for 
cybersecurity.
    I am engaged personally with the international maritime 
organizations. We just don't look at the United States; we need 
to look at the entire international global supply chain, and 
then how do we codify and then share best practices 
internationally?
    And so we find the Coast Guard drawn more and more in in 
terms of being, in terms of a sector, maritime--to be, you 
know, the oversight, if you will--not a regulatory but, you 
know, disseminating best practices in terms of how can we 
prevent a cyber intrusion, and then also turning to industry to 
report to us so that we know that there has been an intrusion 
in case this is a coordinated effort to disrupt our supply 
chain.
    Ms. Roybal-Allard. And how is the coordination between the 
ports and the Coast Guard working with regards to 
cybersecurity?
    Admiral Zukunft. We have 37 area maritime security 
committees at all of our major ports, and within these 
committees we have subcommittees that are strictly addressing 
cybersecurity. Right now it is not built into the Maritime 
Transportation Security Act. That addresses fences and access 
but it doesn't address indirect access via the Internet.
    So we are working--collaborating with the many port 
stakeholders through these area maritime security committees 
looking for best practices. I am encouraged by what I have seen 
at Long Beach container terminals. They have nearly fully 
automated that port facility right down to autonomous vehicles 
that move containers--battery-powered, no carbon footprint 
whatsoever. But they built cybersecurity into the forefront of 
that.
    And how do you migrate that best practice for others? There 
is a real cost involved in doing this so I think the other 
piece of that is, you know, is the cost aspect. The cost of a 
disruption would be ruinous to our economy.
    Ms. Roybal-Allard. Mr. Chairman.
    Mr. Carter. Thank you.
    Mr. Fleischmann.
    Mr. Fleischmann. Thank you.
    Oh, I am sorry.
    Mr. Carter. Yes. Let's remember to turn the mikes on.

                           MARINE INSPECTORS

    Mr. Fleischmann. Yes. Thank you. My apologies.
    Admiral, again, I want to thank you and the President. I 
saw the Coast Guard graduation yesterday. I have had the 
privilege of nominating--trying to get some folks in the Coast 
Guard Academy. We have a proud tradition in Tennessee of Coast 
Guard personnel.
    Specifically, I did want to thank Master Chief Shawn 
McMahon and Wicheta. They are doing wonderful work in 
Chattanooga. They are omnipresent and we thank you for them, as 
well, sir.
    I have been hearing lately that there is a potential 
shortage of Coast Guard marine inspectors. With that in mind, 
would you briefly touch on three things, sir: the importance--
the important work that the marine inspectors do to facilitate 
commerce, what a lack of marine inspectors will mean to your 
inland waterway mission, and what has led to this problem and 
what might our subcommittee do to combat it, sir.
    Admiral Zukunft. Well, I think the biggest--Congressman, 
the biggest challenge to our marine inspection program is 
subchapter M, which now brings over 6,000 what had been 
uninspected towing vessels under an inspection regime. And this 
was brought on by just a spate of casualties.
    There are several alternatives that an operator may use. 
They may wish to have a Coast Guard inspector or they may want 
to have a third party do the inspection on behalf of the Coast 
Guard. We call it an alternative compliance program.
    I have come to the realization that we need to overhaul our 
alternative compliance program and provide more stringent 
oversight of these third parties doing inspection work on 
behalf of the Coast Guard. We have seen a number of casualties 
where third parties did not go to the level of detail that the 
United States Coast Guard would in finding safety--flagrant 
safety violations, and perhaps maybe that is why an operator 
uses a third party and not the Coast Guard, because we will 
write them up and make sure they fix it.
    So we need to provide better oversight, and at the same 
time we may incur, you know, a larger share of this new fleet 
of ships that will come under an inspection regime.
    The other part is we need to get after shipbuilding here in 
the United States, as well. When we look at the status of our 
prepositioned fleet, those that would provide sealift during a 
campaign, many of these are 20, 25-year-old steamships. In 
fact, there are very few licensed engineers that have steamship 
qualifications today.
    And we only have about 78 prepositioned ships, you know, 
and if you look back to World War II the highest casualty rate 
was in our merchant marine. So if you think that there will be 
no casualties if we find ourselves in a campaign--a 
traditional, conventional campaign, whether it is Europe, North 
Korea, or the like--there are a lot of submarines out there 
that will take these ships out.
    So we need to be thinking about what is our ability to 
recapitalize our merchant marine fleet. And if we do, that 
requires marine inspectors, as well.
    We are on the, I would say, the fast lane to being a net 
export nation of fossil fuel.
    Mr. Fleischmann. Yes.
    Admiral Zukunft. And if there were a provision that would 
say a certain percentage of those ships have to be U.S.-flagged 
ships, whether it is carrying LNG or U.S. crude, that might 
spark another increase in the shipbuilding industry.
    We have three Jones Act deep draft shipyards in the United 
States today. Certainly they would be interested. This would 
certainly stimulate economic development with jobs. But, you 
know, I don't want to be the ones holding them up because I 
don't have enough marine inspectors.
    So whether it is uninspected towing vessels, national 
security, or international commerce, those are three areas that 
I see right now a growth--foreseeable growth requirement for 
our marine inspection program.
    Mr. Fleischmann. Yes, sir.
    Admiral Zukunft. Thank you, sir.
    Mr. Fleischmann. Well, thank you, sir.
    And I will end by just inviting you next week--I am sorry, 
next year is Coast Guard year in Chattanooga. We honor all five 
branches and we would like to invite you to Chattanooga on May 
the 4th. We have had the commandant of the Marine Corps; we 
have had the CNO down. So I will extend that invitation to you, 
as head of the great United States Coast Guard, sir.
    Admiral Zukunft. Four May. I have the date. Thank you, 
Congressman.
    Mr. Fleischmann. Yes, sir.
    Mr. Carter. Mr. Cuellar.

                          PRODUCTION SCHEDULE

    Mr. Cuellar. Thank you, Mr. Chairman.
    And I also saw the graduation last night and--yesterday 
afternoon, should I say--and very good speech that you gave, so 
thank you so much.
    I want to follow up on a couple of items that you 
mentioned.
    First, the offshore patrol cutter project: How is that 
coming? I mean, do you feel confident that it will be on--the 
production will be on schedule? Any particular things you see 
in the way or will they be on schedule?
    Admiral Zukunft. Congressman, we are on target and 
tracking. And first of all, I have to thank this committee, as 
we awarded final design to award the contract back in 
September.
    We did have to move some money around to make that happen. 
The 2017 budget, it puts the long lead-time materials in place.
    I have been down to Eastern Shipbuilding Group and they are 
ready to cut steel to put that first ship in the water in the 
year 2021. So I am very confident that they will deliver a top-
quality product on budget and on time.

                               ICEBREAKER

    Mr. Cuellar. Okay.
    On a second subject that you mentioned, the icebreakers, I 
just got back on a CODEL to the Arctic Circle. Secretary 
Tillerson was there and I asked him a question about the 
icebreakers because, as you know, when you have the Russians up 
there and other folks you are talking about shipping lanes that 
are important, then you are talking about the natural 
resources--oil, gas--resources that you have there.
    And I think the Russians have over 50 icebreakers. I think 
that is what one of the briefings told us there. And I think we 
have, what, two or three--one working partially?
    Admiral Zukunft. We have two.
    Mr. Cuellar. Two. Two, but the second--is the second one 
working? There is only one working, or they are both working?
    Admiral Zukunft. So the third one is actually deactivated.
    Mr. Cuellar. Deactivated. So there are two working built in 
the 1970s?
    Admiral Zukunft. The oldest was built in the 1970s. The 
Healy is--was built around the year 2000, so relatively new 
compared to the Polar Star.
    Mr. Cuellar. All right. So you mentioned the next one is 
coming for us 2023. Could you just expand a little bit on the 
icebreakers for the Arctic Circle?
    Admiral Zukunft. Thank you, Congressman. So we chartered a 
study about 5 years ago to look at, you know, what are the 
national requirements for access in the high latitudes. This 
was done through a third party and we went back and revisited 
it a number of times, and at the end of it the minimum 
requirement was three heavy and three medium icebreakers.
    If you use the, you know, a carrier--an aircraft carrier as 
kind of the model, and if you need an aircraft carrier, say, in 
the Pacific, well you really need three to keep one there 
permanently. One is in maintenance; one is, you know, ramping 
up to get ready; and the other one is deployed for 6 to 8 
months at a time. So it takes three to make one, which is how 
we got to three and three if we need permanent presence north 
and south, or even more so.
    Then we started looking at now what has changed in the 
Arctic since the study was done. Well, the ice has retreated at 
record rates.
    About 13 percent of the world's oil reserves and about a 
third of the world's gas reserves are in the Arctic right now--
and I say ``reserves'' because it is not profitable right now 
to do offshore drilling up there, but out of that about half of 
this is in the U.S. EEZ and in our extended continental shelf. 
And so we have sovereign interest at stake up there, as well.
    We have seen China, for example, with their icebreaker 
doing annualized studies in what I would call our extended 
continental shelf. Put it in perspective, that area is the size 
of the state of Texas. It is enormous.
    But we have not ratified the Law of the Sea Convention so 
it is treated right now as the global common. So if some point 
in the future we ratify the Law of the Sea, we stake our claim, 
I would be naive to think that claim would not be challenged by 
others who claim they have operated there repeatedly and this 
is now global commons, and the next thing we know we see a 
Chinese mobile offshore drilling unit going into the, you know, 
extended continental shelf to extract what otherwise would be 
U.S. oil.
    We see Russia--with their 40 right now, but they are still 
building their fleet out--prepared to deliver two icebreaking 
corvettes that will carry cruise missiles in the year 2020.
    We have sat down with the Navy and we created what is 
called a cooperative strategy for the 21st century. And we look 
at the Arctic. The Navy says, ``Coast Guard, you have got the 
Arctic.''
    So as we look at, you know, who has, you know, sole 
responsibility for exercising sovereignty in the Arctic region, 
it is the United States Coast Guard. So that gets us to a point 
of why we need national assets--icebreakers--to exert 
sovereignty there.
    And right now we are trying to do it with a ship that is 40 
years old. It is literally on life support, which is why we are 
going to accelerate the delivery of this first icebreaker. We 
will need another one right behind that so we can deactivate 
that. We have put a lot of maintenance money into this old ship 
but it is the only heavy icebreaker in our Nation's inventory 
today.
    Mr. Cuellar. My time is up, but I just want to say I 
appreciate the strategy because we don't pay a lot of attention 
to the Arctic, but once you get there and you get the briefings 
and you understand and you see what the Russians and the 
Chinese--I forgot the Chinese, also--and because of the 
reserves that we have there and because of the shipping lane 
and because of the military bases that the Russians are 
building there aggressively, I think it is something that we 
need to start looking. I appreciate your leadership on that.
    Admiral Zukunft. Thank you, sir.
    Mr. Cuellar. Thank you.
    Mr. Carter. Admiral, when David was chairman of this 
subcommittee we went to Alaska--what would that have been, 6 or 
8----
    Mr. Price. Probably 9 or 10.
    Mr. Carter. Okay, 9 or 10. My wife learned that Coast Guard 
needed a icebreaker and she has been bugging me about that 
icebreaker ever since. And yesterday when the President 
mentioned it in his speech at the graduation she called me in 
the middle of another meeting to inform me that the President 
said he is going to give them an icebreaker.
    You have got the best lobbyist, as far as I am concerned, 
in--for me in this committee of anybody in the country.
    Mr. Palazzo.

                              SURVEILLANCE

    Mr. Palazzo. Thank you, Mr. Chairman.
    Admiral, it is great to see you again. Really enjoyed 
seeing you in Pascagoula, Mississippi for the christening of 
the Kimball this past March and look forward to several more 
christenings of the national security cutters.
    And I just want the thank you and your men and women that 
work for you for everything that they do protecting our 
maritime security as well as keeping the drugs off the streets 
and out of the hands of our children and our communities. That 
is an extremely important mission. Thank you for doing that.
    My question is $18 million is going into research and 
development for a shore-based long-range UAS. Can you tell me a 
little bit more about the program and the timeline for 
delivery?
    Admiral Zukunft. Yes. Thank you, Congressman.
    So we have talked a lot about recapitalizing ships, which 
are long overdue. But the reason we are having so much success 
right now in the transit zone is, one, you know, the 
intelligence is really good; and two, the surveillance is good.
    But we have not addressed what are we doing to keep pace 
with surveillance as we increase our presence on the water, and 
then how can you do that more effectively and efficiently? And 
so we were a little bit late to the game getting into the land-
based unmanned aerial system.
    Within the Department of Homeland Security, within the--
within Customs and Border Protection there is a squadron of 
nine Guardian UAVs built by General Atomics. We have Coast 
Guard members detailed to CBP to operate these remote systems, 
but they are really, you know land border-focused and so we 
really haven't addressed the maritime domain, as well.
    And so with this $18 million it is really working within 
the Department of Homeland Security, so we have a unified 
requirement that we can leverage, you know, what DOD is 
building. We are not putting Hellfire missiles on these; these 
are strictly surveillance platforms. But what can we--what are 
the state-of-the-art systems in the maritime that can look 
through cloud cover, that can work at extended ranges?
    Right now the go-fast activity--I was at Tampa, Florida 
talking to our folks at Panama Express, and the go-fasts now 
are heading south from Colombia off the coast of Ecuador out of 
range right now of our surveillance platforms that are pre-
staged in Comalapa, El Salvador. So they are going beyond where 
we can reach, so we are not getting to a point we can't reach 
and touch them until they come further north. So they are 
gaming our lack of surveillance capabilities.
    So the $18 million gets after, you know, the state-of-the-
art sensor packages, the range that would be needed, and the 
operating systems to operate these platforms at extended 
ranges--not from the United States, but really closer to where 
the threat is, miles and miles before those threats arrive in 
the United States, to stage those out of places in the 
Caribbean or perhaps in the Eastern Pacific to address these 
threats that are ultimately destined for the United States.

                               JONES ACT

    Mr. Palazzo. All right. Thank you for that.
    You also mentioned earlier--we discussed the Jones Act a 
little bit. Can you tell me a little what the Coast Guard's 
enforcement role is and perhaps why the Jones Act is extremely 
important to keeping the U.S. maritime industry strong?
    Admiral Zukunft. Well, absolutely. And, Congressman, I 
think as you well know, we only--today we have three Jones Act 
deep-water ports in the United States: Philadelphia Shipyard, 
Halter Marine in Pascagoula, and then NASSCO Shipyard in San 
Diego.
    If the Jones Act goes away, all U.S.-flagged ships will be 
built overseas and then those shipyards will shut down. Not 
only do the shipyards shut down, the expertise goes with it, as 
well.
    And so what if all those shipyards move to, say, South 
Korea? And now what if we find ourselves in a conflict in that 
region and we are now dependent for an overseas shipyard in 
conflict to deliver ships for the United States?
    We didn't do that during World War II. I think we can learn 
a lot from history and not make what I would consider 
shortsighted calculations that would have strategic 
consequences in the long run. Obviously, with that comes our 
U.S. mariners, as well.
    So for me, you know, it is job creation, it is about 
national security, and it is a workforce that we need to have 
at the ready if we do find ourselves in a global conflict. I 
look around the world today and I am not seeing tranquility 
break out anywhere. I would like to see it somewhere, but it is 
just not breaking out.
    A lot of pressure on our military forces today in terms of 
how do we balance diplomacy? If that fails, you know, what are 
the military consequences as a result of that?
    Jones Act is a big part of that.
    Mr. Palazzo. Admiral, thank you.
    I yield back.
    Mr. Carter. Okay, Mr. Ruppersberger.
    Mr. Ruppersberger. First thing, thank you for being here. I 
never realized how good the Coast Guard was until I came to 
Congress. I remember I was in the Port of Baltimore, and Judge 
Carter and I sit on the Defense Preparations and we do the 
budget for Army, Navy, Air Force, and Marines. And what you all 
do with what you have is just incredible, in my opinion.
    I think semper paratus--what does that mean?
    Admiral Zukunft. Always ready.

                 ARCTIC MILITARY PRESENCE AND COMMERCE

    Mr. Ruppersberger. Always ready. And if you look at what 
your missions are with drug interdiction, working with ports, 
you know, doing all the search and rescue, it is just amazing.
    When you are one of the last ones to ask questions a lot of 
this has been addressed, but I want to prioritize on the area 
of the Arctic again. And I think it is really important that we 
deal with this because I think that maybe because it is so far 
away or whatever, but we have serious issues because, in my 
opinion, more than anything is the Russian aggression. Anything 
having to do with Putin we have gotta be concerned. And you 
also mentioned the China issue.
    And right now I think Putin has 40 active polar icebreakers 
in the Arctic while the United States has two, with the Polar 
Star being commissioned over 40 years. And there are a lot of 
issues we have to deal with there.
    Recently the Russians have made a number of aggressive 
moves in the region, and that includes dispatching numerous 
military brigades, planning a large ship--shipping port in 
Siberia's Yamal Peninsula, and also rebuilding old airbases. 
U.S. presence--and one--I am sure one of the issues not only 
from a dominance point of view but also because of the 
resources that are going to be there, as far as oil.
    U.S. presence in the Arctic is necessary for more than just 
power projection; it is a matter of national security. If 
remain unchecked, the Russians will extend their sphere of 
influence to over 5 million square miles of Arctic ice and 
water.
    Now, climate change is melting ice in the Arctic at an 
alarming rate, and as a result, more waterways are becoming 
navigable. It is essential that the United State be ready to 
assist any uptick in Arctic commerce. There is a vast amount of 
natural resources which we can extract, including large gas and 
oil reserves. And simply put, if our waterways are not cleared, 
we cannot capitalize on this resource.
    Now, in a GAO report I read that several years ago the 
Coast Guard was unable to provide year-round access to the 
Arctic in 2011 and 2012 and the Coast Guard could not meet four 
of 11 total requests for icebreaking services.
    My questions: First, how many medium and heavy polar 
cutters do you need to completely manage increasing traffic in 
the Arctic?
    I got a couple more.
    Admiral Zukunft. Yes. Yes, Congressman, you know, in the 
current state of affairs right now, you know, the six 
icebreakers, three heavy and three medium icebreakers, would 
satisfy those requirements. You know, that is based on what the 
threat environment is in 2017.
    Now, these ships will be in service for 30-plus years. As 
we build those, as we have seen with our program of record with 
the national security cutter, the offshore patrol cutter, the 
world changes.
    And so what if the world does change? The advantage you 
have when you are building national security cutters and now 
you are making these more affordable in the long run, you have 
a hot production line, maybe, you know, 10, 12 years from now 
the world changes but at least you are producing these at an 
affordable price, a predictable price, and on schedule.
    There may be a change, but at least as we see the world 
right now, you know, the three heavy and three medium would 
meet today's requirements based on the threats that we see----
    Mr. Ruppersberger. Including the Russian dominance there?
    Admiral Zukunft. With the Russian dominance.
    We need to look differently, though, at what an icebreaker 
does. We need to reserve space, weight, and power if we need to 
strap on a cruise ship missile package on it.
    Mr. Ruppersberger. Well, that is an issue. That and maybe 
intelligence utilities, those type of things. But----
    Admiral Zukunft. Right.
    Mr. Ruppersberger [continuing]. Let me ask you this: I see 
Russia as a serious threat and we have to deal with it. So in 
the current icebreaking capabilities, would the Navy be able to 
conduct a full-scale defense of Alaska in the event of real 
threat to our homeland, based on what we have just talked about 
here with Russia?
    Admiral Zukunft. I probably won't speculate on what the 
Navy, you know, can or cannot do. Obviously we have the 
world's----
    Mr. Ruppersberger. We need to plan for that.
    Admiral Zukunft [continuing]. Best Navy. But our 
cooperative strategy, right now we--you know, you don't see the 
Arctic addressed, you know, in our national military strategy 
as a strategic region, so that is why as I look at where the 
other services are operating, where are they not operating? 
Which is why I am focused on the Arctic, which is why I am 
focused on the Western Hemisphere.
    We are a military service, and so we need to double down 
where the other services are pulled off to North Korea, Russia, 
China, Iran, violent extremism.
    Mr. Ruppersberger. Probably many countries, including 
Russia, laid claims to portions of the Arctic territory. If 
tensions rise does the Coast Guard have the capability to 
firmly defend our geopolitical interests?
    Admiral Zukunft. Congressman, I would say it is seasonal, 
and for the Navy it would be seasonal--seasonal by virtue of 
the fact that our fleet of today, our offensive capability can 
only access those waters when they are ice-free, and they are 
not always ice-free.
    Mr. Ruppersberger. Well, it is something I think we really 
need to prioritize. I think it is really important. In this 
business of politics it is important you listen to your wife, 
so I would suggest that this committee and the chairman really 
listen to his wife and that we really make this a priority on 
where we are going. So----
    Admiral Zukunft. Congressman, thank you.
    And again, I want to thank this committee because this is 
the committee that has really moved this, you know, from the 
starting block to down the track. The $150 million that we have 
moved out of the 2017 appropriation that you put there gets us 
out of the starting block.
    Mr. Ruppersberger. The other thing I want to say, too, if 
you are a female member of Congress you need to listen to your 
husband.
    Ms. Roybal-Allard. Who happens to be a Marine. [Laughter.]
    Mr. Ruppersberger. I know. I work out with him in the gym 
sometimes so I see him.
    Mr. Carter. You finished?
    Mr. Ruppersberger. Oh, I am finished. Thank you. I yield 
back.
    Mr. Carter. I definitely ought to listen.
    Mr. Taylor.
    Mr. Taylor. Thank you, Mr. Chairman.
    And, Admiral, thank you for being here today. Really 
appreciate it, everything that you guys do in your service. And 
I know the Coast Guard is a great bang for the buck, if you 
will, and certainly in my opinion a fundamental part of our 
national security apparatus, and I really appreciate what you 
do.
    A couple quick things. Actually, I just want to just follow 
up one thing on--that Representative Ruppersberger just said 
about defending sovereignty in the Arctic. I know that he did 
ask in terms of the Coast Guard's capability to do so in the 
face of Russian movements, Russian aggression, and stuff like 
that.
    Can you just repeat that if you will? Do you believe that 
the Coast Guard currently has the capability to be able to deal 
with that potential threat? And also, is there a strategy in 
place now that can actually with the Navy to be able to do it 
if you need more backup, if you will?
    Admiral Zukunft. I will first talk about the strategy and I 
will go back to our cooperative strategy for the 21st century, 
which is signed by the CNO, myself, and then the commandant of 
the Marine Corps. And so what it does, it looks at what your 
inventory is of assets and then it looks at where you employ 
those.
    And so when you start looking at the Arctic on the surface, 
you know, that is where you will find the Coast Guard. Are we 
ready to go toe-to-toe with a Russian combatant with a national 
security cutter? Our capabilities on the national security 
cutter are more defensive than they are offensive, so as 
currently equipped, you know, that platform is not ready to 
engage in what I would call traditional naval warfare.
    The Navy certainly has a fairly robust submarine fleet, and 
so if nothing else that would keep an adversary guessing. And 
our Navy has operated in the Arctic for some period of time. So 
in terms of an offensive capability, it would be less surface 
and it would be more subsurface.
    But how might this play out? I mean, do we immediately 
jump, you know, to armed conflict, or does it begin with the 
fact that Russia has already claimed most of the Arctic, you 
know, up to and including the North Pole? And now they start 
extracting resources, or they move fishing vessels in there, 
and we say, ``Well, wait a minute. That is not yours.''
    And so initially the conflict or the tensions, as we see in 
the nine-dash line and the east South China Sea, it doesn't 
quite approach armed conflict; it is something less than, but 
if you don't have an ability to exert sovereignty then they are 
going to fill that vacuum. So I think that presence piece--it 
is not presence, but it is really posturing to say, ``Hey, this 
is our sovereign interest. Keep out.''
    And so I think that is really the strategic way forward.
    Mr. Taylor. Got you. So look at international law first, 
maritime law first, and go that route, and then--but backed up 
with a presence.
    Admiral Zukunft. Yes, sir.

                             CYBER ATTACKS

    Mr. Taylor. If I can switch gears just really quickly on 
the cyber, have you guys--have you seen an increase in attacks? 
And is there currently--and I have asked this question at a 
couple other hearings, as well, too--are there currently data-
sharing on attacks to be able to establish a pattern or 
potential attribution to state sponsors, potentially, or 
others, and then also for best practices?
    So again, are there--are you seeing an uptick in attacks? 
Is there a sharing apparatus between agencies and even military 
services to be able to find patterns?
    Admiral Zukunft. Yes, sir. I would say the--pattern is 
persistent.
    You know, we operate on the Department of Defense 
information network. And in fact, the J-6 for the Joint Chiefs 
of Staff is a Coast Guard three-star admiral.
    The chairman of the Joint Chiefs brought this individual in 
and he says, ``Well, we, military, just operate on the dot-mil 
domain. The Coast Guard operates the full spectrum: dot-gov, 
dot-com, dot-mil. And so we really need to bring a Coast Guard 
three-star who we created to fill this position because we 
can't just insulate ourselves within the dot-mil domain.''
    We also helped staff the Department of Homeland Security's 
NCIC, which does the interagency piece.
    And the 2017 budget actually finally provides us the 
billeting to establish a program of record, because up until 
now we had been a volunteer fire department in cyber, pulling 
people off of other primary jobs to do cyber work. So now we 
can finally build out a program of record, the professionals 
who will be doing cyber full time. Two graduates, two brand new 
ensigns that graduated yesterday, they are going straight into 
cyber.
    We have a shortage of about 209,000 cyber professionals in 
the United States today, so to think we can bring these in off 
the street, we are going to have to grow it our own. So there 
is a human capital piece that goes with this, as well.
    And I want to thank this committee for allowing us to go 
from a volunteer fire department to a professional service when 
it comes to cyber.
    Mr. Taylor. I have got more, but I am--I won't hold all the 
time.
    Thanks, Mr. Chairman.
    Mr. Carter. Mr. Price.
    Mr. Taylor. Thank you, Admiral.
    Mr. Price. Admiral, let me welcome you back to the 
committee and thank you for helping us schedule this early 
morning--I want to briefly ask you about a backward-looking 
budget item, which probably left some needs unmet, realizing 
that we don't have the figures for the----
    Mr. Carter. Turn your mike on.

                            DISASTER RELIEF

    Mr. Price [continuing]. Realizing we don't have the figures 
for the coming year. Has to do with Hurricane Matthew, which, 
as you know, had a devastating effect on our region. And I know 
several Coast Guard units along the east coast from Florida to 
Virginia were damaged in the hurricane.
    Coast Guard had estimated operational impact--an impact on 
the crews who have to work on overtime to be something like $92 
million. That was the estimate. Congress did not appropriate 
funds for Coast Guard recovery in the December emergency 
supplemental, but we did provide $15 million to begin repairs 
on facilities in the April omnibus bill.
    So can you provide us a status update on the east coast 
units' recover? And is it fair to say there is still a $77 
million worth of need today?
    Admiral Zukunft. Congressman, yes, we still have a $77 
million hole. The $15 million from Station Tybee, which is 
right outside of Savannah, Georgia; Cape Canaveral; Ponce 
Inlet--those were probably the most seriously impacted units 
from Hurricane Matthew. Their piers were destroyed. Right now a 
lot of these units are operating out of portable trailers. That 
is where the $77 million, the brick and mortar to reconstitute 
those stations, would go to.
    But what the $15 million does do is it at least allows us 
to sustain operations as on June 1st we start a whole 'nother 
hurricane season all over again. And then we also enter into 
what I would consider our peak search and rescue period, as 
well. So the $15 million at least keeps us in business, but not 
in the ideal state, but as good Coasties we will be semper 
paratus.
    Mr. Price. I am sure that is true. I also infer from what 
you said that this cost estimate remains valid, as to what is 
still required.
    Admiral Zukunft. Yes, sir.

                            BORDER SECURITY

    Mr. Price. Let me move to an important question of border 
security, very much in our discussion and debate these days. 
President has asked for additional resources to construct a 
physical wall along the southern border, as you well know.
    It seems to be a well-kept secret that Congress built 375--
370 miles of pedestrian fencing in the 2007 to 2009 fiscal year 
period and 300 additional miles of vehicular fencing. That is 
in place today.
    And I remember Coast Guard briefings from the period when 
that fencing was going online about the impact of migrants and 
smugglers who were increasingly prone to come to the U.S. by 
sea when their land routes were cut off or were impeded.
    So I wonder what kind of data you actually have from those 
earlier years on the correlation between enhanced physical 
obstruction on the land border and waterborne migrant traffic 
numbers. Have you made any projections about what the 
operational impact on the Coast Guard would be of this proposed 
border wall?
    Admiral Zukunft. Thank you, Congressman. If we are looking 
at a defense and offense, a wall is certainly a defensive 
approach. It is a goal-line defense.
    I am the offensive coach, so what does the offensive coach 
do is when it comes to illicit goods, human trafficking, in 
most--this is moving almost predominantly by sea, eventually 
working its way up to the southwest border. I met with 
President Santos in Bogota 2 months ago to address the 
significant increase in coca cultivation, cocaine production, 
all destined for the United States. It takes to the sea.
    We have these authorities, and that is the one place where 
this commodity is vulnerable is on the water. When it lands in 
Central America the corruption, rule of law has really taken 
over. And in fact, it facilitates the movement of this 
commodity rather than in bulk--you know, 80, 90-pound bales of 
cocaine, now you are talking grams--that try to ride along the 
legitimate trade between the United States and Mexico, and that 
is secreted into the United States.
    So once it touches land I almost view that as a, you know, 
as a disease--what it does to law enforcement, what it does to 
elected officials. If we can stop it at sea we give those 
communities, that security environment, a better opportunity to 
get a grip on some of this violent crime that is taking place.
    So the offensive coach says you need more offensive play 
downrange. You have got all the authorities to go right into 
their waters and apprehend them, you know, regardless of where 
they are at.
    All these countries want to see them extradited almost 
without exception here to the United States to prosecute. And 
before they are prosecuted they will turn evidence and provide 
us valuable information on where the next load is coming. So it 
feeds that whole intelligence cycle.
    So the offensive game is a pretty sound investment. I am 
not the defensive coach so I can't really speculate on, you 
know, what it takes to stand up that goal-line defense in the 
form of a wall.
    Mr. Price. But it will be--your defensive capacity, in 
terms of the small craft coming into this country, which, of 
course, could conceivably increase if the land routes are 
further restricted, that defensive capacity will be required. 
You are exercising it right now.
    Is there any projections about that or any comments about 
how it worked last time?
    Admiral Zukunft. Yes. So thank you, Congressman. So, yes, 
we looked at, you know, that defensive approach, if you will, 
we saw with Cuba. This time last year I had between eight and 
10 ships, you know, in the Florida Straits because we saw last 
year a record movement of Cuban migrants. We have now gone 7 
weeks without one Cuban migrant apprehended at sea or even 
attempting to flee.
    But we realize, you know, as you allude to, it is the 
squeeze-the-balloon effect. If you apply pressure, as in a 
wall, then, you know, illicit activity will find the path of 
least resistance, and that path is the water, which means we 
would have to draw down assets to apply that defensive measure 
if we saw a change from land to maritime access to our 
homeland.

                            CUBAN MIGRATION

    Mr. Price. Do I have any time remaining?
    All right. All right. I will move just quickly to this 
Cuban matter because that was going to be my next question if 
time permitted.
    You have cited the statistics already. The interdiction 
numbers are down and actually at zero. Is that what you said? 
That is what I understand, as well.
    Admiral Zukunft. At sea, Congressman, zero.
    Mr. Price. Yes, at sea. That is what I mean.
    So what does that mean in terms of the deployment of Coast 
Guard resources? That offers, of course, a possibility to focus 
on other areas, other problems. What are your projections 
there?
    Admiral Zukunft. What changed in the Florida Straits was 
the repeal of the wet foot, dry foot policy.
    Mr. Price. That is right.
    Admiral Zukunft. And so we have been able to move some of 
those ships deeper into the Caribbean, and so now we are seeing 
shipments of cocaine that have been leaving Venezuela, the 
Guajira Peninsula in Colombia, destined for either Puerto Rico, 
the Dominican Republic--from there they go to Puerto Rico, as 
well. And so we have seen an uptick in our at-sea interdictions 
because we have been able to push those ships, those 
resources--fewer of them in the Florida Straits to now look at 
some of these other threats.
    So I would call it a target-rich environment. So if it is 
not migrants, you know, there is plenty to do with all the 
other illicit activity in the Caribbean, also in the Eastern 
Pacific.
    Mr. Price. Thank you.

                      PROCUREMENT FUNDING STRATEGY

    Mr. Carter. Admiral, I want to go back to the icebreaker 
for a minute. As we have talked about, the U.S. Navy and the 
Coast Guard established this joint program office to managing 
the acquisition of this asset, and the bulk of the funding so 
far has been with defense appropriations.
    However, Defense Committee, in their report accompanying 
language in the fiscal year 2017 omnibus, encouraged the Coast 
Guard to budget for the--all follow-up requirements. The money 
that we got from the defense was the planning money.
    Can you tell this committee about the procurement funding 
strategy for this program in 2018 and beyond? Do you envision 
that we have to chin these $1 billion ships ourselves or are we 
going to still be getting shared cost with the big budget of 
the defense?
    Admiral Zukunft. Chairman, that is a great question and I 
have spent a lot of time talking to Sean Stackley, and as we 
look at building this first heavy icebreaker he is all onboard, 
you know, in standing up this integrated program office for the 
first. And we have also been looking at driving the cost of 
this first one down to get that cost figure under $1 billion. 
We haven't built one of these ships in 40 years. There will be 
a front-end investment.
    But I cannot go at risk, and the Navy has gotta--if they 
are going to a 355-ship Navy they have gotta recapitalize the 
Ohio-class submarines, you know, where does the Coast Guard 
equities play into there? And so that is a risk I am not 
willing to take in the out years.
    And I will look to see. You know, we are going to have to 
look very hard to make sure that we don't lose this 
appropriation. We certainly have the capability, the capacity 
within our acquisition program to see this program through. And 
in fact, I could not be more proud of our acquisition staff, 
who have held requirements steady, growth steady, on-time 
deliveries with zero-discrepancy ships being delivered to our 
service.
    But the funding piece is a huge concern going forward. When 
I look at the pressure that is going to be placed on the Navy 
with their recapitalization aspirations, this is a program we 
would be in a much safer place if we had the appropriation in a 
Coast Guard budget versus DOD.
    Mr. Carter. But you understand we are talking about a 
roughly $40 billion budget here versus a $600 billion budget 
there, and $1 billion for us is--means a lot of things have to 
go wanting in other areas of homeland security. As you well 
know, I have talked to you publicly and privately--I am all in 
for the icebreaker program. I definitely want this first 
icebreaker to be an example and I don't dispute your three-and-
three idea.
    But as I look down the tunnel of time, these are big-ticket 
items--as big a ticket items as we would have in the homeland 
security budget. We don't know where we are going to be with 
this administration. We may get beefed up because we are 
obviously part of where this president has a vision.
    But let's be practical: This is a big-ticket item so I am 
hoping the Navy won't bail out on us. And I didn't like that 
language when I saw it. You probably didn't like it either.
    Admiral Zukunft. No, sir.

                           LEASE ALTERNATIVE

    Mr. Carter. And back to another subject we have talked 
about extensively, but I know it is back on the table: the 
medium icebreaker idea, that there is this commercial ship that 
has been offered as a possible lease alternative on medium 
icebreaker, yet we--I don't think we have been able to see what 
this ship can actually do. It was designed as a service vehicle 
for offshore platforms and besides to get there, I assume.
    The question we have got to ask ourselves is--there are 
multiple. I am going to throw a couple of them out at you and 
see what you think. A, can it break ice in the Arctic and the 
Antarctic? Do we know? Do we not know?
    Can it perform law enforcement missions, i.e., boarding 
operations being operated by commercial crew? Would it require 
major reconfigurations to make it an active part of our fleet? 
And could leasing the service help mitigate the risk of 
icebreaker acquisition in the Arctic strategy?
    These are things I would wonder, I am sure you have looked 
at. What do you think?
    Admiral Zukunft. Thank you, Chairman.
    So over a year ago I sent a team of engineers down to look 
at this particular vessel. They provided me a report and so 
then I went down, and actually I went out to Seattle to see 
this ship, as well.
    And among other things, first of all, it has never 
completed ice trials. I mean, on paper it is an icebreaker but 
it hasn't demonstrated ability to break ice of what we would 
require a medium icebreaker to do.
    It is not configured to launch and recover boats to do law 
enforcement missions. It is not configured to hangar a 
helicopter. It is not equipped to do what I would consider 
sensitive communications at a classified level to do maritime 
domain awareness. And to do that with a civilian crew--perhaps 
it can be done, but there are a number of conditions that would 
need to be satisfied before we can entertain this.
    So we are in a dialogue with this vendor of, ``Here is what 
it would take.'' No one has put a price tag on the table, and I 
don't know what that price tag is.
    And I would not absentmindedly, you know, make a promissory 
to engage in this lease option, if you will, and then 
pressurize this committee to not only raise money to 
recapitalize a fleet but now I have got perhaps an exorbitant 
lease rate on a platform that may at best marginally meet our 
requirements. An so I need to be a responsible steward in that 
regard.
    So we will continue to have a dialogue with this vendor and 
ideally get to a point where, you know, we need to talk price 
here, and not conceptually.
    Mr. Carter. I am sorry?
    Mr. Ruppersberger. Could you yield for just a second?
    Mr. Carter. Yes, I yield.
    Mr. Ruppersberger. I would think that if we are going to 
move forward and spend the money, all the issues you said this 
ship does not have now, we need to move forward with an 
intelligence component. We need to look forward with all of the 
other issues you are talking about because that could be a--
when you are talking about oil reserves and gas reserves 
between Russia and China, that could be a really dangerous 
spot, and I think we need to be prepared and not just put money 
in--we have gotta be--we have gotta have something like the 
Zumwalt. You know what I am talking about? That new ship that 
we just----
    Admiral Zukunft. I have been on that one, too. Yes, sir.
    Mr. Ruppersberger. Thank you for yielding. Yield back.
    Mr. Carter. Thank you. Thank you, Mr. Ruppersberger.
    And, you know, so basically we are still where we were when 
we had this conversation last time. We are still looking at it; 
there is an avenue of conversation going on, but the positions 
are still the same as per that report which I read the previous 
time you looked at it. We are pretty well in the same place.
    Admiral Zukunft. Yes, Chairman. We have been in the 
business for over 70 years. We know what it takes to operate in 
this very remote, harsh environment, and this is a unique 
design for a single purpose, and so we are more than willing to 
sit down with this vendor and have a back-and-forth.
    But until we actually start getting into the specifics and 
what are some of the costing algorithms involved, I am not 
ready to move forward until I have all that information in 
front of me. And it would be a breach of trust on my part for 
me to then turn to you, sir, and say, ``I am going to need this 
lift to lease something. I am not even sure if it is going to 
meet our requirements.''
    Mr. Carter. I assumed we were still in the same place but I 
had to ask because I knew that there still was a conversation 
going on.
    Admiral Zukunft. We are, sir.
    Mr. Carter. Does everybody want to do a second round or--
Okay----

                            BORDER SECURITY

    Ms. Roybal-Allard. Well, first of all, I just want a little 
bit of clarification in your response to Mr. Price's question 
with regards to the impact of building a wall.
    It is my understanding then there is the unintended 
consequences, actually, that there will be increased migration 
and drug trafficking on the seas. And is the Coast Guard doing 
anything in anticipation that that might happen, especially 
with the limited funding that you have?
    Admiral Zukunft. Ranking Member, we haven't seen that 
happen yet, but probably no better insight than when I met with 
each of the presidents of the tri-border region of Honduras, 
Guatemala, and El Salvador. When you look at the economies, 
they are not doing well. When you look at the violent crime, 
not doing well. Lot of parents are actually pulling their 
children out of school because they are afraid they will be 
coopted by a gang, and so what is going to happen this next 
generation?
    And so what they are telling me is that their only hope is 
to get out of their country and they will do whatever means 
that it takes. And if a wall stands in their way at some point 
in time they will find a way to go around the wall. And so we 
have not seen that yet, but that would be a foreseeable 
consequence. If you have an impenetrable barrier on the land 
border then you go where there isn't a wall, and in all 
likelihood that would mean take to the sea.

                         UNFUNDED PRIORITY LIST

    Ms. Roybal-Allard. Okay. In the fiscal year 2017 bill we 
were able to provide a small amount of funding, $10 million, 
for projects on the Coast Guard's unfunded priority list. And I 
imagine this list will likely grow to increase competition for 
funding created by the push for increased border security.
    Do you expect the unfunded priority list to grow in fiscal 
year 2018 and in future years?
    Admiral Zukunft. Yes. Thank you, Ranking Member.
    So we are doing triage on what I would call our shore 
infrastructure. And so when I laid out a way ahead and we talk 
about a $2 billion floor, if you will, for major acquisitions, 
$300 million of that would be allocated to our short 
infrastructure.
    What it does, it provides us a more deliberative approach 
on our major acquisitions to eat at the $1.5 billion shore 
infrastructure backlog that we have right now and do it in a 
deliberative way to a point in time where we don't have to look 
at an unfunded priority list and triage what our needs are one 
year to the next.
    But in the meantime, we do owe this committee our unfunded 
priority list for 2018. Our folks are hard at it. We have got 
our 2017 appropriation, and working that through our 
department, through OMB, I put the pressure on our folks 
because we need to get that to you on time because you have 
done tremendous lifting to work at those unfunded priorities. 
And again, I thank you for doing that.
    Ms. Roybal-Allard. Okay. So the list will be provided to 
us?
    Admiral Zukunft. Yes, ma'am.
    Ms. Roybal-Allard. Okay, because it is important. Obviously 
we are not going to have all the money to be able to address 
all of your needs, but I think it is important for us to know 
what those needs are and how you are prioritizing.
    Mr. Carter. Thank you, Ms. Roybal-Allard.
    Ms. Roybal-Allard. Just one more question, okay?
    Mr. Carter. Oh, I am sorry.

                           SOCIAL MEDIA ABUSE

    Ms. Roybal-Allard. Because I was greatly disturbed to hear 
about the recent Marine Corps photo-sharing scandal in which 
the members of the Marines United Group posted explicit 
pictures of female Marines without their consent. What is even 
more egregious is that according to news reports, this group 
was discovered by regular rank and file Marines, not 
specialized investigators.
    What does the Coast Guard do to monitor social media for 
abusive behavior like this?
    Admiral Zukunft. So we sent a team of investigators so we, 
you know, worked with all the other armed services when this 
scandal came out. Relieved to see that we don't have a Coast 
Guard Web site of Coast Guard United. And in fact, there were 
very minimal involvement of victims, if you will, in this 
Marines United Web site.
    It is a challenge, just because of the proliferation of the 
websites that are out there, but we do have policies in place. 
This is harassment in the workplace. This is bullying. And so 
there are measures in place to hold people accountable.
    I know the commandant of the Marine Corps is looking at 
standards of accountability and, you know, this is a 
subculture. It is inconsistent with everything that all the 
armed services stand for, but there is this subculture.
    Ms. Roybal-Allard. Do you have investigators that actively 
look for this type of behavior?
    Admiral Zukunft. We are right now. So as part of this task 
force that was stood up we went out and we scanned the Web 
sites. And you have to get creative, you know, in looking, you 
know, for search engines and trying to find this. And some of 
the--are they on the dark Internet? But we have not seen any 
surface.
    You know, the other aspect of this subculture, you know, I 
put a communique out to the entire workforce that we are a 
service of bydoers. You know, we always talk about bystander, 
but you do something when you see something wrong.
    We have seen tremendous progress in the reduction of sexual 
assault in the United States Coast Guard. It was my imperative 
to try to drive this out of our service altogether, but our 
numbers are down 40 percent over the last year. Not only that, 
but more and more members are coming forward with unrestricted 
reports, which tells me they know that leadership takes this 
serious, we are going to hold those accountable that think that 
they can live a double standard, but not in my Coast Guard.
    Ms. Roybal-Allard. Thank you.

                          SMUGGLER PROSECUTION

    Mr. Carter. Dr. Harris.
    Dr. Harris. Thank you very much, and I am sorry I wasn't--
--
    Mr. Carter. Turn your mike on.
    Dr. Harris. I think it might be on. Just not close.
    Mr. Carter. If it is red it is on.
    Dr. Harris. Thank you very much.
    Thank you, Admiral, for being here today. A couple of 
questions.
    First of all, just one observation. I hope that we pay 
particular attention to the Bahamas and, you know, that 
international trafficking that might occur from the Bahamas 
because of their policies, you know, on visas. It seems like it 
would be a pretty easy entry route for some people to enter the 
United States who aren't here for good means.
    Anyway, let me ask about compliance with one of the--some 
of the executive orders the President has issued. Executive 
order 13773, Enforcing Federal Law with Respect to 
Transnational Criminal Organizations and Preventing 
International Trafficking--in your testimony you talk about the 
interception of--and again, it is the President's 
prioritization of saying, ``Look, we are actually going to get 
tough with people who attempt to do this.''
    But you say that, you know, 588 smugglers were detained but 
only 156 were referred for prosecution. You know, we heard--I 
believe it was in this subcommittee--from the Border Patrol 
under the last administration. You know, you have to carry a 
significant amount of drugs with you before you were 
prosecuted, which is just striking to me. I mean, we should 
have zero tolerance. These are drugs. These are harmful. These 
kill Americans.
    And so I am curious, if you detained 588 smugglers why are 
only 156 referred for prosecution?
    Admiral Zukunft. Doctor, I will have to get back to you on 
that 156 number because we are looking at nearly 100 percent 
prosecution rates.
    Dr. Harris. Well, but this is in your written testimony. I 
don't understand. This is not, you know, 588 smugglers; 580 
detained--this--I--and maybe you--maybe some of your staff can 
assist you with this who wrote this for you. Didn't that strike 
them as pretty unusual?
    You detained 588 people with drugs, I assume, or some 
illegal contraband, and you only prosecute 150. I mean, that 
bothers me tremendously.
    As someone who wants to protect the youth in my district 
from illegal substances that the last administration turned 
their back on, creating a horrendous, horrific epidemic in this 
country, I appreciate you getting back to me on it.
    Admiral Zukunft. Okay. As I said earlier, I was in Tampa, 
Florida on Monday. We take these detainees there, referred to 
the U.S. attorney, 100 percent prosecution. Many of them are 
providing information. So there are a lot of folks in the 
pipeline.
    Dr. Harris. Well, this says ``referred for prosecution.'' 
Doesn't say ``prosecuted.''
    Now, look, I don't understand whether you are being honest 
with me or not. You have plain English in your testimony. It 
says ``referred for prosecution.'' Doesn't say ``in a 
pipeline.''
    Admiral Zukunft. Yes, we will get back to you on that, sir, 
because I--
    [The information follows:]

    In 2016 a service-record 201.3 metric tons of cocaine (7.1 percent 
of estimated flow) were removed from the western transit zone, 585 
smugglers were detained and 156 cases were referred for prosecution.
    Of the 585 smugglers detained, 544 were referred for prosecution 
(468 referred for US prosecution; 76 referred for partner nation 
prosecution). The Department of Justice determined that there was not 
enough evidence to prosecute 41 of the 585 smugglers, and there were 
released.

    Dr. Harris. I hope that under this administration our 
border security has zero tolerance. And, Admiral, you are a 
part of our border security.
    Admiral Zukunft. Well, I am a zero-tolerance kind of guy, 
Doctor.

                      BORDER SECURITY IMPROVEMENTS

    Dr. Harris. I hope so. I hope so.
    All right. With regard to the immigration enforcement, we 
have obviously another executive order, 13767, Border Security 
and Immigration Enforcement Improvements, appear to be kind of 
directed toward the southern border but I assume that the Coast 
Guard looked at the executive order and said, ``Yes, there are 
actually things that we can improve in--under this order.''
    And again, to reverse the striking--the strikingly--I don't 
even know how you would phrase it--the catch-and-release 
policies of the last administration, the willingness to turn 
their back on defending our border. So I would like to know 
what the Coast Guard is doing with regards to that particular 
executive order, the enforcement improvements for our border 
security.
    Admiral Zukunft. Well, Doctor, before this executive order 
we had more than doubled our Coast Guard presence in the 
transit zone--illicit drugs. We removed a record amount of 
cocaine last year and we will probably beat that record again 
this year.
    So we have repositioned where we have forces.
    Now we do that--I don't have more ships than I had the year 
before. I have taken them out of other areas to double down 
here. In fact, we are the only--you know, we don't see other 
aspects of our military operating this domain, so I have taken 
that upon myself.
    We have not seen any Cuban migrants since a wet foot, dry 
foot policy went into effect in January. We have in the last 7 
weeks not one Cuban migrant.
    The threat vector you alluded to, the Bahamas--so some of 
those ships that were between Florida and Cuba, we are now 
looking at the threat coming from the Bahamas. Most of what we 
are seeing is what I would call human smuggling: Brazilians, 
Venezuelans. We are not seeing those special interest aliens 
that may be coming to the United States to cause us harm, but 
we are looking at that threat, as well.
    We have joint task forces created on the Department of 
Homeland Security. We have Coast Guard, CBP, Homeland Security 
Investigations working hand in glove to look at--most of this 
is focused almost exclusively on illegal migration, but to work 
not just on the members but what is the network that are moving 
these people, as well.
    Dr. Harris. Well, thank you. And I appreciate that because, 
you know, there are only two ways to get into this country 
illegally. They gotta come by land or by sea. And, you know, 
you have a huge role in the by sea.
    And with regards to getting back to me on the first 
question, I understand that you can only catch. Obviously a 
prosecutor has to agree to prosecute. And that is what I want 
to know.
    I want to know if what is--what we heard at our southern 
border was that the prosecutors were unwilling to prosecute 
low-level drug crimes when they involved violating our borders 
to deliver drugs here to kill our people. That is what they do. 
Drugs kill our people.
    So I understand, but you are the one who is best able to 
say, ``Look, we find these people. Somebody downstream isn't 
doing what they need to do.'' So I am depending on you to let 
me know what is going on there.
    Admiral Zukunft. Yes.
    Dr. Harris. Thank you.
    Admiral Zukunft. So again, there may be a technicality. So 
these were cases, versus individuals. So typical smuggling 
package is four to five people, and that goes into a case 
package.
    Dr. Harris. Okay.
    Admiral Zukunft. And so we may be, you know, I think in 
violent agreement, perhaps, but I need to validate, okay, who 
are in these cases, what are the numbers of people. But 
typically it is four to five in a go-fast and they typically 
plead out. And again, prosecution rate pretty darn high.
    Dr. Harris. Good. And that is what I need to go after. 
Because again, what we heard from the southern border is that 
the prosecution rate wasn't high. Because I think the--when you 
seize contraband I think it is probably higher quantities. I 
mean, people don't put one little cube of marijuana on a boat.
    But if you can get back to me, I would appreciate that.
    Thank you. I yield back.
    Admiral Zukunft. Yes, sir.
    Mr. Carter. Mr. Cuellar.

                              LEGAL SYSTEM

    Mr. Cuellar. Thank you, Mr. Chairman.
    Let me just follow up on my colleague.
    This is an issue I have been looking at because I do live 
on the border, and I assume this applies to any of the U.S. 
attorneys. Brought this to the attention of Chairman Wolf some 
time ago because what you have is every U.S. attorney district 
will have a different policy.
    You, just like Border Patrol, you do your job. You get 
them; you present them over to the U.S. attorney's office.
    The U.S. attorneys--because Congress, and that means, if I 
can just correct my colleague, it is not the past 
administration; it is the past administrations, with an S, and 
this could continue if we don't add money into the legal 
system.
    The problem is Congress always puts money into Border 
Patrol, the law enforcement, and you create activity because 
you arrest people, you put them down the legal system. But if 
we don't have the U.S. attorneys, judges, and if you look at 
the caseload for the judges on the border, they are about this 
high compared to other judges who have a level caseload this 
high.
    So if we don't add judges, U.S. attorneys, U.S. marshals, 
and everybody down the stream, then what they are going to 
continue doing is they are going to continue prioritizing the 
cases. And I know that because I get frustrated in my area 
because, without revealing the amount of drugs where they 
either say, ``We are not going to prosecute,'' or, ``We are 
going to give it to the local district attorney,'' and the 
local district attorney say, ``Hey, we are already loaded up 
here,'' then what happens is I joke around that if you are a 
bad guy all you have to do is X amount, just be a pound under 
and you might be let go because--or sent to the State level 
because of the priorities.
    So it is all a matter of funding, and if we just keep 
putting money on the goal line then all we are going to have is 
we are going to have the same problem past administrations--
with an S--and current administration. Unless we seriously put 
money on judges--I am talking about the border, the judges, the 
U.S. attorneys, the U.S. marshals, and everybody down the 
system, we are going to be in the same thing and still be 
talking about this for a while.
    In my opinion, it is not your fault. It is a matter of 
putting money into the legal system, number one.
    You also mentioned that the wall is a defense and you do an 
offense on the water. I respectfully disagree.
    I think if you look at the $18 billion that we spend on 
land and ocean, that is a one-yard line, the goal line. And if 
you want to play football I would rather play defense not on 
the one-yard line, but I would rather play defense on the--
their 20-yard line, which means that, like you mentioned, work 
with Central America, work with the Colombians. You know, the 
president is here this week, as you know--Colombian president.
    And that is what we need to do--extend our perimeter 
instead of playing on defense. So we appreciate your efforts on 
that last point.
    The last thing I want you to consider--and I got some 
language into the law some years ago and the Coast Guard did a 
report--is the only international waterway that you all don't 
really spend time on is the Rio Grande. And I understand it is 
not--it is what they call--a member of the last Coast Guard, it 
is brown waters compared to blue waters, and you prefer blue 
waters. I understand that.
    And I understand that it is not deep, but you have got 
those airboats that are available there. I know the air marine 
is doing some work there, but just want to just mention for the 
record the only international river that you all don't do any 
work on, really spend, is the Rio Grande, just--and it is 
international waters, as you know, because it is an 
international river.

                            Closing Remarks

    So I do want to say I appreciate your work. I look forward 
to working with you on the icebreakers.
    When I mentioned to Secretary Tillis he said he was going 
to talk to--Tillerson--he was going to talk to the President. 
So if he mentioned it at the speech I guess he did do that, or 
maybe he listened to somebody's wife. I don't know what--but 
either way, I want to be supportive of the committee on the 
icebreakers because we just can't forget about the Arctic.
    I do appreciate the work that you do, and sometimes your 
hands are tied.
    And, Mr. Harris, I would be happy to work with you because 
I have been looking at this for a long time. And it is 
frustrating. It really is frustrating that law enforcement--
that includes you also in the work--you present it over at the 
U.S. attorneys, they don't have the resources, and therefore 
they make priorities, and I don't like those priorities on 
that. But unfortunately, if we don't put the money we are going 
to be talking about this for this administration, other 
administrations.
    But I appreciate the work that you all do.
    Admiral Zukunft. Congressman, just on that note, where we 
prosecute these drug cases I have taken out of hide a number of 
our JAG officers as special assistants to the U.S. attorney so 
we can move these cases forward. And I will continue to make 
that investment to take some of that burden so these do not 
become low-priority cases, and so we do get the prosecution, as 
well.
    Mr. Cuellar. Yes.
    And finally, Mr. Chairman, keep in mind Miami Vice, and, 
you know, in the 1980s if you remember the drugs were coming in 
through the southern--I mean, that area of the United States. 
Some of us in Texas were saying, ``You know, one of these days 
it is like a balloon. If you put the pressure here they are 
going to come another way.''
    Sure enough, years later here we are talking about the 
border. And as you know, when you talk about billions of 
dollars of drugs coming in, there--we have consumption in the 
U.S. and the bad guys are going to--transnational groups are 
going to be making money, they are going to find a way. If you 
block over here they are going to come another way and it is a 
constant, ever-going, you know, strategy that we gotta have. It 
is not static. It is ongoing and, again, you all play a very 
important role.
    Admiral Zukunft. Yes. And just adjacent to your district, 
you know, down in South Padre Island huge influx of illegal 
poaching by Mexican fishing vessels fishing in U.S. waters. And 
a lot of these fish are protected--red snapper, for example.
    So a lot of effort being expended by the Coast Guard to 
stem this back. Weekly we are, you know, seizing these Pangas, 
but they just keep coming and coming.
    If you are down in Port Isabel you will see a yard filled 
with hundreds of these boats that we are seizing. So right now 
it has been a pressure point for us on our border as it 
approaches the Rio Grande.
    Thank you, sir.
    Mr. Carter. Mr. Cuellar has done a lot of very hard work, 
and I have also twisted Mr. Culberson's arm. We are getting 
more legal resources into this project.
    Mr. Taylor.

                             COUNTERRORISM

    Mr. Taylor. Thank you, Mr. Chairman.
    Admiral, real quick can we speak about the antiterrorism 
force, MSRT I think it is? Can you just talk to us about--you 
know, and let me preface this by saying I was very impressed by 
the coordination and collaboration down on the border, 
specifically in the San Diego area, of course, with the Coast 
Guard and CPV and how that--just using each other's strengths 
and weaknesses and leveraging those. I thought it was awesome.
    On the antiterrorism force, MSRT, is that something that 
you see that is essential for the Coast Guard mission? Is it 
absolutely needed?
    If so, is it--what are the capabilities currently? Do you 
need more funding for it? Can you just talk a little bit about 
that, please?
    Admiral Zukunft. Yes. Thank you, Congressman.
    And as you would well appreciate, you know, these are 
actually counterterrorism, not antiterrorism.
    Mr. Taylor. Counterterrorism----
    Admiral Zukunft. Two teams, one in San Diego, one in 
Chesapeake, each team about 200 people strong.
    I was just at SOCOM. I met with General Thomas on Monday, 
as well, and as you know, SOCOM is lead for, you know weapons 
of mass destruction proliferation. You know, they are the go-to 
team.
    The Coast Guard has over nearly a dozen bilateral 
agreements. It covers every flag state of convenience.
    We have a national targeting center in Reston, Virginia. We 
work with CBP, Coast Guard. So we screen every ship over 300 
gross tons on an international voyage--the cargo, the cargo 
manifest, where was it packed, who are the people?
    And so if there is an anomaly and say, ``Well, wait a 
minute. You know, there could be a weapon of mass destruction. 
We don't know 100 percent, but there might be one in this 
container.''
    We have the authority to board that ship anywhere on the 
high seas, and if they are not compliant then we have 
agreements with Third Fleet to provide vertical lift, so we 
come in with a team, we fast-rope in. We take positive control 
of that ship. We stop it, and then we go ahead and we do the 
search.
    We can do everything but what Special Forces can't do. I 
can't say that in an unclassified environment.
    But it gives us that authority in an ambiguous threat to 
stop it before a ship, say, enters the Port of San Diego, a 
military port, and now we have got a commercial ship with a 
weapon of mass destruction on it.
    So we still see a requirement for us to have it. Either 
that or we assume away there will be no proliferation of 
nuclear material, you know, forever to come. And when I look at 
Pakistan, I look at North Korea, I am not ready to make that 
assumption, so we need to sustain this capability.
    This is not your everyday Coasties. We are open to both 
genders, but as you can appreciate, what it takes to get folks 
through that level of competency from weapons to agility, the 
muscle memory that is required to do these jobs, these are a 
one-of-a-kind--we have two of them in the United States Coast 
Guard--in the Department of Homeland Security, for that matter, 
as well.
    Mr. Taylor. Just a quick question, a quick follow up on 
that, and certainly not diminishing any capabilities that are 
at the level of what they do, and I think it is awesome, you 
know, I know that in San Diego specifically, where the Navy 
will utilize the Coast Guard and they will work collaboratively 
to use some of the law enforcement powers to be able to board 
ships, as you very well know, again, is that something that 
SOCOM can be a part of, again, or--and also, what is the budget 
for the counterterrorism forces currently for----
    Admiral Zukunft. Yes. So we have both of those in budget. I 
will get back to you on what that exact number is.

    The total budget for counterterrorism forces is approximately $51 
million; this includes personnel, training, equipment, and operations 
costs. MSRT Chesapeake accounts for $24.7 million and MSST San Diego 
accounts for $26.3M of the total.

    But at the same time, you know, I have advanced 
interdiction teams from these elements that are currently 
filling a niche over in, you know, in CENTCOM's AOR. That takes 
a burden off our soft community, our Navy SEALS as they are 
looking at doing other things.
    So we do get those requests for forces for a capability, 
and these are teams, we call them advanced interdiction teams, 
that can provide these platforms serving off Navy ships.
    Then what it provides, you know, NAVCENT is the ability of 
saying, ``OK, these aren't just Title 10. We could also do 
Title 14 law enforcement because we have this unique team that 
can switch hit Title 10 and Title 14.''
    Mr. Taylor. Excellent.

                                 PORTS

    Switching gears really quickly--thank you. Thank you, 
Admiral. We have heard about modernizing the fleet of Coast 
Guard cutters and might acquire additional mile pier length 
beyond your current fleet needs and that you are potentially 
looking to cluster your assets and optimize more shore 
maintenance activities. Any chance of potentially home-porting 
those fleets in the Tidewater area?
    Admiral Zukunft. Tidewater has been a great home for us. It 
is a great home for our people, too. I mean, they always say it 
is a Navy port; well, it is a Coast Guard port, too, as well.
    So as we look at building out our fleet of offshore patrol 
cutters we will probably have to extend our pier lengths that 
we have at our base in Portsmouth. We will probably have to do 
some dredging.
    But when we look at just not the infrastructure but we also 
look at the communities--the health care, the schools, and the 
fact that you can do multiple assignments in the same 
geographic region and our people like being there--they stay in 
the Coast Guard. So Tidewater has always been friendly to the 
Coast Guard, and you can count on seeing white ships with red 
racing stripes in the Tidewater region for the indefinite 
future.

                            CLOSING REMARKS

    Mr. Taylor. Excellent. Well, thanks for your service. 
Thanks for your testimony today. Thanks for all of your service 
over there. We appreciate you and look forward to working with 
you. Thank you.
    Admiral Zukunft. Thank you, Congressman.
    Mr. Taylor. Thank you, Mr. Chairman.
    Mr. Carter. Admiral, we thank you for being here. We went a 
little long, but the reality is you guys are kind of the 
darling of our world that we live in in this subcommittee and 
we are glad to be able to have a conversation with you.
    Thank you for your patience. Thank you for the great work 
you do. Thank all of the Coasties for us. They are models for 
America. I appreciate you.
    Admiral Zukunft. Chairman, thank you.
    Ranking Member--all the members, and I especially want to 
thank those sitting on the back seats over there, just like the 
people sitting behind me. A lot of this work doesn't happen 
without the support of our staffs, so again, thank you very 
much.
    Mr. Carter. Yes, sir.
    <GRAPHIC><TIFF>T7050A.006
    
    <GRAPHIC><TIF1>T7050A.007
    
    <GRAPHIC><TIF2>T7050A.008
    
    <GRAPHIC><TIF3>T7050A.009
    
    <GRAPHIC><TIF4>T7050A.010
    
    <GRAPHIC><TIF5>T7050A.011
    
    <GRAPHIC><TIF6>T7050A.012
    
    <GRAPHIC><TIF7>T7050A.013
    
    <GRAPHIC><TIF8>T7050A.014
    
    <GRAPHIC><TIF9>T7050A.015
    
    <GRAPHIC><TIF10>T7050A.016
    
    <GRAPHIC><TIF11>T7050A.017
    
    <GRAPHIC><TIF12>T7050A.018
    
    <GRAPHIC><TIF13>T7050A.019
    
    <GRAPHIC><TIF14>T7050A.020
    
    <GRAPHIC><TIF15>T7050A.021
    
    <GRAPHIC><TIF16>T7050A.022
    
    <GRAPHIC><TIF17>T7050A.023
    
    <GRAPHIC><TIF18>T7050A.024
    
    <GRAPHIC><TIF19>T7050A.025
    
    <GRAPHIC><TIF20>T7050A.026
    
    <GRAPHIC><TIF21>T7050A.027
    
    <GRAPHIC><TIF22>T7050A.028
    
    <GRAPHIC><TIF23>T7050A.029
    
    <GRAPHIC><TIF24>T7050A.030
    
    <GRAPHIC><TIF25>T7050A.031
    
    <GRAPHIC><TIF26>T7050A.032
    
    <GRAPHIC><TIF27>T7050A.033
    
    <GRAPHIC><TIF28>T7050A.034
    
    <GRAPHIC><TIF29>T7050A.035
    
    <GRAPHIC><TIF30>T7050A.036
    
    <GRAPHIC><TIF31>T7050A.037
    
    <GRAPHIC><TIF32>T7050A.038
    
    <GRAPHIC><TIF33>T7050A.039
    

                                           Wednesday, May 24, 2017.

             UNITED STATES DEPARTMENT OF HOMELAND SECURITY

                                WITNESS

HON. JOHN F. KELLY, SECRETARY OF HOMELAND SECURITY
    Mr. Carter. All right. Today's hearing is called to order.
    Welcome to the subcommittee's first hearing on the 
Department of Homeland Security's fiscal year 2018 presidential 
budget request.
    I would like to extend a special welcome to today's 
witness, Secretary John Kelly.
    Mr. Secretary, we are very pleased you answered the 
President's call to lead DHS. Having someone with your 
credentials at the Department will strengthen it and enrich it. 
It is good to begin the fiscal year 2018 appropriation cycle. 
Despite the late start, I am confident the subcommittee will 
produce a bill that supports the Department's mission, balances 
competing interests, and is affordable to the American 
taxpayers.
    Before I dive into the numbers, Mr. Secretary, I have a 
couple of pieces of advice. First never lose focus on the 
Department's highest priority of keeping the Nation safe and 
enforce the law of the United States. With your reputation, I 
know you will do that.
    Second, stay in touch with me, Ms. Roybal-Allard, and the 
subcommittee, and let us know when you need help. Everyone on 
this subcommittee wants DHS to be successful meeting its 
mission, besides, failure is absolutely unacceptable.
    Two, I know I speak for everyone when I promised we will 
always listen respectfully to your suggestions and advice, and 
we will be reasonable and evenhanded in our responses.
    I for one am grateful the President directed you and the 
men and women of DHS to focus on the Department's law 
enforcement missions.
    I am tremendously pleased catch and release is a relic of 
the past. And as a result, illegal crossings of the border are 
60 percent lower--64 percent lower than in April the same time 
last year.
    This is proof that the President enforcing the Nation's 
immigration laws is a forceful deterrent. I am also satisfied 
with the $1.5 billion border security package included in the 
fiscal year 2017 omnibus bill. Simply enacting legislation that 
supports enhanced border security and interior enforcement 
sends a powerful message to human traffickers and drug runners 
that business as usual on the border is over. If you break our 
Nation's laws and cross the border illegally, you will suffer 
the consequences, which is a guaranteed stay in detention.
    The fiscal year 2018 request continues the administration's 
emphasis on law enforcement, and that is important. The total 
discretionary funds requested is $44.06 billion, which is an 
increase of $1.66 billion over last year. Items I am pleased to 
see you included are the $2.6 billion for border security, 
which includes 74 miles of physical barrier along the southwest 
border and significant investments in surveillance, technology, 
and aviation systems; $4.9 billion for enforcement and removal 
operations, including $3.6 billion for 51,379 detention beds, 
an increase of 12,055 above the amount provided in fiscal year 
2017. Additional funding is proposed to actively enforce the 
Nation's immigration laws.
    Substantial increases are proposed for additional law 
enforcement agents at Border Patrol and Immigration and Customs 
Enforcement. Though I support this initiative this subcommittee 
will take a hard look at whether it will succeed. As I am sure 
you know, attrition in both organizations has outpaced hiring 
in the last 2 years, despite congressional increases for 
incentive programs. I am not inclined to leave money on the 
table if DHS is unable to meet these hiring goals.
    For the first time in many years, the United States Secret 
Service request meets their requirements.
    I have concerns, too. The cyber threat to the Nation's 
network and critical infrastructure grows daily, yet, the 
budget for cybersecurity has not increased at all from your 
current level of funding.
    While there is funding for border security, there should 
also be corresponding increases for our ports of entry where 
the majority of all illicit drugs and currency enter our 
country. Physical barriers may stop human trafficking, but they 
are not the only means of decreasing illegal drugs and 
currency.
    Slashing funds for FEMA critical grants and training 
programs by $918 million is worrisome and shortsighted, 
especially for cities that are targets of terrorism.
    Likewise, I am surprised and disappointed that the 
administration chose to perpetuate the last administration's 
bad habit of proposing fees to increase TSA and using it as an 
offset despite knowing it is unlikely to become law.
    While balancing all the continuing priorities of DHS is an 
understandable challenge, I remain concerned about reliance on 
budget gimmicks and cuts to important national security 
programs. I hope the fiscal year 2019 request will focus on the 
Nation's homeland security priorities and not allow offsets 
that this subcommittee doesn't control.
    In conclusion, I want to restate my commitment to work with 
you, and I also want to take a moment to commend the budget 
offices of every DHS component and at DHS headquarters. 
Executing under a CR, proposing and advocating for a budget 
amendment, and developing a new budget request over a 2-month 
period is a monumental undertaking. They deserve our thanks.
    I want you to know that I am blessed to have Lucille 
Roybal-Allard as my ranking member. She and I don't always 
agree 100 percent on the policy, but her balance and helpful 
approach engenders collaboration, which means a better bill for 
the men and women of DHS. For that, I want to thank her and 
recognize her for any remark she wishes to make.
    Ms. Roybal-Allard. Thank you, Mr. Chairman.
    Good afternoon, Mr. Secretary, and welcome to your first 
appearance before this subcommittee.
    There is no doubt that you have a really hard job, and in 
my opinion, among the hardest in government.
    The Department is still quite young and still maturing in 
institutional terms, and it has a large and diverse set of 
components and missions.
    Some of those missions, as you well know, are extremely 
controversial. We will disagree about some policies and 
priorities as we did with your predecessor. In some cases, we 
will strongly disagree. We do, however, share the common goal 
of protecting our country and its values.
    My hope is that we will have the same constructive working 
relationship with you that we had with Secretary Johnson.
    The members of the subcommittee have the common goal of 
appropriately resourcing the Department to protect and to serve 
our country. This includes supporting the men and women who 
make up your Department, the vast majority of whom are fully 
dedicated to their work and are performing admirably.
    Immigration enforcement will be the biggest challenge that 
we will face in working together. I hope you understand that in 
my view, the crux of this issue is not simply a matter of 
enforcing the law or not. It is the manner in which that 
enforcement is done.
    It is also a question of the incremental benefit to the 
Nation of significant new investments in border security and 
immigration enforcement actions and capabilities.
    Each additional segment of physical barrier at the border 
and each initiative to hire more immigration enforcement 
officers comes potentially at the expense of things like State 
and local preparedness, cybersecurity, investments in the Coast 
Guard fleet, and a multitude of other priorities outside of our 
bill.
    So it isn't enough to simply ask whether an investment 
would improve homeland security. We must also ask what the 
incremental benefit is, what the downsides are, and what the 
tradeoffs are.
    Mr. Secretary, our immigration laws are entirely out of 
step with the situation on the ground in this country. On your 
watch, I know you see an aggressive enforcement posture as 
faithfully carrying out the laws currently on the books, but 
you do have discretion.
    And right now, that aggressive enforcement is upending the 
lives of millions of people, the vast majority of whom are 
valuable, contributing members of their communities. The vast 
majority of whom are guilty of no criminal acts. The vast 
majority of whom have been in this country for many years 
working jobs that others are unwilling to do.
    For example, I have had growers from California and 
representatives from the hotel and restaurant industry tell me 
and other Members of Congress about the devastating economic 
impact current enforcement policies will have and in some cases 
are already having on our State and national economy. These 
consequences are also a threat to national security.
    The ultimate answer is for Congress to enact comprehensive 
immigration reform that lays out a path to legal status and 
eventually, if one meets all the criteria for eligibility, 
citizenship. Many of us desperately want that to happen.
    While it is up to Congress to pass reform legislation, you, 
as Secretary of Homeland Security, could play an important role 
in helping that to come about.
    I also want to encourage you to continue an effort that was 
begun by your predecessor that is very important to this 
subcommittee. Secretary Johnson made a high priority of 
maturing the Department's planning, budgeting, and acquisition 
processes, including working with us to establish a common 
appropriation structure.
    I hope that you will capitalize on his accomplishments by 
also making it your priority to further improve and 
institutionalize those processes.
    We have a lot to discuss this afternoon, and I look forward 
to your testimony and your responses to our questions.
    Thank you, Mr. Chairman.
    Mr. Carter. I thank you, Ms. Roybal-Allard.
    I now recognize Rodney Frelinghuysen, the chairman of the 
full committee.
    Mr. Frelinghuysen. Thank you, Chairman Carter, for the 
time.
    I also want to welcome the Secretary here to the 
Appropriations Committee. We look forward to your testimony, 
and hearing your frank and candid views on many issues.
    All of us up here thank you for your remarkable service, as 
a Marine of over 45 years and now as Secretary of Department of 
Homeland Security. We appreciate all of that you have done for 
our Nation.
    Today's hearing is an important part of the oversight 
duties of this committee, now that we have formally received 
the administration's budget request. The committee will 
undertake a thorough analysis of it. We will go through each 
and every budget line, question every witness, and demand 
credible spending justifications and only then will we make our 
own determinations on the best use of tax dollars.
    We intend to put forward a complete set of appropriations 
bills that adequately fund important programs while working to 
reduce and eliminate waste and duplication.
    I will work with the ranking member, Mrs. Lowey and 
Chairman Carter, and Ms. Roybal-Allard to move rapidly in the 
coming weeks and months to complete the fiscal year 2018 
appropriations bills.
    Again, today's hearing is part of a process we followed to 
determine the best use of taxpayers' dollars. After all, the 
power of the purse lies in this building. It is the 
constitutional duty of Congress to make spending decisions on 
behalf of the people we represent at home.
    Some here on the committee may know that hundreds of 
families, almost 700 in New Jersey, and in my congressional 
district, lost loved ones on September 11 in those terrorist 
attacks.
    Although it took years for the Nation to recover from that 
attack, the events of that day made us rethink how we protect 
the Nation and allowed us to learn from prior mistakes in order 
to prepare for and stop the next attack.
    Mr. Secretary, I wholeheartedly agree with your recent 
assessment that the risk of a terror attack on these United 
States in your own words is as threatening today as it was on 
that faithful day in September in 2001.
    And, unfortunately, this week, we witnessed another 
horrific attack on our British allies, and we extend our 
greatest sympathy to these young victims and their families.
    That is why we must be certain to continue to invest in 
critical programs like the Federal Emergency Management 
Agency's urban area security initiatives that ensure our 
communities, which face the greatest risk, are able to respond 
to ever-growing and more complex threats.
    The fiscal year 2018 budget request proposes a 25 percent 
cut to the Urban Area Security Initiative the (UASI) program. 
And I am eager to hear how your Department will continue to 
ensure the necessary resilience while absorbing such a large 
deduction.
    In light of the recent spike of anti-Semitic crimes, which 
were directed at hundreds of Jewish schools, and synagogues, 
and temples, and community centers in the United States, 
including those in my district, we must continue to direct 
funding to the UASI nonprofit security grant program, which 
provides at risk nonprofit institutions of all faiths, critical 
assistance to bolster their physical security.
    And lastly, I would like to give a shout out to one of your 
most important urban search and rescue teams, including New 
Jersey's task force one, which became a federally designated 
team this time last year. New Jersey task force one, which was 
the first team to respond to the tragedy at the World Trade 
Center on 9/11 was activated and responded to also to Hurricane 
Matthew in October. These teams are essential to the entire 
Nation.
    In conclusion, I welcome you.
    And I thank the chairman for the time, and I yield back.
    Mr. Carter. I thank you, Mr. Chairman.
    I now recognize Mrs. Lowey, the ranking member of the full 
committee.
    Mrs. Lowey. Thank you. And I would like to thank Chairman 
Carter and Ranking Member Roybal-Allard for holding this 
hearing. And, of course, it is always a pleasure for me to 
appear with Chairman Frelinghuysen, who is a distinguished 
chair of the full committee.
    Secretary Kelly, welcome and thank you for joining us.
    The Department of Homeland Security's mission is to secure 
our Nation from consistent threat. It is not an easy one. It is 
underscored by the tragic attack in Manchester earlier this 
week. To keep us safe, different agencies within the Department 
of Homeland Security must effectively coordinate and cooperate 
while also working closely with other Federal, State, and local 
agencies.
    The budget request, unfortunately, does not fully reflect 
the grave character of the threats we face. In New York and 
many other States, preparedness grants are the difference 
between being able to prevent, mitigate, respond to, and 
recover from acts of terrorism or not.
    Secretary Kelly, put simply, your budget proposal would 
make communities like those in my district and regions less 
safe. The State Homeland Security grant program, which enhances 
local law enforcement's ability to prevent and respond to acts 
of terrorism, would be reduced by $118 million or over 25 
percent, reduced at this time of the absolute need for response 
as quickly as possible. That results in a nearly 20 million 
reduction for my home State of New York alone.
    The Urban Area Security Initiative, which as you know 
assists high threat, high density urban areas, arguably the 
most vulnerable, would be cut by 26 percent or $156 million. 
That is a nearly $45 million cut for New York. Maybe the people 
who put this budget together are not really watching the news 
that we all were watching just this week.
    The emergency food and shelter program is eliminated, as is 
the flood hazard mapping and risk analysis program.
    State and local jurisdictions cannot effectively plan for 
the worst when support from their Federal partner is 
inconsistent or insufficient.
    In addition to terror threats, we know that the severity 
and cost of natural disasters are increasing, and mitigation 
efforts can reduce taxpayer support in response to a disaster.
    We cannot expect communities to realistically prepare for 
natural disasters with proposed cuts of 55 million to the 
predisaster mitigation program.
    As I said, while negotiating the fiscal year 2017 omnibus, 
I cannot support a single cent, let alone 1.6 billion for a 
boondoggle of a wall. It is an unjustified request based on a 
campaign promise and simply cannot be taken seriously by this 
committee.
    President Trump's budget request slashing $54 billion from 
nondefense investment would decimate the Department of Homeland 
Security.
    In fact, even existing sequestration level caps are 
insufficient and would lead to reduce services that American 
families and communities need, including law enforcement and 
first responders.
    It is time, Mr. Secretary, for a new budget deal to end 
sequestration once and for all, in part to prevent disastrous 
cuts to critical Homeland Security grant programs.
    Now more than ever, this committee must support the 
Department's essential and complex mission, but we cannot do 
that at the expense of State and local preparedness.
    So I look forward to a productive discussion today, and I 
thank you for your service to our country.
    Mr. Carter. Thank you, Mrs. Lowey.
    We are going to stick to a 5-minute rule, probably try to 
warn you when you have got 1 minute left, but keep an eye on 
the clock.
    Mr. Secretary, we are going to allow you to make your 
opening statement now. Your statement will be entered into the 
record, so you can make it shorter and easier on us.

                   Opening Statement--Secretary Kelly

    Secretary Kelly. Well, Mr. Chairman, Ranking Member Roybal-
Allard, and distinguished members of the subcommittee, it 
really is a privilege to be here.
    I know you feel the same way I do that a government has no 
greater responsibility than the safety and security of its 
citizens. A secure homeland is one of prosperity where legal 
trade and travel add to the National economy. A secure homeland 
is one of freedom where American citizens can go about their 
lives without fear. And a secure homeland is one of laws which 
we enforce to keep our communities safe.
    So it is with great honor and privilege to appear before 
you today to discuss the men and women of the Department of 
Homeland Security and the critical missions they carry on every 
day in service to this Nation.
    I believe the President's fiscal year 2018 budget request 
for the Department of Homeland Security will make it possible 
for us to continue and expand on our ability to protect the 
Nation and its people.
    We know that threats are out there. We know that our 
passenger aviation is an example, our top prize in the eyes of 
terrorist organizations around the globe. We know that 
transnational criminal organizations are bringing drugs across 
our borders both on land and sea in massive numbers at a 
devastating rate.
    We know that our Nation's cyber systems run a constant 
attack. We know that natural disasters devastate American 
hometowns. We also know that DHS is up to the job of protecting 
the United States against all of these threats and many, many 
more.
    Just last week, the Coast Guard offloaded more than 18 tons 
of cocaine they seized in international waters off the eastern 
Pacific ocean. That is roughly the weight of nine cars. And it 
is certainly at least as estimated $498 million worth of drugs, 
but more importantly, drugs that won't serve to poison our 
citizens.
    This week, on May 8, and 14, TSA Transportation Security 
Administration discovered--between May 8 and 14, discovered 76 
firearms in carry-on luggage. In 6 weeks, ICE arrested more 
than 1,000 gang members in a nationwide multi-law gang 
enforcement operation. The men and women at DHS are making a 
difference. They are making our Nation more secure, but we need 
a budget that matches our mission.
    No more continuing resolutions. We have to be able to plan, 
and I think this budget does that.
    The President's fiscal year 2018 budget requests 44.1 
billion in net discretionary funding for the Homeland Security 
Department. It also requests 7.4 billion to finance the cost of 
emergencies and major disasters in FEMA's Disaster Relief Fund.
    When you are talking about numbers like these, it is easy 
to lose sight of what is behind each dollar. When you get right 
down to it, behind each and every dollar are hardworking men 
and women who have dedicated their lives to protecting the 
American people by enforcing the laws that you have passed.
    They are taking dangerous criminals off our streets, 
keeping terrorists out of the country, and drugs off of our 
streets. They are investigating crimes with international 
implications. They are making sure passengers get to their 
destinations safely. They are responding to devastated 
communities in the wake of natural disasters. And they are 
patrolling and maintaining our Nation's waterways, waterways 
that support $4.5 trillion in economic activity every year.
    Every dollar invested in the men and women of DHS and every 
dollar invested in the tools, the infrastructure, equipment, 
and training they need to get the job done is an investment in 
prosperity, freedom, and the rule of law. It is an investment 
in the security of the American people.
    There is no greater responsibility in a time of no greater 
need than now.
    I would be remiss if I did not mention the terrorist attack 
in Manchester on Monday, as some of you have. Our friends in 
the U.K. suffered a terrible loss this week with 22 dead and 
dozens others wounded. Our thoughts and prayers are with them. 
The U.S. Government is actively working, as you can imagine, 
with the British, the FBI, the intelligence community, DHS, and 
others to assist their investigation in any way that we can.
    Their enemy is our enemy. He is evolving, becoming more 
reprehensible, even targeting children. He is much more 
sophisticated, adaptive. He is global. And you can bet that 
your DHS is working every day to meet these threats.
    I appreciate the opportunity to appear here today, 
particularly as I can speak about the great men and women of 
DHS, the foot soldiers who protect us in the home fight. I 
thank you for your continued support of DHS. I remain 
continued--committed, rather, to working with Congress in 
protecting the American people.
    I look forward to answering your questions, sir, ma'am.
    [The information follows:]
    <GRAPHIC><TIFF>T7050A.040
    
    <GRAPHIC><TIF1>T7050A.041
    
    <GRAPHIC><TIF2>T7050A.042
    
    <GRAPHIC><TIF3>T7050A.043
    
    <GRAPHIC><TIF4>T7050A.044
    
    <GRAPHIC><TIF5>T7050A.045
    
    <GRAPHIC><TIF6>T7050A.046
    
    <GRAPHIC><TIF7>T7050A.047
    
                         STRATEGIC IMPERATIVES

    Mr. Carter. Well, thank you, Secretary Kelly. We appreciate 
you being here.
    Mr. Secretary, you are one the longest serving cabinet 
members in this administration, having been confirmed on the 
job on January 20th. Since you have been at DHS, have you 
identified strategic imperatives for the department?
    Secretary Kelly. Great question, sir.
    One of the things I think that came to me right away when 
the took the organization--again, I can't speak enough about 
the men and women of DHS. They are the most criticized, 
maligned organization group of people in the Federal 
Government, and I have found them to be honorable men and women 
who take their jobs seriously. So that is one discovery.
    Another discovery is that there is an awful lot--despite 
the fact that Department of Homeland Security is a very 
disparate organization, it--there are many places, and Jeh 
Johnson really started this unity of effort thing, and I think 
it makes a lot of sense.
    My number two, and I think I might be the only one with a 
number two in the Federal Government right now, Elaine Duke, 
who was confirmed a couple of weeks ago and is on the job, 
among other rocks that are put into her path is this issue of 
how do we take what Jeh Johnson put in place, the unity of 
effort initiative, and really accelerate that and find places 
where it makes sense to find efficiencies and to try to get 
everyone kind of in a tent.
    I was shocked to find that throughout the agency there are 
a number of paying benefits schemes, that people in the Secret 
Service don't get the same--are not on the same pay scale as 
the people in INA, and the people that are--ICE don't stand in 
the same way from a paying benefits point of view as does, say 
CBP. Those are acquisition.
    I found that we had two parts of the organization going to 
the process of researching and developing, acquiring the same 
piece of equipment. You know, this is something that DOD 
mostly, almost entirely, because the United States Congress in 
1985, they solved that with a gold-wadded nickles kind of 
thing.
    So, I mean, it does work. So I am looking for those kind of 
things to increase the efficiency of the Department.
    But there are other aspects that I have learned, to say the 
least, and that is the highly politicized nature of what I do, 
of what the men and women of this Department do, and also press 
reporting.
    Now that said, in defense of the press and others, I don't 
think we had a particularly good approach to interacting with 
the press and, frankly, with the Hill. We have put first-class 
people in my liaison section in DHS and in the public affairs 
section. We are leaning forward as fast as possible to serve 
the needs of the United States Congress, quicker, certainly 
quicker, than it was done before. I remember during the process 
of being confirmed, almost every Member I talked to said you 
are the worst in the Federal Government for responding to 
letters or requests or whatever, and that is unacceptable, and 
we are changing that.
    The same thing with the media. We didn't have a very good 
outreach to explain what we are doing. What the media does with 
that information, of course, is up to them, but those are the 
kind of things, Mr. Chairman, that I found early on and doing 
the best I can to address.

                          DETENTION: CAPACITY

    Mr. Carter. Those are a lot of things that this committee 
has been concerned about, and we are, I think, pretty much in 
agreement that all of those things need to be fixed. So 
congratulations. You got a good eye.
    Mr. Secretary, the fiscal year 2018 budget proposes $49 
billion for enforcement of illegal migration, including 3.6 
billion for 51,379 detention beds and custody operations, an 
increase of 1 billion dollars and 12,055 detention beds. The 
average daily population of detainees has been steadily 
dropping since the President signed the executive order on 
border security and strengthening enforcement of our 
immigration laws.
    What methods and policies are DHS proposing to achieve such 
a dramatic uptick in detention capacity when the current trend 
for adult detention has slowly but steadily decreased over 
several months?
    Please explain the assumptions used to develop the budget 
and whether they are still valid and--well, that is enough.
    Secretary Kelly. Mr. Chairman, upfront, I think the actions 
that are being taken both on the border and in the interior 
will ultimately result in a pretty, pretty quick drop of the 
number of beds that we ultimately need. But let me deal with 
the border first.
    I mean you--I think you mentioned it in your comments. 
Somewhere in--very close to 70 percent drop in the number of 
illegal--of all--illegal migrants of all types moving up 
through that terribly dangerous network through Mexico.
    And not just central Americans, but primarily central 
Americans have been the travelers on that network, but 
individuals from all over the world as far away as Somalia, 
Pakistan, North Korea.
    So because of what they--they don't understand, and this is 
a good thing, what is going on right now in terms of the 
enforcement and what we are doing on the border that has caused 
them to delay their departure, if you will.
    And, by the way, working closely with the Central American 
countries, with the Mexican Government, of which I have a very, 
very close relationship, telling them what we are doing, 
working with them to try to convince their citizens to not pay 
a huge amount of money to them to get on that network, which, 
again, is very, very dangerous and abusive, to stay at home.
    And at the same time, working in another vector to--and, 
again, not really my job, but we put some energy behind this, 
and that is to help develop economically the Central American 
republics, particularly Guatemala, El Salvador, and Honduras, 
of which with whom we have great relationships. So that is what 
we are doing on the border.
    And that has--in messaging, and that has resulted in really 
a 70 percent reduction in the movement of migrants. There is a 
lot of good news there, but to me, I think the first thing I 
think about, again, are the number of people that are not on 
that horrible network being abused, killed, in some cases, all 
the way up the 1,500 miles or so into the United States.
    And, again, I can't emphasize enough the close relationship 
we have working relationships at every level with the Mexicans 
not to mention the Central American countries.
    Interior enforcement is something--and, again, I have only 
been in this job 4 months, but interior enforcement, that is to 
say developing target packages by ICE, working oftentimes, with 
local law enforcement to go after specific ideally--ideally, 
specific illegal aliens inside the United States that are also 
criminals, developing those packages. There are no sweeps. 
There are no drop-ins to churches. We don't do that, or medical 
facilities or schools.
    But the interior enforcement, to ideally, go after 
criminals who are also illegal and put them into the system if 
they are not already in the system. And frequently they are, 
and they just have dropped out of the system. And we need a 
place to hold them. So the interior enforcement has gone up.
    And--but ideally, in my mind, over time, we will not need 
nearly as many--as many beds, because the legal justice process 
that is also in place, much of it belongs, of course, to the 
Department of Justice, the legal justice process of immigration 
courts and that kind of thing, will return people to their 
countries of origin much, much faster than it does today.
    I mean, the real--the real sticking point right now in what 
we are doing is that DOJ (Department of Justice) and Attorney 
General Sessions and his staff are working hard at hiring more 
judges so we can process people through and ultimately, the 
number of beds we will need will go down, I think, pretty 
steeply.
    Mr. Carter. Thank you.
    Ms. Roybal-Allard.

                          DETENTION: POLICIES

    Ms. Roybal-Allard. Mr. Secretary, it is sometimes forgotten 
that ICE detention is, in fact, civil detention and not 
criminal detention, and therefore should not be used as a 
punishment or as a deterrent.
    In fact, the D.C. District Court imposed a preliminary 
injunction in 2014 preventing the Department from using 
deterrence as a factor in the context of family detention.
    I mention this because you indicated a few months ago that 
you were considering a policy of separating children and 
parents who are apprehended after crossing the border as a way 
of deterring future migration.
    I believe you subsequently indicated that you will not 
institute such a policy, but I wanted to ask you more broadly 
about deterrence as a factor in detention.
    Do you believe that deterrence is a permissible 
consideration when making custody decisions? And does ICE 
currently have any formal or informal policies that it be 
considered?
    Secretary Kelly. Well, the courts have told me I can't do 
it, so that is where I am on this topic. The people that we 
are--put into detention are people who are--we either consider 
to be a flight risk, which many are, or a danger to society. So 
those are the two general categories.
    Many, many people at--ICE takes into custody that are then 
not put into detention but given mon--you know, we put them in 
monitoring, sometimes we put ankle bracelets on them, those 
kinds of things.
    So the ones that go into detention, again, are dangerous 
folks, men and women, or they are a flight risk, which, 
unfortunately, many of them are. As I think the ranking member 
knows, that there is an awful lot of people that kind of just 
disappear, you know, that come into the country illegally, that 
disappear into our society. We don't know where they are.
    Most of them, as you say, as you pointed out, and I think 
Mrs. Lowey did as well, they stay under the radar, they don't 
commit crimes, and those are ultimately are not the people that 
we look for.
    But for those two factors are why we need the beds and why 
detention is an option for us.

                         DETENTION: FACILITIES

    Ms. Roybal-Allard. Most ICE detainees are housed in 
dedicated facilities, but a substantial number are confined in 
the same facilities as those charged with criminal acts. ICE 
detainees should not be treated like criminals or suspected 
criminals. So this underscores the need for strong civil 
confinement standards.
    And I was alarmed to see that in your budget request, you 
intend to weaken ICE detention standards in order to attract 
more local jurisdictions as detention providers.
    Is the impetus for weakening standards the need for more 
detention space to implement the President's executive order on 
immigration enforcement?
    Secretary Kelly. First of all, the standard--as I have 
learned, and as kind of a side comment, I was asked by Jeh 
Johnson long before I ever knew I was going to be sitting in 
this seat, to participate in a study of ICE facilities 
nationwide. And I did that and was a member of that study. I 
was in all the discussions, went on trips with him, but I had 
to drop off, because when I was--as soon as I was named to this 
job, I dropped off of that.
    But the point is, I know a fair amount about the conditions 
and not only the concerns, not only what the private and law 
enforcement people say about detention facilities that ICE 
runs, but also what the agenda groups, what advocacy groups 
talk about, so I get a sense of both sides of that. That is 
very helpful for me to understand the issue.
    But the point is, what I have learned is the ICE detention 
standards are well beyond the standards that even the Federal 
Bureau of Prisons has in terms of prisoner or detainee in this 
case, housing and care.
    As we seek to enter into, if you will, rental agreements 
with local law enforcement or counties to have access to their 
beds, for generally, short periods of time, in order to do 
that, we have--we are looking at lowering our standards so that 
we can enter into agreements.
    But still, the agreements, the detention, conditions of 
detention will be much higher than what is accepted--what is 
acceptable in either the Federal system or the State system.
    So, yes, lowering it so we can have some access, but it is 
not lowering it to the point--by no means lowering it to the 
point where there is mistreatment or conditions that would--
would not be appropriate from a humanitarian point of view.

                    DETENTION: FACILITIES STANDARDS

    Ms. Roybal-Allard. Okay. I guess the point is that, it 
seems to me that all detainees deserve the same level of 
protections for whatever amount of time that they spend in 
detention.
    And so that is what brings my concern about having 
different standards in different facilities.
    I would also like to point out that the statement 
accompanying the fiscal year 2017 omnibus included a directive 
that you should interpret as a caution against weakening 
detention standards. Specifically, it requires that you submit 
a report to the committee 30 days in advance justifying the 
rationale for ICE signing or renewing contracts that do not 
require adherence to the most recent detention standards.
    In addition, it requires a report on the Department's plans 
to bring all detention facilities under the newest standards.
    In anticipation of that reporting requirement and directive 
from Congress, does ICE still plan to pursue a lax set of 
standards for local and county jails? And what are the 
challenges and obstacles that you see in moving more facilities 
under the 2011 detention standards? And should we be relying 
less on local and county facilities if they are unable to 
commit to detention standards that are appropriate for ICE 
detainees?
    That is a long list of questions. I am sorry.
    Secretary Kelly. It is. No. Again, lowering the standards 
doesn't does not result in any way, shape, or form a detainees 
being in any way inhumanely treated, but it does give us access 
to some of the State and local jails.
    Our preference is to put detainees into our ICE facilities. 
And generally speaking, the way they operate, they stay--ICE 
operates, they stay in those facilities for minimum periods of 
time.
    Oftentimes, it is just until they go through the relatively 
short process until we decide what to do--they decide what to 
do with them.
    So, again, I go back to it gives us some flexibility. The 
standards will not be anything approaching--anything 
approaching inhumane with no dignity, and we will obviously, 
report to the Congress. And it probably is worthwhile to offer 
right now a brief from ICE, maybe a member brief or maybe 
recommend a hearing so they can come talk about those things in 
detail.
    Ms. Roybal-Allard. My time is up. I have some follow-up 
questions, but Mr. Chairman, thank you for the generosity on my 
time.
    Mr. Carter. And I need to inform the committee, it looks 
like your time remaining clocks are not working. At least mine 
is not. So we are keeping time over here.
    Mr. Ruppersberger. I thought that means we can go on 
forever.
    Mr. Carter. We try to generally inform you of your time.
    Mr. Frelinghuysen.

                      CYBERSECURITY: CYBER ATTACKS

    Mr. Frelinghuysen. I am sitting between two Texans, 
probably a pretty good place to be.
    The term resilient, I sort of mentioned earlier that the 
whole issue of, you know, equipment and training. You have an 
amazing number of organizations under your umbrella.
    Have you done an evaluation as to how resilient they are 
when it comes to cyber attacks?
    Do you have a system, which has graded your--those under 
your purview? We had, of course, as you are aware, the most 
massive cyber attack, I think, perhaps the world has ever seen 
just within recent weeks.
    Have you done--do you have a constant review of the many 
systems under your purview?
    Secretary Kelly. Yes, sir. The answer to that, the very 
short answer is, yes.
    And since you bring it up, the reason--I mean, this was a 
joint effort, but on the morning that the ransom attack 
started, I would say DHS was among the very first people, which 
is our job, to recognize that it started. And as it grew, and 
it grew fast, DHS, with other aspects of the U.S. Government, 
but DHS has the lead in terms of defending our dot-gov, our 
government with the exception of and Intel nets, our dot-gov 
nets and have tremendous partnerships with all of U.S. 
industry, whether they are financial institution--everybody 
that wants to play, that want--and a lot of them do play.
    So when that Ransomware attack started, I would have to 
tell you, went to the sit room, the situation room, we had some 
immediate meetings on it. I was proud that everyone, whether it 
was NSA (National Security Agency), FBI (Federal Bureau of 
Investigation), everybody, was deferring at all times to my 
command center that deals 24/7 watching the nets within cyber 
defenses. And I was incredibly proud to have them all deferring 
to DHS.
    So as we saw that runaway event that ultimately infected 
huge numbers of systems and computers in Europe and the Middle 
East, I mean, everywhere, Asia, hundreds and hundreds and 
hundreds of thousands of contaminated systems and individual 
computers.
    And because of the interagency efforts of the United 
States, but to a large degree because of what DHS does in its 
cybersecurity mission, I can't tell you, but let me just say 
that the number of systems infected in our country were 
miniscule.
    We defended the country from the biggest cyber onslaught in 
history, and we were successful in keeping it out of our 
country with the exception of a tiny, tiny, tiny number of 
computers.
    Mr. Frelinghuysen. Thank you.
    Thank you, Mr. Chairman.
    Mr. Carter. Thank you, Mr. Frelinghuysen.
    Before I go forward, I have just been informed to expect 
multiple votes, at 4:15 p.m., which could take up to an hour, 
so we are going to have to limit everyone to one question as we 
go forward.
    Mrs. Lowey.

                       FEMA GRANTS: PROGRAM CUTS

    Mrs. Lowey. Thank you, Mr. Chairman.
    Mr. Secretary, I was disappointed by the significant 
proposed cuts for FEMA preparedness grant programs. The UASI 
program, which helps the most at-risk urban areas such as New 
York, prevent and prepare for terrorist attacks would be cut by 
26 percent, and the State Homeland Security Grant Program will 
be slashed by more than 25 percent.
    Overall, the fiscal year 2018 budget proposes a cut of 919 
million dollars to FEMA grant programs that really help law 
enforcement prevent and respond to terrorism and other 
disasters.
    To put that in perspective, you would cut vital funds to 
protect the top terror targets in the U.S. by 31 percent, which 
is equal to roughly half of what you are proposing to build a 
wall on the Mexican border that is not needed.
    State and local jurisdictions just cannot effectively plan 
for, establish, and maintain their preparedness programs when 
support from their Federal partner is inconsistent and subject 
to major deviations.
    Mr. Secretary, could you please share with us the impetus 
for proposing such drastic cuts to the grant programs? Is it 
based on any sort of analysis that our States, major urban 
areas and other jurisdictions are well prepared for terrorist 
threats without Federal assistance?
    Secretary Kelly. I would offer to you that in the 120 days, 
give or take, that I have had this job, I have visited a number 
of our largest cities, New York, Chicago, Boston, McAllen, 
Texas, a number of places, met with the mayors, met with the 
police chiefs. I have been to a couple of very large police and 
sheriff, separate organizations that I have met here in D.C. a 
couple of months ago, met with them, talked to them a lot.
    I met, interacted with the National Governors Association 
that was here in D.C., which was almost all of the--I think 48 
of the governors. And the point is, the State and local men and 
women of law enforcement and the people that we work with, FEMA 
(Federal Emergency Management Agency) works with, are very, 
very highly capable.
    You know, there was a time, I would offer, back before 9/11 
that we didn't think too much about it, because terrorism had 
not really come to our country, and many of these grants and 
initiatives, of course, were put in place after that. As you 
might imagine, the men and women of law enforcement, locally 
and on the State level with Federal help have risen to the 
occasion. There is very, very capable FEMA type people that are 
in the States and indeed many cities have them.
    I wouldn't say that these funds are not very helpful for 
those States and localities, but I would offer that it isn't as 
grim as you describe in terms of taking them away. What I mean 
is if you take away this money, which does--the budget does 
some of that, their efforts against terrorism and against other 
aspects of, you know, disasters, will immediately collapse.
    So my offer would be that we were looking for money, and we 
evaluated a number of different places, obviously, and we took 
where we thought we could take from.
    But, again, I am absolutely confident that the men and 
women out there in the hinder lands of the United States have 
risen to the occasion over the last 15 years since 9/11 and are 
very, very good at what they do.
    Mrs. Lowey. Well, thank you for giving me the opportunity 
to ask the question, Mr. Chairman.
    But I am really surprised, Mr. Secretary, with great 
respect, at your response. There is no question, for example, 
in New York City these people are capable, and they are 
carrying out all their activities with distinction. But I will 
check with them. I haven't heard that they don't need that 
money, and that that money isn't essential.
    And when--if New York is a target, and it is beyond my 
comprehension that you could think it is okay to make those 
deep cuts. Thank you.
    Secretary Kelly. I didn't say they don't need the money or 
they--I just said that we have found places where we think that 
the funds are no longer needed in the way that they once were.
    Mrs. Lowey. Okay. I will be happy to get back to you. But I 
would like that response in writing, and I will check with the 
people who are responsible for these programs in New York and 
maybe have them document how essential these funds are.
    [The information follows:]
    <GRAPHIC><TIFF>T7050A.048
    
    <GRAPHIC><TIF1>T7050A.049
    
    Mrs. Lowey. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Carter. Thank you, Mrs. Lowey.
    Mr. Culberson.

                          OPERATION STREAMLINE

    Mr. Culberson. Thank you, Mr. Chairman.
    Mr. Secretary, I want to thank you for your service to our 
country and the Marine Corps and for your prudence, for the 
President's prudence in being careful in spending our 
constituents' very scarce, hard-earned and very precious tax 
dollars. And in particular, I want to thank you and the 
President for focusing on restoring the rule of law, which is 
one thing that unites us as Americans.
    We understand, and this country, really, one of the first 
in the world to understand that our liberty lies in law 
enforcement. That is a fundamental principle of who we are as 
Americans, and we really appreciate you focusing on that.
    And I also want to say that Congressman Duncan Hunter, Sr., 
spearheaded the effort to build a wall in the southern 
California border, which has been working very successfully, 
and Israelis know how effective a wall could be.
    It makes sense in large parts of the border, the Pecos 
river country out in West Texas may not be as necessary out 
there, but a wall make good sense. But above all, we appreciate 
your focus on law enforcement.
    And existing law is very clear, has been on the books since 
1950s, that an individual crossing the southern border is 
subject to up to 6 months imprisonment to enter the country 
illegally.
    On the second offense, they are subject to imprisonment for 
up to 2 years. And I wanted to in particular bring your 
attention to Judge Alia Moses' very successful effort in the 
Del Rio sector. My good friend, Henry Cuellar and I are well 
acquainted with her.
    Judge Moses and the Border Patrol in the Del Rio sector 
with the support of the Department of Justice, they use their 
good hearts and their commonsense in a compassionate way to 
ensure that existing law is enforced uniformly and fairly.
    And as a result before you came into--President Trump came 
into office and the promise of enforcement of the law which 
resulted in such a precipitous decline in illegal crossings, 
Judge Moses as I recall, Henry, would just simply enforcing 
existing law, in the Del Rio sector, and they saw the lowest 
level of illegal crossings since Border Patrol began keeping 
records, as I recall, Henry.
    And you and I have worked together closely to support Judge 
Moses and her efforts. I want to bring her to your attention, 
Mr. Secretary.
    The program that she put in place is called Operation 
Streamline, and I would encourage you to try to expand that up 
and down the border.
    As chairman of the Commerce, Justice, Science, and 
Appropriation Subcommittee, I will do my part to help ensure 
the Department of Justice resources are focused there with 
additional prosecutors, personnel, U.S. marshals to make sure 
that folks are processed and handled in a way that protects 
everyone's due process rights and to ensure that people are 
handled expeditiously by immigration judges.
    Because you are exactly right, we need to make sure those 
immigration judges are there on the border to handle people who 
come across and receive that notice to appear, which is, I 
believe, Henry, they call those permisso.
    Mr. Cuellar. Permisso.
    Mr. Culberson. In previous administrations, they got the 
notice to appear, they call it permisso. And they were gone, 
disappeared, never to show up again.
    So simply by enforcing the law, ensuring that people to 
show up in front of those immigration judges, or appear before 
a judge like Judge Moses up and down the border from 
Brownsville to San Diego, you can have a dramatic effect on 
protecting our southern border, ensuring the free flow of legal 
goods and people entering the country illegally.
    Because we all know we need that good relationship with 
Mexico to have people cross back and forth legally and freely 
with goods and commerce and for workers.
    But you have got to start--it begins with law enforcement.
    So I wanted to ask you, Mr. Secretary, about Operation 
Streamline, if you are familiar with it. And could you speak 
about what currently is happening under the Trump 
administration in your leadership if an individual is 
apprehended on the southern border, and when and how does DHS 
decide to give them expedited removal proceedings before a 
judge like Judge Moses?
    Secretary Kelly. I am not--and I will get smart on 
Operation Streamline, and it sounds like I ought to go down to 
Del Rio and visit with the Judge----
    Mr. Culberson. She is doing a great job.
    Secretary Kelly. One of the things, again, I have learned 
in this job, this immigration thing is the most complicated--I 
mean, if we try to make it any more complex and hard to 
understand, we couldn't have done it any better.
    But all sorts of categories. Right?
    Mr. Culberson. Right.
    Secretary Kelly. They will catch someone, say, a Mexican 
that comes across on our side of the border wrong, 
essentially----
    Mr. Culberson. She will give them a week, You know. She is 
not like a----
    Secretary Kelly. But pretty quick they can say, I don't 
want to enter the system, and they can go right back home.
    One of the things we found--and, again, an anecdote, but in 
talking to a CBP officer, I think the second week I was on the 
job, went down to McAllen, Texas, and just walked the dirt and 
the train and the river's edge with the real people that 
understand the illegal immigration drug movement and all of 
that, the CBP officers, great men and women each.
    And they said, you know, sir, we will find--we will stop 
traffickers, Mexican traffickers, on our side of the border. I 
have been here 14 years. I know the names of many of them, 
because we will pick them up. They will be with illegal aliens, 
the traffickers, coyotes, as they are called, and they will 
say--they will opt to just simply go back to Mexico. And then 
whether it is 1 month later or 1 year later, they will capture 
them again, and they will go back.
    So one of the things they started doing is holding them and 
starting the process of prosecuting them for human trafficking.
    The cost, then--and this is important in terms of reduction 
in the numbers that are crossing the border, the cost of going 
from, say, El Salvador to the United States, the fare, if you 
will, to travel on the network and get into the United States 
grew from an astronomical figure to the kind of people, simple 
people, peasants, mostly, from the Central American republic, 
good people, $4,000, life savings, an incredible amount of 
money to them.
    Mr. Culberson. Yes, it is hard.
    Secretary Kelly. Now it is $12,000 or $15,000. So they 
can't afford it. So that is one of the factors in--that simple 
thing starting to arrest and prosecute them.
    Mr. Culberson. Absolutely.
    I want to be sure to mention that also I learned from Judge 
Moses that she cannot seize the assets of human smugglers. That 
is the law--a change in law we need to make.
    Secretary Kelly. Right.
    Mr. Culberson. Thank you.
    Secretary Kelly. Yes, sir.
    Mr. Carter. Mr. Cuellar.

              BORDER SECURITY: WALL ALONG SOUTHERN BORDER

    Mr. Cuellar. Mr. Chairman, thank you so much for this 
opportunity.
    Mr. Secretary, I want to say thank you for what you do, 
what your men and women do. I appreciate it. I am from Laredo, 
Texas. I represent the border. I live there. My family is 
there. I breathe the air. I drink the water. So I don't just go 
in and visit for a few hours and take off and think that I know 
the border better than some of the people that have lived there 
all my life.
    And I have to say, during my time here, I have seen 
Secretaries come and go. We will probably see you come and go 
with all respect. My only advice is: Understand the system that 
we are in, the executive branch--and sometimes some of us might 
disagree with you. I don't think it is correct for you to tell 
Members of Congress to shut up. If we disagree--some us might 
agree with you more than others, but I am just saying, 
otherwise, it is going to be a long term for you if you do 
that. I think you did that within 90 days after you got sworn 
in.
    I want to focus on the wall. I don't support the wall for 
several reasons. One, private property rights: In Texas, we 
respect private property rights. It is dear to us, number one.
    And, number two, the cost: A regular fence will be $6.5 
million per mile compared to $1 million of technology. I think 
Mr. Taylor, who has been in the military, there is a lot of 
technology out there that works very well for the military that 
should work very well for us down there. That is number two.
    Number three, environmental or the International Water 
Commission: Sir, there was a treaty between the U.S. and Mexico 
as to where you can put barriers, and that is an issue that we 
have to look at.
    Number four, overstays: 40 percent of the people that we 
have here are overstays. So you can put the most beautiful wall 
that you want to, but they are either going to fly in, drive 
through a bridge, or come through a boat. The report that came 
out, that Homeland released 2 days ago, May 22, talks about 
overstays. Over 40 percent of the 11, 12 million are overstays. 
In fiscal year, there were 630,000 visitors that failed to 
leave the U.S., far exceeding the 415,000 people that came in 
across the border. So more overstays than people coming across 
or that were intercepted across the U.S.-Mexico border.
    What was interesting is, according to Homeland, there were 
more Canadians that overstayed than Mexicans. I think your 
report said 120,000 Canadians with expired visas are still 
believed to be living in the U.S., compared to 47,000 Mexicans 
on that. And that is--probably those stats are not correct or 
accurate because I think you only looked at plane and boat and 
didn't look at land crossings also. And I think the visa stay 
should be one.
    The other thing, finally, number five, why I don't support 
the wall is natural barriers. I think President Trump on April 
acknowledged that there are natural barriers to the border. If 
I can show you--I support a wall; this is the most beautiful 
that wall I support, Lucille, is Big Bend. Have you seen the 
Big Bend? I mean, those are walls. If you want to see walls, 
those are walls that we have. I don't think you can come in and 
put another wall on top of these cliffs that we have, number 
one. I think you would agree with me. The second thing is if 
you go down to my lower part of the river, the Rio Grande, 
which is a natural barrier, doesn't go straight. As you know, 
it snakes up and down. And this is my district down there. And 
the U.S. side I believe is in the top part. Look at the river 
the way it snakes. So, either you follow it--and I have taken a 
small low plane with Michael McCaul from Laredo all the way to 
Brownsville, going just a few miles an hour, flying over, just 
snaking over. And it is going to be very hard to put a fence, 
unless you take private property rights that we have.
    So all I am asking you is that you work with the local 
Border Patrol, work with us, and just say that we can't just 
use, you know, the fence. We know what happened to the Berlin 
Wall. We know what happened to the Chinese--to the Great Wall 
of China. We know what happened to that. And I am just saying 
that we just have to be smart on how we secure the border. We 
spend $18 billion a year on border security on the 1-yard line 
called the U.S. border. But you remember the last time you and 
I were together with Chairman Carter and Kay. We were on the 
southern border of Mexico, with $80 million that we put there 
to help Mexico secure the southern border, $80 million compared 
to $18 billion. Did you know that they actually stopped more 
people coming across than the whole Border Patrol did?
    So all I am saying, Mr. Secretary, is we want to work with 
you. I know it is a very difficult job that you have. Some of 
us have been living this for a long time. We want to see 
legitimate trade, tourism, not impede that. And we just want to 
work with you. So just to conclude--my time is up--some of us 
want to work with you, and please take advantage of our 
expertise.
    Secretary Kelly. I probably am on dangerous ground here. If 
I could, Mr. Chairman, could I just make a comment?
    Mr. Carter. Yes.
    Mr. Cuellar. I am turning on my mic in case I have to 
respond.
    Secretary Kelly. Two comments really. Since I have been in 
this job, everything that the Congressman said about the border 
and where to build it and where not to build it, there might be 
places where we do it, there might be other places we don't: I 
have been saying that since day 1.
    Mr. Cuellar. Yes, you have.
    Secretary Kelly. What you said about the southern border, 
when I was on Active Duty, I helped the Mexicans construct 
their southern border strategy, helped them implement it under 
the radar quietly, and it has worked very effectively. They 
stopped 160,000 illegal migrants last year and returned them to 
their countries of origin humanely, great partners.
    We stopped more than that last year. But the point is their 
southern strategy works.
    You have also probably heard me say that our--the 1-yard-
line stand day in and day out doesn't work, that the protection 
of the southern border starts 1,500 miles south. I have said 
that repeatedly. So everything you said about what we should be 
doing and thinking about, I have been saying and thinking about 
for 120 days.

                       CRITICISM OF DHS WORKFORCE

    My ``shut up'' comment, the one thing, sir, with all due 
respect that is different between certainly my experience in 
the U.S. military and my experience now is that the men and 
women in the U.S. military, you can throw rocks or criticize--
and God knows we deserve some criticism--senior military 
officers, you can criticize the policy of what they are trying 
to execute in the world, but the one thing that we never hear 
from certainly this institution is criticism of the rank-and-
file men and women that put their lives on the line in the U.S. 
military every day. You never hear that.
    In this job, all I heard day in and day out, ``Nazis,'' 
``storm troop tactics,'' prejudice about the men and women, the 
foot soldiers, if you will, that stand on our border or inside 
our country and protect it. And I would just ask that criticize 
me, criticize the Trump policies, but please recognize that my 
men and women are doing the same kind of thing day in and day 
out as our military men and women are and, in a sense, give 
them a break. And that is what the ``shut up'' comment was 
about.
    Mr. Cuellar. Right. Well, Mr. Chairman, I just need to 
respond quickly. Let me just say this: Nobody has attacked the 
men and women. I mean, I think they are attacking the policy.
    I have been attacked also. I have been called--because you 
and I agree on a lot of things, whether you like----
    Mr. Carter. I am sorry, Mr. Cuellar.
    Mr. Cuellar. I appreciate it.
    Mr. Carter. The votes have started. I am going to try to 
keep this hearing going. I will stay here. I hope you will have 
somebody here to stay with me, and the rest of you go vote. 
Come back as soon as you can.
    Mr. Cuellar. Four votes, motion to recommit.
    Mr. Cuellar. We can come back, Mr. Chairman.
    Mr. Ruppersberger. That is not going to work. You have four 
votes and a motion to recommit.
    Mr. Carter. Mr. Fleischmann, we are going to do one more 
round of questions and maybe get back to Mr. Price, maybe get 
to you.
    Mr. Ruppersberger. I doubt you will get to me.
    Mr. Fleischmann. Thank you, Mr. Chairman.
    Mr. Carter. They are now telling me it will be an hour's 
worth of votes.
    Okay. Mr. Fleischmann.

         BORDER SECURITY: LEGAL MOVEMENT OF PEOPLE AND COMMERCE

    Mr. Fleischmann. Thank you, Mr. Chairman.
    Mr. Secretary, let me first start by saying thank you for 
your tremendous service to this country in the United States 
Marine Corps, for stepping up now and being Secretary at this 
most difficult time in our Nation's history. You are a great 
American, and I am infinitely grateful for the job that you are 
doing, sir.
    I will limit my time to one question. Like the rest of the 
Federal Government, CPB faces competing funding demands in a 
tight budget environment. Much of Congress and the 
administration's focus has rightly been on physical 
infrastructure, staffing needs, and emerging technologies like 
aerial drones.
    While I agree these are vital, DHS should not ignore proven 
effective technologies that facilitate the safe and efficient 
flow of legitimate trade and travel across the border. What is 
DHS' plan, sir, to incorporate effective port of entry 
technologies into their border security plan?
    Secretary Kelly. One of the things Mr. Trump said to me 
early on when we discussed what his thoughts were relative to 
the Southwest border, he said: You know, Kelly, the one thing 
we can't stop--in fact, if anything, if you can speed it up--is 
the normal movement of legal people in vehicles and whatnot, 
commercial movement, north and south of the border.
    On the northern border, the Canadians will say we need to 
thin the border, which is we don't have the same issues on the 
northern border, but the point is to take every opportunity to 
try to thin that southern border.
    Longer term plans are to build more capacity at the ports 
of entry. I had my science and technology people, who are 
phenomenal, I asked them just today--we have good technology 
down there now for vehicles to pass through so that we can see 
inside them, see if there are people or drugs--what is the next 
generation? And then let's skip that one and get to the next 
one. So I believe we can speed things up. It is fast now: 
Millions of people back and forth every day with not so much as 
a slowdown most of the time in their vehicles.
    There are certain indicators we look for that would then 
put it into secondary. So we look for drugs or people for some 
of that. It is an amazing amount of movement north and south, 
legal movement, through that border. So we are redoubling our 
efforts, sir, to look for ways to get even better at that but, 
at the same time, stop more of the illicit movement of not only 
drugs, of which it is massive, but also working with the 
Mexicans--and we work very closely with the them; I can't 
emphasize enough--about how we can move items faster through 
the border.
    Mr. Fleischmann. Thank you, sir.
    And, again, let me reiterate my full support, and I look 
forward to working with you, sir.
    Mr. Carter. Thank you, Mr. Fleischmann.
    Mr. Ruppersberger.
    Mr. Ruppersberger. I won't be able to talk. I just want to 
say how I respect your career. I was on Defense Appropriations 
and ranking on Intel, and I have watched you. And I will tell 
you, with you and General Mattis being appointed in the 
beginning of this administration, I have been able to sleep 
better at night. Now that doesn't mean I am always going to 
agree with you. And I would like to meet with you later on the 
issue of cybersecurity, port security, a lot of these different 
issues that we need to deal with. Thank you.
    Secretary Kelly. Yes, sir.
    Mr. Carter. Mr. Price.

                     CENTRAL AMERICAN RELATIONSHIPS

    Mr. Price. Thank you, Mr. Chairman.
    Mr. Secretary, welcome. I am glad to see you. And I want to 
just say that I remember your previous career, our interaction, 
in particular, in 2014, in Guatemala, an enlightening 
conversation about what the United States' approach in 
particular to the triangle countries should be--El Salvador, 
Guatemala, and Honduras. The source of so many children, 
unaccompanied children, and mothers and so on. And you made it 
very, very clear that this was not mainly a challenge for 
border security. And you wrote a very well-regarded piece in 
the Military Times that had a huge influence I think on this 
country's policies toward these countries. And you said just 
recently, you can't have these goal-line stands on the 1-foot 
line at the official points of entry. You have got to approach 
this problem in the countries of origin. So you have been a 
major influence on our policy in that regard.
    It does however bring us to the wall, to the wall.
    Now you wouldn't know it from President Trump's rhetoric, 
but there were over 700 miles of fencing already down there. I 
know about that because I was chairman of this subcommittee for 
many of the years when that fence was constructed. And we 
required segment-by-segment analysis. We asked for 
environmental impact studies. We asked for comparisons of 
fencing versus other kinds of ways of securing the border. We 
had a good deal of oversight over that process, and the fence 
got built. We also doubled the number of Customs and Border 
Patrol agents.
    Now President Trump has almost a fixation it seems on this 
wall. And I wonder: Is that really compatible with the idea of 
a layered defense that you earlier expressed? Particularly, I 
wonder what kind of reaction you have to the foreign ops bill. 
These countries, these very countries we are talking about: El 
Salvador, support, the economic support and development fund, 
cut by a third, $65 million down to 45; Guatemala cut by a 
third, $112 million down to $77 million; Honduras cut by a 
third, $93 million down to $67 million. Where is that coming 
from? What does that have to do with the kind of advocacy that 
you and others were very powerful in making about the need to 
enable those countries to control their gangs, to control their 
own security, but also to help their own people with all kinds 
of needs that might enable people to stay in those countries?
    And then, finally, if we do move forward with this wall, I 
expect that we will have more analysis than we have right now. 
And I want you to confirm that. You are talking about three 
segments. There is not much of a justification as to why that 
is the best alternative, how it compares to other alternatives, 
what kind of changes might be required, such as the levee 
fences we required, the changes in location we required. We 
need this kind of congressional interaction if we are going to 
move forward with this project.
    Secretary Kelly. Sir, on the issue of--I will start with 
the Central American countries. Five years ago, when I began my 
tour down in Miami, the three countries the northern tier 
countries, the Central American republics, were in fact the 
most dangerous countries on the planet. They had murder rates 
that were astronomical. All of those countries, because of the 
help we provided--and the help is some assistance from the 
United States' Treasury, so from the United States taxpayer, 
but a lot of hands-on work with the U.S. military, United 
States Southern Command working with them, helping them get 
better. There is a particularly useful program, INL, within the 
Department of State working with the police. And still horrific 
murder rates, but cut by a third. Where talking about they were 
where Colombia was at the beginning of Plan Colombia and 
working toward a miracle that is Colombia today.
    So the point is the money has been very, very helpful. The 
contact has been very, very helpful. One of the things we are 
doing is not only messaging through the religious leaders, the 
political leaders in Central America, to convince their 
citizens not to make that horribly dangerous journey up. We--
the energy behind it has been DHS--have organized a major 
conference in Miami, cosponsored with Mexico. We are bringing 
in Canada, Costa Rica, Panama, Spain, the EU, most importantly 
in the region, Colombia. It will be the President--Vice 
President, rather, will spend the first day down, the 
prosperity day. The Departments of Treasury and Commerce will 
come down. IEDB will come in. The point is to accelerate the 
private investment into those countries, and they are ready for 
that. And then the second day will be more of a security day 
that Homeland Security will run.
    So we are, in fact, still--I am still focused on that 
country and, of course, that region of the world. And of 
course, most of their problems revolve around our drug use in 
the United States, the vast majority of the problems, and I 
make that point all of the time.

            BORDER SECURITY: WALL DIVIDE THE SOUTHERN BORDER

    On the wall, where there is physical barrier, it works. I 
acknowledge the fact I don't live on the border. But I will 
also tell you that, when I visit the border, I talk to--every 
trip down there--I talk to the CBP people, the local law 
enforcement, the local business community, and the local 
mayors, El Paso and other places. So I get down there, and I 
talk to them. The number one concern the mayors and whatnot 
have is the free flow of commerce. I have already addressed 
that.
    The police like what we are doing and the partnership they 
have with CBP, and CBP has a great partnership with their 
Mexican counterparts on the other side.
    Where we have physical barrier, it works. Where there are 
places that, whether it is environmental reasons why, watershed 
reasons, whatever, there are places where it is unlikely we 
will ever need a wall. As far as the kind of wall--and you 
mentioned the levee system or the levee wall down the Texas. 
That is a place where a concrete structure would make sense. As 
you know, there is already a concrete wall down there that is 
reinforcing the levee system. That is good for the south Texas. 
There are other places, frankly, and again, I know I don't live 
on the border, but I do talk to people that live on the border 
and work this issue of the border, both local law enforcement 
and my people, CBP people. And they have told me what they 
want. They want a see-through wall, that they can see on the 
other side what is going on. And just as importantly to them, 
and I hadn't ever thought of this, so the Mexicans can see them 
on the other side to understand that the wall, the barrier, is 
also backed up with the great men and women of CBP.
    So what we are doing right now is looking specifically at 
where we think--where CBP and local law enforcement thinks they 
need additional physical barrier. And then we are running a 
competition right now that I am not involved in, because of 
contractual issues and everything else, procurement issues, 
running a competition of what physical barrier is the best to 
construct along those places, along the border where it makes 
sense to put physical barrier. It may be concrete wall in one 
place. It may be a bollard type fencing system in another 
place. And, frankly, it may be no physical barrier at all in 
other places. So we will certainly keep the Congress informed, 
sir.
    Mr. Carter. Mr. Harris.
    Mr. Harris. Absolutely, Mr. Chairman.
    Mr. Secretary, thank you. Obviously, your reputation is 
impeccable. As the chairman said, that is why you are the 
longest serving Secretary.
    I agree with my colleague from Maryland. I look forward to 
working with you.
    First of all, look, I agree with the ranking member on a 
lot of things. But I disagree with her about not taking the 
border wall seriously. You are on the front lines of our war on 
drugs right now. The greatest killer of young Americans right 
now is heroin, and 90 percent of it crosses our southern 
border. And if you, as in your statement, say a border wall 
system will deny access to drug- and alien-smuggling 
organizations where you plan to build it in this fiscal year's 
allocations, I support it, and I take it seriously.

               IMMIGRATION ENFORCEMENT: SANCTUARY CITIES

    With regard to, just briefly, sanctuary cities, I have got 
all kinds of people playing politics with this, local officials 
who think that they--pretend that they can write immigration 
law. They can't. But they should help the Federal agencies 
enforce it. I am glad that a rewrite of 8 U.S.C. 1373 in the 
President's proposal.

                  IMMIGRATION ENFORCEMENT: H-2B VISAS

    Finally, just one thing about that that is important to my 
district: The omnibus gave you the authority, after 
consultation with the Secretary of Labor, to adjust the H-2B 
caps and to adjust them where basically to where we would bring 
it to a level that would allow the returning workers to not 
count on under the caps. I urge you to do it. The businesses in 
my district are desperate. The summer season is coming up. We 
need it for various industries in my district. I urge you to 
expedite that if you can.
    And I yield back.

                               JONES ACT

    Mr. Palazzo [presiding]. Mr. Harris yields back.
    I am sitting in for the chairman for a minute. I am going 
to make my question real quick, and then we are hopefully going 
to get to Congressman Taylor.
    Mr. Secretary, I believe and I hope you agree that the 
Jones Act protects our U.S. shipbuilding capability from being 
hollowed out by foreign subsidies and cheap Labor and keeps the 
U.S. maritime industry strong. I want to ask you about your 
Department's compliance with the statutory prohibition 
contained in the Jones Act on foreign ships, crewed by foreign 
workers, flying a foreign flag, from transporting merchandise 
between points in the U.S.
    I was extremely disappointed to see that CBP recently 
withdrew a proposal to revoke and modify a number of the letter 
rulings concerning the transportation of merchandise on the 
Outer Continental Shelf that CBP itself has publicly admitted 
are inconsistent with the statute. In essence, CBP was, through 
this effort of revoking the old letter ruling, attempting to 
get back into compliance with the law, but now has stalled out.
    I know you believe in the rule of law. So can you tell us 
when CBP will revoke these letter rulings and actually start 
enforcing the law?
    Secretary Kelly. Congressman, one of the--very early on in 
my time in Homeland Security, this issue was briefed to me, and 
of course, I didn't have and still do not have a Commissioner 
of CBP, but the number two career at the time came in and gave 
me a brief rundown on this. And there were three options: kind 
of yes, no, and study it.
    And I am--generally speaking, when someone comes in and 
says we need to study this a little bit more, that in my mind 
is a kick-the-can-down-the-road kind of tactic. And I addressed 
that with the team. And I said: What is best right now for 
America, to make these decisions relative to foreign flag, U.S. 
flag?
    And they said: The best thing right now is for us to--it is 
so complicated and has wide-ranging impacts, the best thing to 
do is to do a comprehensive study.
    And that is the direction we are in.
    Mr. Palazzo. Well, I will be submitting more questions for 
the record, but I believe the law is clear on this, and if you 
have to choose between a foreign flag or an American flag, you 
have to choose America first. And with that--I am done asking 
my questions, and I will open it up to Congressman Taylor.

                 OFF-THE-SHELF TECHNOLOGY: ACQUISITION

    Mr. Taylor. Thank you, Mr. Chairman.
    And thank you, Mr. Secretary, for being here. I appreciate 
your service before, and now, of course, I know you have a very 
difficult job.
    I will just make a couple of statements real quick, and 
then I will submit some questions so we can get over there and 
vote.
    Number one, I want foot stomp on what Dr. Harris said about 
the H-2B visas, same thing in our area and many other States as 
well too. I have actually had people ask me to ask this 
question or at least make a statement on it that there are 
labor shortages and people are pretty desperate with these 
seasonal operators along the coastal States and then probably 
some within as well. That is one thing.
    The other thing: I am not sure if you are aware or not, but 
the Customs and Border Patrol uniforms and others in the 
Department of Homeland Security are actually manufactured in El 
Salvador and Honduras, which is incredible to me, obviously, in 
facilities with limited security potentially. But we want to 
see those productions here for U.S. workers and that textile 
industry, obviously, to benefit us and then for national 
security as well.
    One other thing, one quick question for you: Commercial 
off-the-shelf technology, do you face acquisition hurdles in 
being able to get commercial off-the-shelf technology that best 
benefits you?
    Secretary Kelly. I haven't to date. I mean, certainly, my 
direction to the Department right now is, before we embark on 
any science projects to invent some new technology, let's look 
on the shelf first. But so long as we need it, we have the 
money, and the acquisition process is adhered to, to the best 
of my knowledge, we are not having any problem acquiring things 
off the shelf.

                  CYBER SECURITY: INFORMATION SHARING

    Mr. Taylor. One other quick thing now that I have you here, 
Mr. Secretary: On the cyber, I know that your command center--
and excellent work, obviously, protecting our homeland. Quick 
question on that: Are you sharing between agencies and outside 
of DHS's world to establish patterns for potential attribution 
to where those attacks are coming from and then best practices? 
Is that something that is actively happening? Are we sharing 
between agencies?
    Secretary Kelly. It is virtually automatic.
    Mr. Taylor. It is automatic.
    Mr. Carter [presiding]. I am going to cut it off right 
there. We have got to go.
    Mr. Taylor. Thank you, Mr. Secretary.
    Thank you, Mr. Chairman.
    Mr. Carter. We stretched it way beyond the limit.
    Secretary Kelly. I am kind of glad you have to go vote.
    Mr. Carter. They are calling for us.
    Mr. Secretary, thank you for being there. Thank you for 
doing this job. Thank you for being here with us. Sorry we had 
to rush, but we have got to go.
    We are adjourned.
    <GRAPHIC><TIFF>T7050A.050
    
    <GRAPHIC><TIF1>T7050A.051
    
    <GRAPHIC><TIF2>T7050A.052
    
    <GRAPHIC><TIF3>T7050A.053
    
    <GRAPHIC><TIF4>T7050A.054
    
    <GRAPHIC><TIF5>T7050A.055
    
    <GRAPHIC><TIF6>T7050A.056
    
    <GRAPHIC><TIF7>T7050A.057
    
    <GRAPHIC><TIF8>T7050A.058
    
    <GRAPHIC><TIF9>T7050A.059
    
    <GRAPHIC><TIF10>T7050A.060
    
    <GRAPHIC><TIF11>T7050A.061
    
    <GRAPHIC><TIF12>T7050A.062
    
    <GRAPHIC><TIF13>T7050A.063
    
    <GRAPHIC><TIF14>T7050A.064
    
    <GRAPHIC><TIF15>T7050A.065
    
    <GRAPHIC><TIF16>T7050A.066
    
    <GRAPHIC><TIF17>T7050A.067
    
    <GRAPHIC><TIF18>T7050A.068
    
    <GRAPHIC><TIF19>T7050A.069
    
    <GRAPHIC><TIF20>T7050A.070
    
    <GRAPHIC><TIF21>T7050A.071
    
    <GRAPHIC><TIF22>T7050A.072
    
    <GRAPHIC><TIF23>T7050A.073
    
    <GRAPHIC><TIF24>T7050A.074
    
    <GRAPHIC><TIF25>T7050A.075
    
    <GRAPHIC><TIF26>T7050A.076
    
    <GRAPHIC><TIF27>T7050A.077
    
    <GRAPHIC><TIF28>T7050A.078
    
    <GRAPHIC><TIF29>T7050A.079
    
    <GRAPHIC><TIF30>T7050A.080
    
    <GRAPHIC><TIF31>T7050A.081
    
    <GRAPHIC><TIF32>T7050A.082
    
    <GRAPHIC><TIF33>T7050A.083
    
    <GRAPHIC><TIF34>T7050A.084
    
    <GRAPHIC><TIF35>T7050A.085
    
    <GRAPHIC><TIF36>T7050A.086
    
    <GRAPHIC><TIF37>T7050A.087
    
    <GRAPHIC><TIF38>T7050A.088
    
    <GRAPHIC><TIF39>T7050A.089
    
    <GRAPHIC><TIF40>T7050A.090
    
    <GRAPHIC><TIF41>T7050A.091
    
    <GRAPHIC><TIF42>T7050A.092
    
    <GRAPHIC><TIF43>T7050A.093
    
    <GRAPHIC><TIF44>T7050A.094
    
    <GRAPHIC><TIF45>T7050A.095
    
    <GRAPHIC><TIF46>T7050A.096
    
    <GRAPHIC><TIF47>T7050A.097
    
    <GRAPHIC><TIF48>T7050A.098
    
    <GRAPHIC><TIF49>T7050A.099
    
    <GRAPHIC><TIF50>T7050A.100
    
    <GRAPHIC><TIF51>T7050A.101
    
    <GRAPHIC><TIF52>T7050A.102
    
    <GRAPHIC><TIF53>T7050A.103
    
    <GRAPHIC><TIF54>T7050A.104
    
    <GRAPHIC><TIF55>T7050A.105
    
    <GRAPHIC><TIF56>T7050A.106
    
    <GRAPHIC><TIF57>T7050A.107
    
    <GRAPHIC><TIF58>T7050A.108
    
    <GRAPHIC><TIF59>T7050A.109
    
    <GRAPHIC><TIF60>T7050A.110
    
    <GRAPHIC><TIF61>T7050A.111
    
    <GRAPHIC><TIF62>T7050A.112
    
    <GRAPHIC><TIF63>T7050A.113
    
    <GRAPHIC><TIF64>T7050A.114
    
    <GRAPHIC><TIF65>T7050A.115
    
    <GRAPHIC><TIF66>T7050A.116
    
    <GRAPHIC><TIF67>T7050A.117
    
    <GRAPHIC><TIF68>T7050A.118
    
    <GRAPHIC><TIF69>T7050A.119
    
    <GRAPHIC><TIF70>T7050A.120
    
    <GRAPHIC><TIF71>T7050A.121
    
    <GRAPHIC><TIF72>T7050A.122
    
    <GRAPHIC><TIF73>T7050A.123
    
    <GRAPHIC><TIF74>T7050A.124
    
    <GRAPHIC><TIF75>T7050A.125
    
    <GRAPHIC><TIF76>T7050A.126
    
    <GRAPHIC><TIF77>T7050A.127
    
    <GRAPHIC><TIF78>T7050A.128
    
    <GRAPHIC><TIF79>T7050A.129
    
    <GRAPHIC><TIF80>T7050A.130
    
    <GRAPHIC><TIF81>T7050A.131
    
    <GRAPHIC><TIF82>T7050A.132
    
    <GRAPHIC><TIF83>T7050A.133
    
    <GRAPHIC><TIF84>T7050A.134
    
    <GRAPHIC><TIF85>T7050A.135
    
    <GRAPHIC><TIF86>T7050A.136
    
    <GRAPHIC><TIF87>T7050A.137
    
    <GRAPHIC><TIF88>T7050A.138
    
    <GRAPHIC><TIF89>T7050A.139
    
    <GRAPHIC><TIF90>T7050A.140
    
    <GRAPHIC><TIF91>T7050A.141
    
    <GRAPHIC><TIF92>T7050A.142
    
    <GRAPHIC><TIF93>T7050A.143
    
    <GRAPHIC><TIF94>T7050A.144
    

                                            Tuesday, June 13, 2017.

 IMMIGRATION AND CUSTOMS ENFORCEMENT AND CUSTOMS AND BORDER PROTECTION 
                    FISCAL YEAR 2018 BUDGET REQUEST

                               WITNESSES

CARLA L. PROVOST, ACTING CHIEF, UNITED STATES BORDER PATROL
JOHN P. WAGNER, DEPUTY EXECUTIVE ASSISTANT COMMISSIONER, OFFICE OF 
    FIELD OPERATIONS
THOMAS D. HOMAN, ACTING DIRECTOR, IMMIGRATION AND CUSTOMS ENFORCEMENT
    Mr. Carter [presiding]. I am going to call this 
subcommittee to order. Welcome, everybody. We are glad everyone 
is here.
    And I want to welcome our panel of witnesses. Today we have 
John Wagner, executive assistant commissioner of CBP for field 
operations. Chief Carla Provost, acting chief of the Border 
Patrol. And Thomas Homan, acting director of ICE. Welcome each 
and every one of you. We appreciate very much your coming here 
on this important issue.
    This subcommittee is holding a hearing on the budget 
request of two DHS components, ICE and CBP. And this is for 
couple of reasons. The first is practical. Chairman 
Freylinghuysen wants all appropriations bills reported out of 
full committee before the August recess. And given the late 
submissions for the 2018 budget request, we are operating on a 
compressed schedule in order to meet this objective.
    Having both components also provides an opportunity to hear 
how they operate jointly, and how those operations have a 
direct impact on the assumptions underlying their budget 
requests.
    Let me state at the outset that I support the proposed 
budget increases for both CBP and ICE. Thankfully, illegal 
immigration is down. However, the border is still vulnerable 
and gaining operational control remains an imperative.
    In my opinion, technology solutions that improve 
situational awareness and infrastructure that slows illegal 
crossings makes the country safer. Too often the discussion 
about border security revolves around illegal immigration, 
which is certainly part of the story.
    The rest of the story is that illegal immigrants can 
exploit vulnerabilities in the nation's border, and if they can 
do it, so can terrorists, drug smuggling, and human trafficking 
organizations. This is unacceptable.
    It is time to change the dynamic and the budget request for 
CBP and ICE is a start in the right direction. The fiscal year 
2018 budget request for CBP is $13.9 billion, an increase of 
$1.7 billion over the amount provided in fiscal year 2017. This 
includes over $1.7 billion for new physical infrastructure.
    There are legitimate questions about the request that 
require answers. For example, spending is proposed for various 
types of barriers, but it's unclear where they will be located, 
or if they can be executed in fiscal year 2018.
    Likewise, we need an understanding why more emphasis has 
not been placed on technology and personnel at ports of entry. 
This is where a vast majority of the illicit drugs and currency 
enter the United States.
    The fiscal year 2018 budget request for ICE is $7.6 billion 
in discretionary spending, an increase of $1.1 billion over 
fiscal year 2017. The largest share of the increase supports 
the detention and removal of an additional 12,055 adult aliens, 
resulting from robust interior enforcement.
    This subcommittee needs to understand if the change in 
policies and force structure will actually enable this level of 
enforcement as well as the methodology used to calculate the 
cost for enforcement and removal operations.
    Before I turn to our witnesses for their statements, the 
text of which will be included in the record, I would like to 
recognize the distinguished ranking member, Ms. Roybal-Allard, 
for any remarks she may wish to make.
    Ms. Roybal-Allard. Thank you, Mr. Chairman. And welcome, 
Director Homan, Chief Provost, and Deputy Executive Assistant 
Commissioner Wagner.
    When the secretary appeared before this subcommittee a few 
weeks ago I noted that his job was among the most challenging 
in government. Much of that challenge----
    Mr. Carter. We don't hear you on the mike.
    Ms. Roybal-Allard. When the secretary appeared before this 
subcommittee a few weeks ago, I noted that his job was among 
the most challenging in government. Much of that challenge 
stems from the difficult mission of your agencies.
    One of the greatest challenges is enforcing our immigration 
laws, while at the same time adhering to our American values. 
One of the responsibilities of this subcommittee is to provide 
the oversight of where and how your agencies use taxpayer 
dollars. There will be times we will disagree on funding 
priorities, as well as policies, interpretation of law and 
enforcement priorities, just as I disagreed with some of the 
prior administration's.
    Among those disagreements is the President's proposed 
border wall, because it isn't enough just to ask whether an 
investment improves homeland security. We must also consider 
the fact that each additional segment of physical barrier at 
the border comes at the expense of important priorities, both 
inside and outside of the department.
    We must ask whether the incremental benefits outweigh the 
detrimental effects, including the cost and the trade-offs.
    Another responsibility of this subcommittee is to hold 
accountable your agencies and any personnel who violate the 
trust we and you have placed in them. For example, CBP and ICE 
have significant authority not only over criminal aliens but in 
the treatment of extremely vulnerable individuals, children and 
families they apprehend, many of whom are fleeing severely 
traumatic circumstances.
    Emphasizing the need for CBP and ICE to ensure such 
individuals are treated fairly and humanely and according to 
appropriate standards is this subcommittee's obligation and 
should not be interpreted as being at odds with valuing the 
mission of your agencies.
    A further area of disagreement is on immigration 
enforcement. I completely disagree with the aggressive posture 
called for by the President's executive orders. One sentence in 
the witness testimony particularly struck me in this regard. It 
says, and I quote ``The stepped-up enforcement of our nation's 
immigration laws in the interior of the United States is 
critically important to the national security and public safety 
of the United States,'' end of quote.
    There is no disagreement that we should be removing 
dangerous individuals, but interior arrests of non-criminals 
are up 157 percent over the last year. That is not required for 
national security or public safety, and it has real cost to 
families and communities all over this country.
    One example of those costs is in Los Angeles, where there 
is an old battery recycling plant. For decades this facility 
has exposed nearby residents to harmful toxins such as lead and 
arsenic, impairing the health of their children for the rest of 
their lives. Some 100,000 people are still at risk from this 
contamination.
    The county has organized volunteers to go door to door in 
these communities to inform and gather health information, but 
many of the residents are so frightened of being separated from 
their families, health professionals fear residents will be too 
afraid to talk to volunteers.
    Also because of current immigration policies, people are 
afraid to report serious crimes, including domestic violence, 
and they are less willing to come forward as witnesses to 
crimes.
    Teachers are telling me that children are being traumatized 
and afraid to go to school, or to just go out and play, for 
fear their parents will be gone when they return home. The 
trauma that is being inflicted on entire communities throughout 
our country cannot be overstated.
    This is a moral question as much as it is a legal one. And 
members of the panel, just as other law enforcement entities 
have discretion to enforce our laws, you too have discretion in 
enforcing our immigration laws fairly and justly.
    Furthermore, I hope as we discuss these and other important 
issues, we will all avoid unnecessary and misleading rhetoric 
suggesting that Secretary Jeh Johnson and the previous 
administration did not work to protect our borders and enforce 
our laws.
    I hope we will respect efforts of the prior administration 
to faithfully enforce the law as they understood it, including 
the efforts of the men and women of CBP and ICE who served 
during that administration. To try and discredit them only 
serves to undermine the respect and confidence the American 
people have in their government and its determination to keep 
them safe.
    I also hope that, given the importance of your mission, 
when we have areas of disagreement on homeland security 
investments and policy, it does not call into question the 
commitment we all share as Americans to defend and protect our 
country.
    Mr. Chairman, I know that this is approach that you take in 
leading this subcommittee, and I very much respect and 
appreciate your patriotism and your commitment to protecting 
our homeland.
    Thank you, Mr. Chairman, thank you members of the panel, 
and I look forward to our discussion this morning.
    Mr. Carter. We are pleased to have the ranking member of 
the full committee, Mrs. Lowey, here today. Mrs. Lowey, would 
you like to make a statement?
    Mrs. Lowey. Thank you, Mr. Chairman. And I would like to 
thank Chairman Carter, Ranking Member Roybal-Allard, for 
holding this important hearing, and I want to thank you to our 
distinguished panelists for being here this morning.
    As we wade further into this condensed appropriations 
season, I have been struck by the notable and at times shocking 
decreases and eliminations in this administration's budget. I 
am stunned yet again, but this time by the increases proposed 
for both ICE and CBP, which are part and parcel of the un-
American mass deportation policy this administration is 
pursuing.
    For ICE, the budget requests $1 billion for a surge in 
detention beds, an increase of $186 million to hire 1,000 
additional immigration enforcement officers and 600 support 
staff. For CBP the budget requests $1.6 billion for, in my 
judgment, President Trump's boondoggle of a wall, an 
unnecessary and unreasonably expensive proposition that is 
based on nothing more than a campaign promise and will not keep 
us safe.
    I want to make something perfectly clear. Democrats will 
not accept a penny of funding for a new deportation force or a 
border wall. It appears President Trump and the administration 
did not take note of the recently enacted bipartisan spending 
bill in which neither of these items was funded.
    If President Trump actually wants the government to 
function and wants annual appropriation bills enacted into law 
then he must abandon these outrageous requests.
    In addition, President Trump has spoken and tweeted 
extensively regarding his draconian plan to detain and deport 
as many people as possible. Let me give you just one example of 
how unconscionable and unacceptable this approach is.
    Last week a young man from my district, Diego 
Pumonacanella, was detained by ICE. Diego was brought to the 
United States as a minor by a parent and by all accounts was an 
upstanding member of the community. This summer Diego was 
planning to graduate from high school, but instead was 
separated from his mother, detained on the day of his senior 
prom, and is now due to be deported.
    We have worked to foster a diverse community where people 
of all backgrounds build a brighter future together. The 
removal of this teenager violates the fundamental trust between 
law enforcement and our community.
    Increased immigration enforcement of nonviolent offenders--
I mention that again because nonviolent offenders, especially 
targeted at children like Diego, has a chilling effect on these 
critical relationships. This radical enforcement policy makes 
us all less safe.
    As I told Secretary Kelly when he testified before this 
subcommittee last month, the budget does not reflect the 
serious nature of the threats we face. It is time we move on 
from campaign rhetoric and start focusing on what is needed to 
truly keep American families safe. Thank you.
    Thank you, Mr. Chairman.
    Mr. Carter. Thank you, Mrs. Lowey.
    All right. We are ready to hear from you on your opening 
statements. Those opening statements. If you submitted an 
opening statement, everybody has got a copy of it. What you 
need to say, you need to condense it down to about 5 minutes, 
and the rest of what you have to say of course will be entered 
into the record.
    So Ms. Provost.
    Ms. Provost. Thank you, Chairman Carter, Ranking Member 
Roybal-Allard.
    As the acting chief of the United States Border Patrol, I 
am honored and privileged to appear before you today to discuss 
the President's fiscal year 2018 budget. As America's border 
agency, U.S. Customs and Border Protection is responsible for 
securing America's borders against all threats, while 
facilitating the flow of lawful people and goods entering the 
United States.
    Today I will discuss how we are using the resources 
provided by Congress efficiently and effectively, and talk 
about how the President's fiscal year 2018 budget request 
supports CBP's continued commitment to securing our borders by 
maintaining the right balance of people, technology and 
infrastructure, often referred to as the three-legged stool.
    As an evolution from the three-legged stool, we rely on 
four interdependent master capabilities of domain awareness, 
impedance and denial, access and mobility, and mission 
readiness.
    Domain awareness is provided through technology that helps 
detect, identify and classify. Impedance and denial is provided 
through border walls designed to deny and deter illicit cross-
border activity.
    Access and mobility is added infrastructure of access and 
patrol roads that enhance our response capabilities. And 
finally, mission readiness is provided through the border 
patrol agents and their training and tools that provide the law 
enforcement response.
    Our operational capabilities are reinforced by Congress's 
ongoing support of investments in technology and equipment. 
Radios are essential for frontline agents, officers and pilots. 
Border patrol agents may not deploy to the field without a 
functioning radio.
    On that, I would be remiss if I did not express our 
gratitude to Congress for your strong support in fiscal year 
2017 in this area. However, nearly 72,000 units of CBP's radio 
inventory are obsolete and/or have exceeded their useful life.
    The 2018 budget requests $44 million to purchase secure 
modern communication assets in order to achieve maximum 
interoperability and functionality. The budget also includes 
$34.8 million for the tactical aerostats and relocatable towers 
program to provide border patrol agents with advanced 
surveillance technology over a wide area.
    The budget includes $22.4 million for integrated fixed 
towers, operations and maintenance, and $17.4 million for 
procurement, construction and improvements. These and other 
proven border security technologies help the U.S. Border Patrol 
fulfill our mission every day.
    To fulfill the mandate of executive order 13767, border 
security and immigration enforcement improvements, the budget 
funds an increase of $100 million to begin hiring 5,000 
additional border patrol agents, beginning with 500 agents from 
current appropriated staffing levels.
    The budget seeks further increase of $23.2 million to fund 
the initial hiring of 94 additional air and marine operations 
personnel. This initial hiring surge develops the foundation to 
increase operational control along the border.
    The budget also includes an increase of $17.5 million to 
support efforts to attract qualified candidates and expedite 
the hiring process. CBP recruiters will participate in 
thousands of recruiting events, including those for veterans 
and transitioning military personnel as a top priority.
    With that, I can assure you that our agency is committed to 
hiring people who have the highest standards of integrity, both 
personally and professionally.
    The budget also includes $25 million to enhance U.S. Border 
Patrol's operational mobility program. This positively impacts 
our agents' morale, and we are very thankful for the continued 
dedication of members of Congress to working collaboratively 
with us to find solutions to this complicated challenge.
    Also included in the budget in support of the executive 
order is $1.6 billion for a border barrier system, support 
infrastructure and personnel, and $975 million for border 
security technology assets and equipment.
    CBP has begun taking appropriate steps to deploy a border 
wall first where it is needed most. The budget provides for 32 
miles of new border barrier system and 28 miles of new levee 
wall system in the Rio Grande Valley sector, where we have a 
critical operational requirement, as well as 14 miles of 
secondary replacement barrier system in the San Diego sector.
    Coordination and cooperation among all federal, state, 
local, tribal and binational law enforcement agencies, as well 
as with the public and private sectors that have a stake in our 
mission, is paramount. The border environment is dynamic and 
requires continual adaptation.
    This budget supports the border patrol's dedicated men and 
women, who continue to meet daily challenges with integrity and 
commitment.
    In closing, I would only add that it is my belief that 
border patrol agents are among the most dedicated and committed 
law enforcement personnel in America. And we are the finest 
border security force in the world. It is an honor to work with 
them, as well as to be their advocate here today.
    Thank you for the opportunity to appear before you and for 
your continued support of CBP. I look forward to your 
questions.
    [The information follows:]
    <GRAPHIC><TIFF>T7050A.145
    
    <GRAPHIC><TIF1>T7050A.146
    
    <GRAPHIC><TIF2>T7050A.147
    
    <GRAPHIC><TIF3>T7050A.148
    
    <GRAPHIC><TIF4>T7050A.149
    
    <GRAPHIC><TIF5>T7050A.150
    
    <GRAPHIC><TIF6>T7050A.151
    
    <GRAPHIC><TIF7>T7050A.152
    
    <GRAPHIC><TIF8>T7050A.153
    
    <GRAPHIC><TIF9>T7050A.154
    
    <GRAPHIC><TIF10>T7050A.155
    
    <GRAPHIC><TIF11>T7050A.156
    
    <GRAPHIC><TIF12>T7050A.157
    
    <GRAPHIC><TIF13>T7050A.158
    
    <GRAPHIC><TIF14>T7050A.159
    
    Mr. Carter. Mr. Wagner.
    Mr. Wagner. Thank you, Chairman Carter, Ranking Member 
Roybal-Allard, and members of the subcommittee. It is an honor 
to appear before you today. This committee has been a great 
supporter of CBP, which has really helped the men and women of 
our organization achieve a complex mission.
    So as deputy executive assistant commissioner in the office 
of field operations, I am responsible for more than 29,000 
employees, including more than 24,000 CBP officers and CBP 
agriculture specialists at our nation's 300-plus ports of entry 
in the air, land and sea environments.
    These dedicated men and women use state-of-the-art 
technology, intelligence, risk information and targeting 
results, coupled with their well honed law enforcement 
techniques and skills to prevent dangerous people and 
contraband from entering the United States. They do all this 
while enabling the movement of legitimate international trade 
and travel.
    The fiscal year 2018 budget supports these efforts by 
ensuring the men and women of CBP have the resources they need 
to get the job done. Last fiscal year, CBP officers inspected 
over 390 million travelers and arrested over 8,000 individuals 
wanted for serious crimes.
    CBP officers also stopped nearly 275,000 inadmissible 
aliens from entering the United States, which was an increase 
of 7.6 percent from fiscal year 2015.
    The reasons for this range from immigration violations to 
criminal violations and national security concerns. The fiscal 
year 2018 budget, which includes funding to improve 
intelligence and targeting capabilities related to the 
screening and vetting of immigration populations to 
international travelers will enhance CBP's ability to secure 
our borders and keep America safe.
    The budget requests include an increase of $14.5 million to 
expand staffing at CBP's National Targeting Center by 93 
positions. Sixty-three of these positions are CBP officers and 
the remaining are support positions to conduct activities such 
as the vetting of travelers and cargo, as well as our counter-
network activities.
    The National Targeting Center operates 24 hours a day, 7 
days a week. Their mission is to effectively identify 
passengers and cargo that may pose a threat in all 
international modes of transportation and ensure those threats 
are addressed in a sufficient manner at the earliest possible 
opportunity.
    Effective targeting and interdiction prevents inadmissible 
high-risk passengers, cargo and agriculture, as well as 
bioterrorism threats from reaching the United States. This 
ensures our borders are the last line of defense rather than 
the first.
    The budget request also includes $54.9 million for the 
National Targeting Center to build up better analytical systems 
and enhance vetting platforms to support--in support of our 
counter-network strategy.
    In the area of non-intrusive inspection technology, the 
fiscal year 2018 budget proposes $109.2 million to build upon 
prior years' investments in our current small-scale and large-
scale fleet. CBP officers use this technology to scan for the 
presence of radiological or nuclear materials in 100 percent of 
mail and express consignment mail and parcels, 100 percent of 
truck cargo, and personally owned vehicles arriving from Canada 
and Mexico, and nearly 100 percent of all arriving maritime 
containerized cargo.
    CBP officers also use this technology to examine cargo 
conveyances such as sea containers, commercial trucks, and 
railcars and privately owned vehicles for the presence of 
contraband without physically opening or unloading them.
    Fiscal year 2016, CBP utilized over 300 large-scale 
nonintrusive inspection systems to image approximately 6.5 
million cargo or conveyances in the land, air and sea ports of 
entry, resulting in our seizing of over 355,000 pounds of 
narcotics and more than $3.9 million in U.S. currency.
    More than 8,000 additional officers, at a labor cost of 
approximately $1 billion would have been required if physical 
examinations had been conducted.
    The fiscal year 2018 proposed funding will allow CBP to 
remain on track to ensure our nonintrusive inspection fleet is 
operating within its service life by fiscal year 2024. The 
funding will support replacement of 52 large-scale systems and 
about 600 small-scale systems.
    We will deploy these systems where they are best supported 
by the operational needs and the physical environment. CBP will 
deploy mostly what we call Z portal systems, that have a proven 
track record of reliably helping our officers detect contraband 
at the borders.
    So I want to thank members of the subcommittee for your 
continued support of CBP and for the opportunity to appear 
before you today, and I am happy to answer any of your 
questions.
    [The information follows:]
    <GRAPHIC><TIFF>T7050A.160
    
    <GRAPHIC><TIF1>T7050A.161
    
    <GRAPHIC><TIF2>T7050A.162
    
    <GRAPHIC><TIF3>T7050A.163
    
    <GRAPHIC><TIF4>T7050A.164
    
    <GRAPHIC><TIF5>T7050A.165
    
    <GRAPHIC><TIF6>T7050A.166
    
    <GRAPHIC><TIF7>T7050A.167
    
    <GRAPHIC><TIF8>T7050A.168
    
    <GRAPHIC><TIF9>T7050A.169
    
    <GRAPHIC><TIF10>T7050A.170
    
    <GRAPHIC><TIF11>T7050A.171
    
    <GRAPHIC><TIF12>T7050A.172
    
    <GRAPHIC><TIF13>T7050A.173
    
    <GRAPHIC><TIF14>T7050A.174
    
    <GRAPHIC><TIF15>T7050A.175
    
    Mr. Carter. Thank you, Mr. Wagner.
    Mr. Homan.
    Mr. Homan. Thank you, sir. I want to read my opening 
statement that I took time myself to pen this past week.
    Chairman Carter, Ranking Member Roybal-Allard and 
distinguished members of the subcommittee. Thank you for the 
opportunity to appear before you today to present the 
President's fiscal year 2018 budget for U.S. Immigration and 
Customs Enforcement.
    Our mission is to protect America from cross-border crime 
and illegal immigration that threaten national security and 
public safety. To carry out our mission, ICE focuses on 
immigration enforcement, preventing terrorism, and combating 
transnational criminal threats.
    The President's fiscal year 2018 budget request for ICE 
includes $7.9 billion to help ICE meet our mission requirements 
and to make much-needed investments in immigration enforcement, 
criminal investigations, workforce expansion and training.
    Before we talk dollars and cents, I want to take this 
opportunity to speak to you about the outstanding men and women 
of ICE. Just a few weeks ago I joined Americans from across the 
country to observe national police week in honor of fallen law 
enforcement officers who gave their lives in the line of duty.
    I walked by the marble walls of the National Law 
Enforcement Officers Memorial, which holds the names of 20,000 
men and women who lost their lives protecting others. Among 
those are the names of 52 officers and agents who served within 
ICE.
    Tragically, two names were added this past year, 
deportation officer Brian Beliso and Special Agent Scott 
McGuire. I met their families, their wives, their children, 
their parents, who will endure the pain of their loss for a 
lifetime.
    Police week and similar occasions bring us together in 
shared respect for law enforcement officers who serve and 
protect us, but too often that respect does not seem to extend 
to the honorable men and women of ICE.
    Unfortunately, the men and women of this law enforcement 
agency are unfairly vilified for simply doing their jobs. These 
are good and decent people who leave their families every day 
to enforce laws they are sworn to uphold, willfully putting 
themselves in harm's way to keep our communities and our nation 
safe.
    ICE is a professional law enforcement agency focused on 
public safety and national security, and we enforce laws like 
every other federal law enforcement agency, state and local. 
And yet, unlike most other agencies, we do this despite a 
constant deluge of biased attacks against ICE personnel by 
those who disagree with the laws we enforce.
    While I recognize that people have the right to protest 
what they don't agree with, I want to emphasize to the public 
and to the media and to this committee that ICE officers don't 
write the laws. They enforce laws as enacted by Congress and 
signed into law by the President. They do not make up policy on 
the street.
    As I said, people have the right to protest, but ICE 
officers also have rights. ICE officers have the right to do 
their job professionally without interference. They have a 
right to uphold the oath they took to enforce the laws of this 
great nation. They have the right to end their shift safely and 
return to their families every day. And they have a right to be 
proud of the enormous contribution they make to our safety and 
security.
    We are all blessed to live in the greatest country on 
earth, and I can't blame anybody who would want to live here. 
But we are also a country built on a foundation of the rule of 
law. Those who choose to enter this country illegally, which is 
a crime, a federal crime, or to overstay a visa have knowingly 
chosen to break the law.
    Meanwhile, millions of people who have become permanent 
members of our society through our generous legal channels, 
they show their respect for the rule of law and for the 
American people.
    Even so, aliens who are subject to the removal process 
under the law receive extensive due process at great expense to 
the American taxpayer. If an alien is issued a notice to appear 
at the OCN immigration judge at taxpayer expense, they will 
have an interpreter provided to them at taxpayer expense during 
their hearings.
    If they claim fear of returning to their home country, they 
will have every opportunity to pursue that claim. If 
unsuccessful, the alien can appeal the ruling to the Board of 
Immigration Appeals, a U.S. circuit court of appeals, and even 
the Supreme Court in some cases.
    However, once an alien has pursued the extent of their due 
process rights, and a federal judge issues a final order of 
removal, it is ICE's job to enforce that order. If a federal 
judge's decision is not enforced, there is absolutely no 
integrity in this entire system.
    If you love this country, you must respect its laws and 
respect those who keep you safe. ICE officers do not do what 
they do because they hate what is standing in front of them. 
They do what they do because they love what is behind them.
    To that end, ICE welcomes the additional resources 
requested in the President's fiscal year 2018 budget request, 
which will allow us to better fulfill our national security and 
public safety mission.
    During his first 2 weeks in office, President Trump signed 
a series of executive orders that laid out the policy 
groundwork for the department and ICE to carry out the critical 
work of securing our borders, enforcing our immigration laws 
and ensuring that individuals who pose a threat to national 
security or public safety cannot enter or remain in the United 
States.
    The President's budget, if funded by Congress, would 
provide the additional resources, tools and personnel needed to 
begin implementing these policies. Reflecting the 
administration's priorities, the President's budget for ICE 
reflects a $1.2 billion increase over fiscal year 2017 enacted 
budget. This increase in funding is critical for ICE to meet 
its mission needs.
    The President's budget also supports an expansion of our 
workforce by adding 1,000 law enforcement officers, as well as 
investigative support staff, including attorneys, to support 
the increased operational tempo.
    The request would also maintain HSI's critical operations 
abroad and enhance efforts to target and combat dangerous gangs 
and other criminal organizations.
    I want to thank you again for the opportunity to testify 
today and for your continued support of ICE. I look forward to 
answering any question you may have at this time.
    [The information follows:]
    <GRAPHIC><TIFF>T7050A.176
    
    <GRAPHIC><TIF1>T7050A.177
    
    <GRAPHIC><TIF2>T7050A.178
    
    <GRAPHIC><TIF3>T7050A.179
    
    <GRAPHIC><TIF4>T7050A.180
    
    <GRAPHIC><TIF5>T7050A.181
    
    <GRAPHIC><TIF6>T7050A.182
    
    <GRAPHIC><TIF7>T7050A.183
    
    Mr. Carter. Thank you, Mr. Homan.
    We are going to start with our line of questioning. We are 
going to have a timer on. There will be a little leeway, but I 
just looked through the list of questions I have got and every 
one of them needs to be answered. I am sure that we won't get 
to all of them, but we will submit all of them for an answer 
because everything that I am concerned about I think everybody 
else is also concerned about. These are answers that we need to 
have.
    We are a current event in today's world and we have to 
remember we are a current event and we have to really do 
serious inquiry. I will begin.
    Chief Provost, there has been a lot of discussion about how 
to achieve operational control of the border. How do you define 
the requirements for operational control of the border? Please 
discuss them. Do you have a fully validated requirement that is 
driving the request for funding in fiscal 2018 budget?
    Ms. Provost. Thank you for the question, Chairman Carter. 
So operational control is not something new to the border 
patrol. As I know you know, we have been utilizing this term 
for numerous years. We created operational control.
    And for us, in its simplest state it is being able to 
impede and deny entry. If there is an entry made, having a 
situational awareness until our agents can respond in a time-
bound response and come to a law enforcement resolution. That 
is the simplest term of it.
    The four master capabilities I spoke to in my opening 
statement, of domain awareness, impedance and denial, access 
and mobility and mission readiness are key to reaching op-con. 
As you know, the border is very dynamic and there is no one-
size-fits-all.
    As we go across the border in different areas, it may be a 
different mixture of those four master capabilities, but 
experience is that this works for us.
    From the time that I joined the border patrol in 1995, we 
have been utilizing these tools to meet that requirement. So 
operational control is key. Those four master capabilities are 
the key to the success of operational control and the right 
balance in the right places along the border.
    Mr. Carter. Because there are requirements that are fully 
validated right now that are driving this request.
    Ms. Provost. We utilize the capabilities gap analysis 
process to identify gaps in simplest of terms along the border, 
and the C-GAP process is a continuous process for a reason. As 
we apply resources to one area of the border, as you know it 
may impact other areas of the border.
    And through that process we have validated the requirement. 
And we have different requirements across the border in all of 
these areas. And as I said before, it is a continuous process, 
so it is ever-changing and we continue to evaluate the border 
throughout the year, every year.
    Mr. Carter. Well, this next question has multiple parts.
    Ms. Provost. Okay.
    Mr. Carter. And we will try to keep track of them.
    Ms. Provost. Okay.
    Mr. Carter. The budget includes $1.6 billion for planning, 
design and construction of 74 miles of various types of 
physical barriers, including levee wall, bollard fencing, and 
potentially a cement wall. Tell us more of your plans for 
border infrastructure, what types of structures do you propose, 
and where will they be located strategically.
    Where do you anticipate the longest length of barrier? 
Where does it not make sense to build a wall rather than a 
fence? From the time you get funds, how long before you start 
putting steel in the ground? That one I put an X by. That is 
important.
    Do you expect to use multiple contract vehicles as well as 
contractors? Can the entire $1.6 billion be put on contract by 
September 30th, 2018? Please be specific as to those projects 
you can put on contract and address the situation in Texas, 
where land is mostly privately owned. Lots of parts.
    Ms. Provost. Okay. I will do my best to make sure I hit all 
of them, sir.
    So yes, the $1.6 billion that we have requested for fiscal 
year 2018, as you have stated we have 28 miles of levee wall 
that we are asking for, and that really fills the gaps where we 
have current wall in the Rio Grande Valley sector, and then 
another 32 miles that we are working within a 52-mile area of 
determining, making final determination of where that goes. And 
then as you stated, we also have the secondary wall in San 
Diego.
    Through our C-GAP process we have validated that that is 
our priority area to go in fiscal year 2018. I think it is very 
clear that the Rio Grande Valley sector has been an area of 
exploitation for bad actors in the last couple of years, for us 
certainly a high priority in an area where we are lacking a lot 
of infrastructure in general.
    So that is an extremely important area for us as well, as 
well as replacement in San Diego, in an area that has been 
breached over 800 times. The current fence that is in that area 
is insufficient, and that is a high risk area for us in the 
aspect that they have returned on numerous occasions. Traffic 
returns to that area.
    Transnational criminal organizations will go to the area of 
easiest access, logistical support, quickest vanishing times, 
so that is why that area is key to us. And through our planning 
process that is where we came with--to that area of wall.
    For the longest barrier, it would be those 32 miles in the 
Rio Grande Valley sector area. The 28 miles is broken up and 
filling some gaps, along with the gates, which thank you very 
much for the funding in 2017 to support those. Thank you to the 
committee for those gates. That is imperative for the 
operations of our agents on the ground in Rio Grande Valley.
    There are certainly, and you have heard the secretary say 
that there are areas where a wall does not make sense. A prime 
example would be in the Big Bend national forest area. There 
are areas where there are natural barriers and there is no 
requirement for us for a wall there. There are other areas as 
well, some of the lakes throughout the Texas border with 
Mexico.
    So we are taking all of that into consideration as we go 
through our analysis process of where we have a requirement for 
impedance and denial.
    You asked about the funds and the contracting. Obviously I 
am no contract specialist, but I know that our team is working 
very, very closely if given the funding.
    So first let me address the prototypes. It is my 
understanding that we are working to a late summer timeframe 
for those prototypes to be in for some analysis and review and 
see how those would possibly add to our toolkit, different 
barriers. That of course is for this year.
    For next year, if--we are working towards diligently if we 
receive the funding to be able to start in March or April of 
2018. Beyond that I would refer you--I would say I think it 
would benefit us to have some of our specialists come back and 
brief your staff more in-depth because that is not my area of 
subject matter expertise.
    Mr. Carter. Well, if that is necessary then would you get 
them to answer this question for us?
    Ms. Provost. Of course, sir, I will.
    Mr. Carter. Because these are large amounts of money.
    Ms. Provost. Certainly.
    Mr. Carter. These are important projects. We don't want to 
be sitting with pots of money out there for long periods of 
time.
    And then the question about the Texas situation. We pride 
ourselves in Texas on our property rights because we entered 
this country reserving our property rights, which is very rare 
as it pertains to the other 50 states. Therefore, we violently 
fight for our property rights.
    Ms. Provost. Certainly. I apologize that I missed that.
    Mr. Carter. There is combination of areas down there. If a 
landowner is not willingly going to enter into a contract to 
sell you the land then you are going to have to go to court to 
use condemnation proceedings, eminent domain, to be able to go 
forward.
    And those are long--having tried those myself--long, drawn 
out. And I can say from at least my personal experience very 
boring to try. But they take time. Time really defines that.
    Ms. Provost. Yes, sir. If I may, just quickly on that. As I 
know you know, it is always our--CBP always works--tries to 
work with the landowner to come to a resolution. Condemnation 
is not where we want to go to, and we will work diligently with 
all of the stakeholders to try to come to a resolution that 
works for the landowners first and foremost.
    Mr. Carter. Very good. And to finish up this area, a 
question, a vital question. Congress provided funds for 40 
miles of replacement fencing. You answered some of this. When 
will you begin construction on the replacement fencing, and do 
you know the exact locations that you want this fencing?
    Ms. Provost. Yes, sir. For the fiscal year 2017 replacement 
fencing, first, thank you very much. That is going to be hugely 
beneficial for our agents on the line and their officer safety 
and being able to replace some outdated fence.
    So San Diego, El Paso and El Centro are the areas that we 
are placing that new--or excuse me, putting that replacement 
fence in. So those are the priority areas of old, outdated 
fencing that is not working for us. It is a risk to the agents 
for numerous reasons. It is in areas that they have breaches 
quite often and this would be a huge positive impact for our 
agents.
    So we are going--first and foremost we have 14 miles in San 
Diego of primary wall, replacement, two miles in El Centro, and 
24 miles in El Paso that we are replacing.
    Mr. Carter. Very good.
    Ms. Roybal-Allard.
    Ms. Roybal-Allard. Thank you. I think there are more 
questions then we have time for. But I would like to start with 
ICE detention and funding.
    Director Homan, the ICE budget requests $3.6 billion for an 
average daily detention population of 51,379. This includes 
48,879 adults and 2,500 individuals in family detention. That 
is an increase of more than 12,000 adult detention beds over 
the fiscal year 2017 level of 36,824.
    Meanwhile, the current average daily population of adults 
in detention is under 34,000. Do you currently think that ICE 
has a requirement for the 51,379 detention beds in fiscal year 
2018, and if so, what is that based on? Is it a rough estimate 
or does ICE have a methodology tying detention beds to a 
particular staffing level, pace of enforcement activity or 
target population?
    Mr. Homan. That budget is built on the assumption of a full 
year continuing resolution for 2017, along with enhancments for 
provisional personnel and beds that weren't funded in fiscal 
year 2017.
    Why do we think we need 51,000 beds? When the team got 
together and looked at, you know, their model, I think 51,000 
is a good number, and let me tell you why.
    Part of the new executive order--what has changed in 
January under new executive orders, we have opened the aperture 
up to who is--who we are looking for, who we are looking to 
arrest and detain or remove. Under the old administration, 
unless you were a fugitive after 1/1/14, you were off the 
table. You weren't a priority, we weren't looking for them.
    Now we have got 345,000 aliens who were in the country 
illegally with a final order of removal that--as required by a 
judge, are now people we are looking for.
    Our arrests right now are up 50 percent because that 
aperture has been opened. Our detainers are up over 75 percent. 
And these are people we put a detainers on that will eventually 
come to our custody.
    Secure Communities is back, which means we put a detainer 
on anybody that is illegally in the United States. And 287G, we 
expect that program, which almost nearly doubled in size, we 
expect it to nearly triple in size by the end of the year. That 
is a force multiplier for more law enforcement officers to 
bring illegal aliens into our custody.
    OPLA has over half a million cases on the docket. They 
expect to have close to a million by the end of the year. These 
are also folks that will eventually come into our detention.
    Recalcitrant countries was an issue under the last 
administration. We had 23, 24 countries that we couldn't get 
travel documents from. Through a lot of hard work for the ICE 
staff here in headquarters, we are down to 11 countries now, so 
we got 12, 13 countries back to the table issuing travel 
documents for thousands of people we are trying to remove.
    And overstays. Those overstays, you know, between 600,000, 
and 700,000 overstays in this country that were not a priority, 
under this new executive order they are. So you can see 
hundreds of thousands of illegal aliens with final orders, that 
already had the due process, are now back on the table for law 
enforcement.
    So the intake of new cases for detention are very high. 
Clearly you can justify 51,000 beds.
    Ms. Roybal-Allard. So we are basically talking about young 
people like Diego that Mrs. Lowey was talking about now, that 
everyone is pretty much being targeted, if I understand. That 
is what you mean by the open aperture?
    Mr. Homan. The executive orders open the aperture, yes, but 
we still prioritize criminals and national security threats 
first. But we look for fugitives that had due process, that had 
been ordered removed by a federal judge. We have to remove 
them. That is our job. And those that reenter the country have 
to be removed. That is a felony.
    When you get formally removed from the country, reenter 
illegally, that is a felony.
    Ms. Roybal-Allard. I understand that but I just wanted get 
some clarification.
    Also in May, the average population in family detention was 
under 600. The three family detention facilities ICE currently 
maintains represent fixed cost. That means that we are paying 
the full rate for 2,500 beds, no matter how many beds are 
filled.
    What are your plans for family detention going forward, and 
will ICE continue to pay for family detention capacity that 
isn't being used?
    Mr. Homan. The answer to the last question is it is not--I 
don't think we should be paying for family beds we are not 
using. We are meeting now, as of last week we are meeting with 
the vendors for family detention to talk about the future use 
of family detention.
    My goal is to certainly decrease the funding needed for 
those beds. I think those beds should come at a cheaper price 
and we are working on that now. Family detention I think is a 
valuable tool we have. I think family detention serves a 
purpose. At one time they were full and we weren't allowed to 
take anybody into custody in family detention.
    But it is a consequence for illegal activity. And family 
detention gives us an opportunity to identify who these folks 
are, make sure that we put them on some sort of reporting when 
they are released. They get a full medical so we are not 
releasing women and children with chickenpox, measles, and we 
deal with lots of medical issues coming in.
    So I think it is a necessary tool to figure out who these 
people are and should they be released. Most will claim fear 
and have a hearing in front of the CIS. Some don't get fear, 
which means if their claims are denied then these are people 
who we will remove straight from the detention facility to 
their homeland. So I think it is a valuable tool we have got to 
sustain.
    Ms. Roybal-Allard. Now I believe the average length of stay 
in family detention is currently around 10 days, and this is 
largely due to a federal district court determination that the 
detention of families with children cannot exceed 20 days 
unless facilities are state licensed and non-secure.
    When I discussed this with Secretary Johnson during last 
year's hearing, he said the department was pursuing state 
licensure but it was unclear whether the facilities would 
eventually be non-secure.
    What is the current status of pursuing state licensing for 
family detention facilities, and what, if any, are your plans 
to satisfy the district court's requirement that family 
detention be non-secure?
    Mr. Homan. Of the two family detention centers in Texas, 
first of all, Karnes did receive a provisional license. When 
the facility in Dilley was seeking license a grassroots 
organization in Texas filed an injunction. And the state was 
looking to--from licensing them, so it went to the court 
process.
    Licensing did pass the Texas Senate but it stalled in the 
House, so it is on hold. We will continue to try to get 
licensing for those facilities. Berks facility in Pennsylvania 
does have a license. But the ruling by the court says that it 
averages 20 days for those who--for children to be detained for 
20 days.
    So we will continue to operate within the judge's--the 
district court's finding and make sure that on average they are 
in the facility less than 20 days, unless they are found not to 
have a fear claim and we are likely to remove them. They may 
stay in longer. But we will abide by the terms of the circuit 
court decision.
    Ms. Roybal-Allard. One of the things that disturbed me was 
to hear that ICE plans to end the family case management pilot 
program, which has only been fully underway for approximately a 
year. It seems premature to me to pull the plug on a pilot that 
seems to be working so far.
    What have been the specific results of the pilot, and what 
kind of formal evaluation has ICE carried out? It is my 
understanding that appearance rates for the participants have 
been much higher than for families in the traditional ATD 
program.
    Are there lessons learned from the pilot that could 
productively be incorporated into the ATD program?
    Mr. Homan. You are right, it is a pilot. It was a pilot and 
we--it was a $12 million pilot, the cost for a full year. But 
on the metrics of showing up for their hearings and so forth, 
the metrics are no different. Very similar to those on 
traditional ATD.
    So when you look at the cost, you know, an average day on 
the family case management program is $35, almost $36 a day and 
a typical ATD ICE app is $4 a day. That is eight times the cost 
of a traditional ATD, which had the same result at the end 
practically, off by one or two percentage points.
    So for the same reason we are here today talking about a 
budget, I think as long as it doesn't change the metrics of who 
has shown up in court, as long as they both are equally 
successful and one is $4 and the other one is $36, we decided 
that we were going to go with the cheaper alternative.
    Ms. Roybal-Allard. Can you provide us with that 
information----
    Mr. Homan. Yes, ma'am.
    Ms. Roybal-Allard [continuing]. To the committee? I would 
appreciate it.
    Mr. Carter. I am going to continue in the order that people 
arrived. Mr. Fleischmann.
    Mr. Fleischmann. Thank you, Mr. Chairman. And to each and 
every one of our witnesses I want to thank you all for 
appearing before us today. And I really appreciate the fact 
that you have been so laudatory of your employees. Thank you 
very much. They do a very difficult job and--for our country 
and I appreciate that so much.
    I have a question for Mr. Wagner. First of all, I was very 
pleased to see a proposed increase in funding for nonintrusive 
inspection systems at land ports of entry. I have a two-part 
question, sir.
    Do you have any idea how much contraband goes undetected 
through our land ports of entry on an annual basis? By several 
reports, the use of NII is responsible for 90 percent of those 
interdictions in secondary screening.
    Then my final question would be, do you think it would make 
sense to deploy such proven technology at pre-primary to ensure 
100 percent screening of all passenger vehicles, sir?
    Mr. Wagner. I don't have an answer to how much goes 
undetected, but I can certainly agree with the high percentage 
of narcotics that we do intercept using the technology. It is 
something we have built up the systems over the last probably 
15 years to 20 years or so at our ports of entry.
    It is incredibly useful technology. It is an incredible 
resource-saver and really the safe and efficient way to examine 
a vehicle or a cargo container. It is really a tremendous 
asset.
    Now whether we could deploy them into a pre-primary type 
environment, I think it is as much about the facility 
constraints or the logistics of doing so, or to figure out the 
time sensitivities and how much traffic and the through-put we 
could get.
    We are looking at some things with commercial truck traffic 
and being able to run trucks through--100 percent through the 
scanning to look at what the impact would be and whether could 
we actually accomplish that in the right amount of time.
    For passenger vehicles, I think the logistics of doing so 
would be a challenge. I think operationally we like to be able 
to do that. It is just the time and the resources that would be 
needed as well as the physical layout of where to put that 
equipment in those vehicle lanes. But it is certainly a 
strategy that would be worth talking about some more.
    Mr. Fleischmann. Thank you.
    Would either of the other witnesses like to supplement to 
his answer?
    Ms. Provost. Not specific to the ports but as you know, we 
use NII as well at our checkpoints and they have certainly been 
a benefit to us in the border patrol as well.
    Mr. Fleischmann. Thank you very much.
    Mr. Chairman, I know a lot of people want to ask so I will 
yield back, sir.
    Mr. Carter. Thank you.
    Mrs. Lowey.
    Mrs. Lowey. Thank you very much, Mr. Chairman.
    And Director Homan, before I asked my question I want to 
say I really appreciated your eloquent statement regarding the 
good and decent people of ICE. And I also appreciated your 
saying that the ICE officers don't write the laws. They are 
charged with enforcing the laws, and I get that as well and I 
appreciate it.
    Director Homan, ICE has been the target of significant 
criticism in recent months regarding enforcement actions at and 
near sensitive locations--churches, schools, courthouses. Since 
the beginning of the year could you share with us how many 
times has supervisory approval been given for enforcement 
actions at sensitive locations? How many times have such 
actions occurred without supervisory approval, based on exigent 
circumstances?
    Mr. Homan. Well, that is an easy answer. Zero. As far as I 
am concerned, as far as the information I have available to me, 
nobody has been arrested at a school, no one has been arrested 
at a hospital.
    Now courthouses aren't a part of the sensitive location 
policy. Courthouses is a place we should be arresting people, 
and let me tell you why.
    When I came in this building today, there are metal 
detectors and security guards to keep the staff and congressmen 
safe in this building. The judges have the same thing in 
courthouses. Why would I not want the same thing for the men 
and women of ICE to arrest a criminal alien behind the wire 
when they know we don't have weapons?
    The only people we arrest in courthouses are those that are 
a threat to public safety. We don't arrest witnesses. We don't 
arrest victims. We go to a courthouse looking for one person 
that has a public safety conviction, to arrest them in a safe 
location. That is my job, to keep my officers safe, so that is 
the best place to arrest them.
    And as far as the churches and the schools, I see the media 
reports too. Here is a situation what is happening. You go to a 
big city like Los Angeles or New York, where the aliens are 
being instructed by many people not to answer their doors, not 
to work with us, not to answer our questions, there are county 
jails that won't give us access to the jails.
    I have to arrest these people. That is my job. So we are 
going to arrest them in the public. That is my job. We have to 
arrest them. If I can't get it in the privacy, security and 
safety of a jail then I have got to go to their home or wait 
for them to leave their home.
    If you are in a big city like Los Angeles or New York and 
you pull a car over to arrest a target, chances are you are 
going to be within two blocks of a school, a church or 
something. So all of a sudden the media says we arrested 
somebody dropping the child off at school. No, we arrested them 
three blocks near the school, near a place of worship, going to 
church, doesn't make any difference whether he is arriving or 
departing or waiting at the bus stop on the way to school, he 
is a target. Is that correct?
    Mr. Homan. Your question, there are a lot of factors to 
consider. Is he arrested in a parking lot, school? We probably 
wouldn't do that. Is he----
    Mrs. Lowey. I mean, this is a student who is obeying the 
law. And I can remember many discussions--I have worked on this 
issue a long time--not 33 years, long as you have--and the 
whole idea here--which I agree with--that if people are 
disrupting the public, if they have committed a crime, if they 
are a danger to the community. But here if you have a student 
who is walking to school, waiting at a bus stop, you have 
somebody who is ready to arrest them. Is that correct?
    Mr. Homan. I want to make something clear. The case you are 
talking about, no one knew there was a problem. The officers, 
you know, certainly aren't going to go and arrest somebody just 
so he can't go to a prom. That is not what we do.
    You know, Americans expect us to foster compliance with the 
law. And to do that, we have got to have, you know, a robust 
and diversified enforcement. There should be no one that 
violates the law. And this young gentleman, by entering the 
country illegally, committed a crime. That is a crime, 8 USC 
1325. He committed a crime by entering this country illegally.
    He had due process through several channels of judicial 
process, had his day in court, as due process, and was ordered 
removed. So we are talking about somebody that has had his due 
process. He lost his case. And because we don't like the 
results of that case, we forget about it. Well, if we--there 
would be no integrity in the system if we don't uphold the 
rulings of a judge. I don't know where else in the American 
justice system any other agency is told to ignore a judge's 
ruling. It doesn't happen anyplace else but in our context.
    I think it is important--this is a country of laws. We need 
to stand by the laws. The country I grew up in, if you are 
violating the law, he should be uncomfortable. He should be 
looking over his shoulder if he is in this country in violation 
of the law and has been ordered removed. He should be worried 
that he is going to be arrested. There should be no population 
of persons that are in this country illegally, violated the 
law, then had a final decision from a judge, to feel 
comfortable that he doesn't have to worry about somebody 
arresting them.
    The IRS doesn't want to audit everybody, but we all know it 
is a possibility. The highway patrol can't arrest everybody for 
speeding, but we speed, we know it is a possibility we could be 
stopped. It should be no different with immigration 
enforcement. We are a law enforcement agency that enforces the 
law. And we shouldn't play favorites.
    Mrs. Lowey. How many--within the New York area, how many 
individuals are you pursuing, roughly?
    Mr. Homan. In New York, I have no idea.
    Mrs. Lowey. Well, what I am trying to get to--I am assuming 
there is a priority. And for many years that I have been 
involved in this issue, if there are people that really are 
dangerous to the welfare of their community, if they have 
committed a felony, if they have committed a crime, there is a 
priority. And I just wondered where a student who is going to 
school working hard, hopefully get to work, where is he on a 
priority list?
    Mr. Homan. Our priority is threats to community safety, 
public safety, criminal aliens. After that, along with that, 
national security----
    Mrs. Lowey. So you have arrested everybody who is a threat 
to the community, public safety, so you are going after a 
student who is graduating and is law-abiding?
    Mr. Homan. It is not law-abiding. He violated the law and 
was told by an immigration judge you must leave. And he failed 
to do so. And----
    Mrs. Lowey. To be continued. My time is up.
    Mr. Homan. You know, you can help me, ma'am. Let's talk 
about New York state. If I had access to the county jails, if 
people honored the detainers, I could arrest people in the 
safety and statute of a county jail. But since I can't, I have 
to go to the neighborhoods. That is what puts fear in the 
immigrant community is my officers knocking on doors in their 
neighborhoods.
    If I had access to the county jail, I would have less 
officers in the community. If I had access to the county jail, 
I could arrest the bad guy in the county jail and not go to a 
home where I am probably going to find other people here 
illegally that I am going to take into custody.
    So all these folks that don't want us in county jails, they 
need to think about how they are putting their communities at 
risk. Number one, the criminal alien is going to go back in 
that community, and I don't think the immigrant community wants 
a child molester or somebody who has been arrested six times 
for DUI in their communities. I don't. I think they want the 
communities to be safe, too.
    So the more access I have to the jails, the more detainers 
that are honored, the less the situation you described will be 
happening.
    Mrs. Lowey. Thank you. Thank you, Mr. Chairman.
    Mr. Carter. Mrs. Lowey, when I was a senior in high school 
and graduated from high school, on the way to graduation, one 
of my best friends was stopped for a routine police stop for 
having a busted tail light. And he had a warrant for his arrest 
for parking tickets. And they arrested him. And the reason I 
know this is because the 700 of us in our class took up a 
collection. And we paid his parking tickets so he could 
graduate. So that had nothing to do with immigration.
    Mr. Ruppersberger. That is a good Texas story.
    Mr. Carter. It is true. And I would give you his name, but 
he is still alive and he probably doesn't want me to.
    Mrs. Lowey. Is he a judge?
    Mr. Carter. No, he is not a judge, but he is a very 
prominent guy. Let's see who is next. Mr. Newhouse?
    Mr. Newhouse. Thank you, Mr. Chairman and Ranking Member. 
Also want to thank Director Homan and Deputy Commissioner 
Wagner, as well as Chief Provost for being here, discussing 
your budget priorities. I also want to express my thanks to the 
men and women that you represent and for the efforts that they 
put forth everyday to keep our country safe, so if you could 
relay that message, I would be thankful.
    Just got a couple of questions. First of all, for Mr. 
Wagner and Ms. Provost, certainly I believe one of the ways to 
patrol and protect our borders is through the use of 
technology. And I think you both have talked about that a 
little bit this morning, specifically the small unmanned aerial 
systems, or UAS's, have the ability to support your efforts, 
both CBP mission and operations, in I think very safe and 
practical ways. They can be more effective certainly than a 
manned piece of equipment that also can get into environments 
where you wouldn't want to send something else that may be a 
higher value asset.
    So tell me how far off are we where technology and CBP can 
rapidly deploy a UAS to support immediate CBP operations and 
fill a significant gap in operational surveillance that exists 
today?
    Ms. Provost. Certainly, if I may. First and foremost, from 
the Border Patrol side of the house, we are very excited to 
start piloting and utilizing small UAS's. And appreciate the 
funding support that we received in 2017 and the request we 
have for 2018, as well.
    Certainly this is a tool that benefits our men and women on 
the ground. This is something that we have been working on with 
our partners in Air and Marine operations for some time. And we 
have reached a point where we think these small UAS's are going 
to be very beneficial for our men and women on the ground, 
something that they can deploy and literally see what is over 
the next hill, which of course impacts officer safety and 
whether or not you know you have a group of individuals that 
may be armed or may not be, so that type of situational 
awareness for our men and women on the front line, it is a 
wonderful tool for them.
    For UAS's in general, the larger ones, as well, Air and 
Marine operations support us in that venue for detection 
capability and they have proven beneficial to us over the 
years. And certainly it is a technology that we continue to 
utilize and continue to request support for due to the benefits 
that we have seen in previous years.
    Mr. Newhouse. Good, good. Thank you. I also want to note 
the critical role at CBP plays in our trade and economic 
successes, with the responsibility for the entry of goods in 
the United States. When it comes to the implementation of the 
Trade Facilitation and Trade Enforcement Act, that is a huge 
responsibility. I can only imagine the daunting task, the 
thousands of containers and trucks and every other vehicle that 
comes into our country.
    But protecting that fair and competitive environment is 
very important. And as you work on that, could you briefly talk 
about some of the challenges you see and specifically how we 
can help you?
    Mr. Wagner. Sure, I think the challenges are in the volume, 
like you mentioned, of goods coming in and trying to sift and 
sort out what we would have concerns with and, you know, 
expediting the ones we don't have concerns about. And it is 
trying to strike that balance between when things get held up 
for inspection and when we build a simplified, automated path 
to enter the country. And really, that is what we focus on, you 
know, using a lot of advanced information, using our national 
targeting center to build systems to triage through all of the 
volumes and reams of information we have access to and try to 
point out the things we have concerns with.
    Now, how do we come up with better ways to identify what 
those concerns are? It is going to be based on intelligence, 
going to be based on past practice, practical experience, and 
information we receive from either the law enforcement 
community, intelligence community, or right from the trade 
community themselves, as well, and trying to find ways to 
address what those concerns may be at any point in that process 
of that container coming to the U.S.
    Sometimes it is of such concern we might ask for it to be 
inspected overseas before it is even put onboard the ship and 
headed this way. Other times it is going to be at the port of 
entry we are going to open it and inspect it there. Other times 
it might be at a different premises where we do that.
    So I know there is requests in the budget for additional 
staff in our office of trade to help with some of the expertise 
and the rulemaking and the analysis of information and 
regulatory work to be able to do that. So I think it is covered 
for now in what the budget request includes.
    Mr. Newhouse. Okay, yeah. Well, we continue to look forward 
to ways that we can be of assistance in that. Director Homan, 
first of all, thanks for your comments about the role and the 
job of your ICE agents. Appreciate it. It is a difficult task. 
Sometimes you probably feel like you are sweeping sand into the 
ocean, but--talked a little bit about some of the concerns that 
have been raised around the country from some of the previous 
questions.
    And I just wanted to allow you to highlight, first of all, 
those individuals who have DACA status. And just to be honest 
with you, I come from an area that many of my local schools, my 
communities, certainly there is a--I guess you could say a 
higher level of concern and fear, really, in a large part of 
the population. So could you possibly give us a little insight 
into ICE's enforcement priorities as it relates to particularly 
that DACA population?
    Mr. Homan. DACA recipients are not a target of enforcement. 
They maintained their deferred status. There has been reports 
of us arresting DACA recipients, a few, and in each of those 
cases, they have violated the terms of their deferred action, 
which means they committed a crime and did something to violate 
the status. So we are not as part of our operations targeting 
anybody in DACA status that is fulfilling their obligation 
within the deferred action requirements.
    Mr. Newhouse. Good, thank you very much for that 
clarification. Thank you, Mr. Chairman. I yield back my time.
    Mr. Carter. Mr. Cuellar.
    Mr. Cuellar. Thank you, Mr. Chairman. First of all, I want 
to thank all of you all. I know you all have a difficult job, 
and I appreciate what you all do. I have had the opportunity to 
honor Border Patrol agents for the work that they have done, 
CBP officers for the new customer service that they have been 
providing. I need to work now on ICE, and maybe we can work on 
that, Tom.
    But I really appreciate your men and women. I know it is 
difficult. I want to ask a local question, Mr. Wagner, dealing 
with Laredo. As you know, back in May 21st, less than a month 
ago, there was severe weather that damaged the World Trade 
Bridge. The World Trade Bridge, as you know, is the largest 
cargo bridge that we have in the country. Typically we get 
14,000 trailers a day. That is over 2 million trucks a year 
through the Laredo bridges. And that is over $204 billion. And 
51 percent of all the trucks coming into the state of Texas 
come through one port and that is Laredo.
    It did--and I met with Hagerson, with Greg Alvarez, and--of 
course everybody knows Mr. Hagerson. And of course, Mr. 
Skinner, great leadership that you have down there. And we met 
with the private sector, see how we can move this along.
    What I am asking is, as we try to get the capacity--because 
we are not at 100 percent capacity--it is going to take a 
while--I am concerned about the technology and the 
infrastructure and make sure that FDA is also responsive. But 
if we are going to rebuild this again, let's do it right. And I 
am asking you all to--or asking you to see if you can put the 
latest non-intrusive technology, because if there is any port 
that brings money to our Treasury, it is the port of Laredo.
    So I am just asking you, what are your plans to add the--to 
put it back into capacity? And what is the--if you can please 
give us the latest technology that you have there, because I 
have been hearing that we are not going to get the best 
technology and like to give you that opportunity.
    Mr. Wagner. Sure, let me check into what technology we have 
scheduled for the rebuild. It may be a case where we are just 
trying to get it up and running and get back to restore full 
operations from that really devastating storm. Thankfully, the 
port of entry was closed at the time when that storm hit, 
because it did quite tremendous damage to that operation. And 
we agree, it is an incredibly important crossing for us, you 
know, the busiest for truck crossings that we have, and we just 
can't afford to have it out of operation.
    So that being said, we are looking at some new truck 
screening technology. We are looking at piloting some things a 
little south of you, down in the valley. But let me make sure 
we do have a plan to upgrade that.
    Mr. Cuellar. Why don't we sit down maybe later and we can--
--
    Mr. Wagner. And I will talk with Mr. Higgerson again, 
because we had spoken last week about what some of those plans 
involved. And, you know, what is the right technology we can 
put back into building this out to be a state-of-the-art port.
    Mr. Cuellar. All right, thank you. Chief Provost, let me 
ask you a couple questions. Air and Marine. My experience with 
air and marine, with all due respect to the folks who work 
there, is when we were trying to get an alternative base for 
one of the UAVs, you know, from Corpus--not taking anything 
away from Corpus--said find another place, because there was 
issues--I think they were landing only, what, 60 percent or 
less in Corpus. They came up, but they ended up 200, 300 miles 
away from the border. It is not exactly what I had in mind.
    Then lately they have been trying to move away from Laredo 
away from the border. And I keep saying, hey, you are supposed 
to be at the border. I know San Antonio, and I represent--it is 
a beautiful place, but try to stay at the border.
    Then finally the last thing is, in talking to Border 
Patrol--and I have spent a lot of time with the Border Patrol, 
since I live there--they have been--a lot of complaints--I 
mean, there is a lot of complaints that air marine will work 
8:00 to 5:00, but then at night time--and, Judge, you have been 
there and I have been there--and I think everybody has been 
there at night--I don't think it is fair to the men and women 
in green to be there at night time and have Air and Marine say, 
oh, for whatever reason we are not going to work at night time.
    I think if our men are going to be out there at night time, 
Border Patrol, then Air and Marine should be providing that 
support. Now, Operation Phalanx, which I hope that you all do--
and I think we added the money--I hope that you all do push 
that--National Guard is ready to do that, the Texas Guard is 
ready to do that. But I just have a problem with the Air and 
Marine saying they are not going to do any work at night time.
    Ms. Provost. So we work very closely with Air and Marine at 
headquarters. And we provide a requirement to Air and Marine 
annually of flight hours that we need across the entire border. 
And it is true that they do not have the capability to meet our 
full requirement.
    Of the flight hours that they have, they have consistently 
over the years provided the majority of those hours to the 
border security mission and in support of Border Patrol 
operations. But those hours have not been able to meet our full 
requirement. Thus why it is very important in relation to their 
requests within the budget, your support there is much 
appreciated to assist them in having more capability to meet 
those requirements that we have for the border security 
mission.
    We are working very closely with them. The commissioner had 
us convene a working group. We are bringing in our agents from 
the field, as well as headquarters personnel, to try to address 
some of these issues better. In relation to Operation Phalanx, 
as you mentioned, that has been a huge support for us in the 
past with National Guard support and certainly benefited us. We 
are committed to continuing to work with Department of Defense, 
if that meets their requirement, to help support our mission. 
We will work with them in that arena going forward.
    Mr. Cuellar. Mr. Chairman, just on the levee, since that is 
in my district, can I ask a quick question? I got a few seconds 
left.
    Mr. Carter. Yes, you may.
    Mr. Cuellar. Okay, on the levee, as you know, that is on my 
southern part of my area. Back some years ago, Senator Cornyn, 
myself, JD Salinas, the county judge, and myself came up with 
this idea about the levee. Now there is some folks who are 
saying that FEMA and the International Boundary Water 
Commission, because we are looking at this for flooding, they 
are saying--and maybe you can provide this information at a 
later time--they are saying that all the levee requirements 
have been met, there is the flooding requirement have been met. 
I would like to maybe follow up, because my time is up, talk to 
you about the issue of FEMA, the International Boundary and 
Water Commission, and of course then issues with the Valley 
Wildlife Corridor and the Santa Ana National Wildlife Refuge, 
Bentsen-Rio Valley Grande, because we don't--and the World 
Birding Center, I just don't want them to be on the other side 
of the levee or how we are going to address that issue on that.
    So I know my time is up. I want to be cognizant. But I do 
want to follow up on the levee, because I--like I said, we came 
up with this idea, but now there are some folks who are saying 
that there is really no need for the flooding rationale. And 
that was one of the reasons why agreed to that back 8 years 
ago, whenever that came up with.
    Ms. Provost. Just quickly--and I will ensure that we come 
and brief you in more detail on this--just want to, of course, 
reaffirm that we are committed and we work very closely with 
IBWC and all of the partners in any location to ensure whether 
it is environmental, flooding, on the land issues that we work 
hand-in-hand with them and we are committed to doing that going 
forward, we will get you a more in-depth brief.
    Mr. Cuellar. If you can have them come in, because they are 
saying something else. Thank you, Mr. Chairman.
    Ms. Provost. Okay, all right.
    Mr. Carter. And I have a real interest in that, too, so we 
would like to be included in that conversation in my office.
    Ms. Provost. Yes, sir.
    Mr. Carter. Mr. Taylor? I believe it is Mr. Taylor. Mr. 
Taylor.
    Mr. Taylor. Thank you, Mr. Chairman. I just want to 
reiterate what my colleagues have already said, that we truly 
appreciate all the work that--the hard work that the men and 
women do at each one of your places, of course. It is 
thankless. Sometimes you get maligned for just doing your job. 
And we appreciate you, and I think if laws need to be changed, 
we should do that, right? You guys just enforce it. So I 
appreciate you.
    Director Homan, a couple quick things on the--when does ICE 
anticipate obligating fiscal year 2017 funding for expansion of 
beds? Do you have a master plan that identifies specific 
locations? And what factors would you use to identify those 
locations?
    Mr. Homan. We have been working on the expansion plan. We 
have--right now we have access to over 40,000 beds. We were 
actually at 42,000 in detention back in November, I think. We 
have identified beyond that 20,000 more beds that would be 
available that we could bring online. But what we are trying to 
do is, for our ICE dedicated and owned facilities, we would 
like to expand that. That is a long-term plan, because they 
have PBNDS 2011 standards. So right now, about 60 percent of 
our populations are in ICE owned and dedicated facilities, the 
plan is to get up to like 80 percent by the end of next year.
    But we do have about 20,000 beds we have identified that 
could be turned on. But of course, the biggest issue is they 
have to be appropriate. They have got to have--good medical 
care, good mental health care. They have got to meet the 
standards--at least the U.S. marshal standards. For a lot of 
these beds that we can bring on are going to be beds. We keep 
aliens in custody less than 7 days, so standards can be a 
little bit less than what we have in PBNDS 2011, but we have a 
plan that we can execute.
    Mr. Taylor. What is the factors that you use to identify 
locations?
    Mr. Homan. We try to get as many as we can near the 
southern border, because it is easier for the quick removals 
and it is more cost-effective to remove somebody from Texas. 
Right now, we are trying to build a hub and spoke model. We are 
working with some contractors on doing the hub and spoke model. 
You know, we need beds in New York, because we arrest people in 
New York, we arrest people in every major metropolitan area.
    But we got to get them more hub and spoke, so we get people 
to a transit site. So when we do removal flight, instead of 
flying to eight different locations to pick people up to remove 
them, as they get closer to the removal process, we go to a hub 
and remove them from the hub. That is something we are 
currently drawing up the plans on now.
    Mr. Taylor. One quick follow-up on the use of the GPS bands 
that use to monitor. Are they effective, efficient and will 
they replace the need for some beds, as well?
    Mr. Homan. Detention is always best if you want removal, 
because if we have custody of them and they get order removal, 
we can remove them. Ankle bracelets can help make them 
accountable to show up in immigration court. But in the end, if 
they choose to cut the bracelet off, we have to go find them, 
and many times we don't find them.
    So I will say, detention is always the best if you want a 
removal. I mean, it just makes sense. Ankle bracelet is the 
second best option. So we certainly do--we are over 70,000 ATD 
people now, so it is certainly an alternative for those we 
can't detain. Maybe have a health issue that we can't address 
in detention and we will release them on ankle bracelet. And 
let's say, it has got good response rate for showing up in 
immigration court. But when it comes to removal, it is much 
less than the detention.
    Mr. Taylor. Thank you. Chief Provost, quickly, when I was 
down at the border recently, I saw about six or seven different 
types of fencing or wall throughout the different--you know, 
the border. And with the exception of, of course, Mr. Cuellar's 
area, with McAllen with the levee in it, is there sort of a 
standard practice now or desired fencing? Because some of them, 
of course, were very easily penetrated and some of them were 
not. Is there a best practice, best standard that we are going 
to use moving forward?
    Ms. Provost. So I believe you saw the product of numerous 
years and various attempts at different barrier systems, and 
depending upon funding and all different things throughout the 
years. Of what we currently have in our toolkit, the steel 
bollard wall is a preferred wall. And as the prototypes come 
out, we support innovation--as I said before, the wall that we 
put in, for instance, the secondary wall in San Diego, when we 
put it in, worked at that timeframe, but they have--the TCOs 
have become more advanced, more advanced technology--makes it 
easier to breach. So we look forward to seeing what comes out 
of the prototypes and if we can add to that toolkit for 
options, since the border is very different and different areas 
require different type of barrier.
    Mr. Taylor. Thank you, Mr. Chairman.
    Mr. Carter. Mr. Ruppersberger.
    Mr. Ruppersberger. Yeah, I want to thank you all for being 
here. And it is a shame that you have to defend a lot of these 
things that are occurring in our country. I blame Congress for 
where we are right now. Our Senate passed an immigration bill 
without amnesty, and we couldn't get it on the floor in the 
House. So we have to keep trying, because this issue is 
splitting our country.
    And we know a lot of the things that are alleged to have 
happened isn't who we are as Americans. But I really respect 
the fact--I was a former police officer when I was going to law 
school in Ocean City, Maryland, in the summer. I was a 
prosecutor for 9 years. So I understand law enforcement and 
where you are. And you have to stand behind your people, and 
they are putting their lives on the line. They are in dangerous 
situations. And you have a mission. And you have bosses. And 
the boss you have right now is the President of the United 
States, who won his election a lot on the visual wall issue, 
where Mexico was going to pay. I don't think that is going to 
happen.
    And, you know, we all know that there are other--there is 
other technology that can do a lot better than a wall in 
certain situations and a wall might work or not work. But I 
want to get into this and get to the port real quick, because I 
represent the port of Baltimore.
    Where a lot of these problems are, and I think if I was 
advising this President, is with what you have to do, it is--
you have a reputation as bad guys coming to get, breaking up 
families, you are doing what you think is your job, because you 
are being ordered to do that. If I was advising the President, 
I think he could help bring this country together by saying 
that we are going after the bad guys, and that is what you have 
said.
    And yet my office--and I am sure other offices--are getting 
complaints that if you have a DWI and you are arrested, you are 
gone, and your family can stay here. You are breaking up 
families. And DWI or traffic is not really considered to be the 
type of people that I think are hurting our country.
    And so I want to ask you this--and then I want to get to 
the port--as far as we are concerned on ICE, what is your exact 
policy? If you pick somebody up who has a DWI, is that enough 
to have them taken away, put in jail, and sent back to their 
country? What is the policy?
    Mr. Homan. If they are illegally in the United States, yes.
    Mr. Ruppersberger. Everybody is illegal. There are 11 
million. So that is an issue you can use on every time you 
arrest somebody. What is the actual policy? Because----
    Mr. Homan. If someone has a conviction of a DUI, I consider 
them a public safety threat and they should be removed.
    Mr. Ruppersberger. Okay, so that is the policy? How about a 
traffic violation?
    Mr. Homan. That is less of a priority, but if they are in a 
country illegally, they should be removed if they have had the 
due process.
    Mr. Ruppersberger. There are 11 million illegals in this 
country. So that is not going to ultimately solve the problem. 
But I don't think that is your problem, because you have been 
hired to enforce. And I understand that. And again, I feel that 
you shouldn't be defending it. I mean, we are the policymakers. 
The President is the President of the United States. And I am 
saying this. I respect that you have a job and a mission, until 
you are told otherwise that you have to move forward with that.
    Now, you do have an obligation as the boss to make sure--
and same if you are a police chief or sheriff or whatever--that 
your people, when you have the power of arrest, that you do it 
the right way, that you are not abusive or anything of that 
nature. That is your mission right there and you have to do 
that, and I understand that.
    So I just want to say this, that, you know, Congress has to 
do something. Eleven million illegals in this country, we are 
not to going to have everybody leave. I mean, and how we handle 
things, we are going to be judged down the road. And the 
quicker that we can resolve this, the better. But that is not 
your issue.
    But let me get to the port of Baltimore----
    Mr. Homan. Sir, can I address one comment you made? The one 
comment you made, which I hear all the time is, ICE separating 
families. When an American family, U.S. citizen family, when 
someone gets arrested, that family gets separated by law 
enforcement. It isn't the fault of law enforcement that people 
get separated. It is the fault of the perpetrator.
    So if someone entered this country illegally and knows he 
is in the country illegally, and is found to be in the country 
illegally, ordered removed from the country, and chooses to 
have a child in this country that is a U.S. citizen by virtue 
of his birth, he put himself in that position. So ICE is not 
separating that family.
    If we allow every illegal alien who entered this country 
and give birth to a U.S. citizen, and all of a sudden now we 
can't separate families, he gets to stay, then you lost control 
of the border.
    Mr. Ruppersberger. You are doing your job. I understand 
that. It is up to us to decide where we are going as Congress. 
And we have not been able to follow through on this.
    Politically, look, unfortunately, we have a lot of politics 
in this country. We are split. I hope my--I try to be 
partisan--I mean, bipartisan--and I think, really, you should 
be American first and Republican, Democrat second. On both 
sides of the aisle, we are not real good at that at this point. 
And this issue has to be resolved.
    And let me get to the port real quick. You know, there are 
other areas other than the southern border. And I agree that we 
must be able to work and protect our borders, as all countries 
need to, and that is for the safety of our country. Now, there 
are other ways, though, that illegal drugs, arms, contraband, 
and even weapons of mass destruction can come in. I know that 
there are 47 million 20-foot containers that are processed 
through American ports on an annual basis. That is a lot. And 
this opens up the opportunity for bad guys to bring in a lot of 
serious issues that we have there.
    Now, again, I represent the port of Baltimore, which every 
port is a huge economic engine for wherever they are located. 
And the coastal ports right now are coping with severe shortage 
in Customs and Border Protection agents. And it is compromising 
security, reducing throughout and limiting hours of operation.
    Now, I have been told that in order to maintain full 
service at the port--say the Port of Baltimore, that I 
represent, we will need to subsidize homeland security for 
additional personnel. And these agreements are being negotiated 
through the reimbursable services program known as 599 program. 
I don't know if you are familiar with it or not. Okay.
    Now, in my opinion, this is an unreasonable request. 
Transferring these costs for the federal government to the 
state and local governments I think is outrageous. You know, we 
swore an oath to protect our Constitution and defend our 
country. That is what the federal government does. That is why 
we pay federal taxes.
    And when we pay these taxes, we expect protection from our 
federal government. Now, your agents have the experience to 
thwart terrorist attacks better than probably state and local, 
maybe--I shouldn't say that. Maybe they are good at it, too. 
But we need you there. We need to have your expertise.
    The President's budget request more than $300 million to 
assist Customs and Border Protection to staff up. However it is 
unclear where those agents are going to be assigned. I believe 
all ports should be staffed on a fair and level playing field, 
and the Port of Baltimore is seeing major growth, especially 
with the Panama Canal issues that are happening.
    My question. Can you clarify how much of this supplemental 
funding will go towards additional Customs and Border Patrol 
staff at domestic ports, specifically ports that are expanding, 
since the reopening of the Panama Canal? Number two, is there 
available equipment which could effectively--and Cuellar got 
into this for a while--could be a force multiplier? In other 
words, what technology do you need so that we can make do with 
fewer agents?
    And I know there is technology, like with the containers to 
try to find out if there is nuclear weapons or those type of 
things.
    Mr. Wagner. So there is no--in the 2018 budget request, 
there is no increase in staffing for the ports of entry. We are 
currently operating at about 1,400 vacancy rate based on the 
positions that were provided to us in 2014, the 2,000 extra. 
That is based on our workload staffing model. That is an annual 
assessment we do of the workload and how many hours it takes to 
do that work.
    There is still a current shortfall above and beyond the 
1,400 of about 2,500 positions based on that workload 
assessment. So we are in agreement on the need for staffing. We 
are in agreement that we have a large number of vacancies that 
we are trying to fill right now. And we need to fill those 
before we can come back and ask for more above and beyond that. 
We need to do a better job at filling those vacancies.
    Now, as far as the reimbursable services agreements, what 
those allow us to do is to provide services above and beyond 
what we are already providing. So if an entity comes to us and 
says, we would like expanded service at this location for this 
purpose, what would it cost us to pay the overtime of the 
officers to be there to do that? It allows us to provide that 
cost to see if it fits in with that business entity's operating 
model.
    Mr. Ruppersberger. And that is my rule. I believe that 
should be the federal government paying for it. But I 
understand that is not your call. You need the money and you 
are just implementing.
    Mr. Wagner. Right, it is just a way for us to----
    Mr. Ruppersberger. It comes back to Congress again.
    Mr. Wagner. It is a way for us to expand the service that 
we probably have to deny, just because we can't stretch the 
resources that far.
    Mr. Ruppersberger. I understand.
    Mr. Wagner. And then as far as the equipment, let me get 
back to you on what we have on the Port of Baltimore and what 
we have got lined up for there.
    Mr. Ruppersberger. Okay, got it. Make sure you get back.
    Mr. Wagner. I will.
    Mr. Ruppersberger. Okay, got it. Thank you. Yield back.
    Mr. Carter. Palazzo.
    Mr. Palazzo. Thank you, Mr. Chairman. And I just want to 
echo the comments made by many of my colleagues thanking you 
for your service and your sacrifice and trying to keep American 
families safe and enforcing the law and maintaining integrity. 
I think that is an awesome and expected approach from your 
organization.
    Can I ask--and this is in general for any of the three--
what is--when I was on the homeland security authorizing 
committee, we talked about operational control. What percentage 
of operational control do we have on our borders at this time? 
I think it was below 50 percent a couple years ago, but I am 
not sure.
    Ms. Provost. So the Border Patrol over the last couple of 
years had moved away from operational control to a risk 
methodology, where we began looking at the border as whether or 
not an area was low, medium or high risk. Kind of building from 
where we used to work off of OPCON. As a whole, from the Border 
Patrol perspective, we are at a medium risk across the 
southwest border. Each different AOR falls into a different 
area.
    Mr. Palazzo. So what actually does the medium risk mean? I 
mean, you know, you are missing 50 percent of all crossings or 
what----
    Ms. Provost. It is a mixture of quantitative and 
qualitative, so we look at numbers, of course. And similar to--
as Chairman Carter stated, when we talk border security, and 
operational control of the border, it isn't just immigration 
flow, illegal immigration flow. There are many other factors in 
there. So we take those----
    Mr. Palazzo. And can you expand on that? That was another 
question I would have is, what are the types of threats 
crossing our border? I mean, we always seem to be thinking of 
the people coming across to work in nurseries or, you know, to 
find jobs in some form of agricultural community. But what are 
some of the other threats that we as Americans should be aware 
of? And that is why we need to secure our border and protect 
Americans and our families.
    Ms. Provost. So we have many criminal aliens, meaning 
individuals who have beyond--to Mr. Homan's point, the fact 
that they are violating the law by entering the country 
illegally, they have committed some other crime, as well.
    So those individuals, of course, are our top priority for 
us if we come in contact with criminal aliens to get them 
prosecuted and properly removed.
    Mr. Palazzo. So there is drug trafficking, there is sex 
trafficking----
    Ms. Provost. There is drug trafficking.
    Mr. Palazzo. There is gun trafficking.
    Ms. Provost. Yes, sir.
    Mr. Palazzo. There is all kinds of threats coming across 
our border. What about foreign nationals and possible people 
that are, you know, may want to do us harm? Have you all 
apprehended any?
    Ms. Provost. We have. Those numbers are small. But that is 
something that is a top priority for us. And we work very 
closely with our partners at ICE and DOJ, Department of 
Justice, as well, when it comes to any individuals of specific 
interest there, yes.
    Mr. Palazzo. You mentioned--so there is authorization and 
appropriations for 5,000 additional agents. And you mentioned 
hiring surge. How long is it going to take your agency to 
advertise, identify, vet, train 5,000 additional agents?
    Ms. Provost. That is a very good question. And of course, 
for fiscal year 2018, we have asked for funding to support the 
hiring of 500 additional Border Patrol agents. Similar to what 
Mr. Wagner stated, we are below where we had been at our 
highest level, with our 21,370. We are down about 1,800 agents 
right now.
    So that with an additional 5,000 is going to take us a 
little bit of time to do. But we are ramping up our recruitment 
and our hiring efforts, have been working very closely with our 
human resource management team and some of the funding that you 
all have provided has been supporting that effort.
    It is a top priority for us to ensure that we get the best 
quality people and ensure that we have no lowering of 
standards. So it is going to take us a little bit of time to do 
that. Five hundred is a good start for us in fiscal year 2018.
    Mr. Palazzo. Thanks, Chief. And one of the reasons I asked 
that is because I know that the National Guard has been 
utilized on past occasions. And I think the National Guard 
still has probably an active role, and I think it started with 
Operation Jumpstart, with President Bush, and then President 
Obama also added additional National Guard members.
    And I think when you said surge, I am thinking the surge 
that we did in Iraq and Afghanistan with National Guard troops. 
And we were extremely successful in turning the tide of the war 
in both of those countries. And I see in the Guards, what, 
400,000 people in the National Guard, 300,000 in reserve 
component. I see a resource just sitting there for you to--I 
mean, I know they can't do law enforcement functions, but they 
can do everything else. They can do intelligence, surveillance, 
reconnaissance. They can do vertical and horizontal 
construction.
    I mean, I think that is just a huge augmentation that is 
sitting there, ready and waiting, and all you have to do is 
ask.
    Ms. Provost. They certainly have supported us in the past. 
And they currently support us in many fashions. To your point, 
ultimately, we need to get to where we have the Border Patrol 
agents with that law enforcement capability on the border to be 
able to reach that operational control we are talking about.
    Mr. Palazzo. Right. And that is the long-term solution. And 
I would just like to continue to argue, look at the National 
Guard. I know whether it is Air or Army National Guard or any 
state, you would have thousands of people volunteering 
immediately to come down there and to help secure our border in 
any form or fashion. And because they have served overseas and 
they are willing to protect Americans here at home, as well. 
So, thank you.
    Mr. Carter. Mr. Price.
    Mr. Price. Thank you, Mr. Chairman. Welcome to all of you. 
Mr. Homan, I would like to focus in on the question of 
enforcement priorities and what kind of discretion the agency 
has in determining whom to detain and deport.
    I have supported efforts for years. And at one point I was 
chairman and then ranking member of this subcommittee, 
supported efforts for years, like the priority enforcement 
program that utilizes what we acknowledge are limited 
immigration enforcement resources to prioritize individuals who 
have committed serious crimes and who pose an immediate threat 
to their communities.
    And I am not saying that provides a free pass to anybody, 
but it does assume that the discretion that you have will be 
exercised in this direction. President Trump has said much the 
same thing, that he wants to focus on deporting dangerous 
criminals. But I would say there is a good deal less focus in 
the actual way enforcement has gone.
    I understand earlier this morning you said that the budget 
will allow you to interpret--to implement Trump's enforcement 
priorities. Maybe interpret is the right word. We maybe need a 
reiteration of what you take those priorities to be.
    According to your own recently released data, 21,360 
immigrants were arrested from January through March. That is an 
increase of 32.5 percent from the same period in 2016. The 
arrest of immigrants with no criminal records more than doubled 
during this timeframe. In the Atlanta ICE field office, which 
covers my state, there were nearly 700 arrests of these 
immigrants with no records, as compared to 137 arrests during 
the same period in 2016.
    So even at this accelerated rate, deportations are only a 
fraction of the millions who are here illegally. There will 
always be that situation. Therefore, priorities must be set. 
Discretion, whether recognized or not, will be exercised.
    The President has said there will be priorities. Yet I am 
baffled by Secretary Kelly's portrayal of the department's 
action, as if he had no discretion whatsoever, that he is 
simply following the law. He got pretty defensive about this. I 
am quoting him here. ``If lawmakers do not like the laws we are 
charged to enforce, that we are sworn to enforce, then they 
should have the courage and the skills to change those laws. 
Otherwise they should shut up and support the men and women on 
the frontlines.''
    Believe me, Congress isn't trying to antagonize the 
secretary. We are simply acknowledging, as we have ever since 
the beginning of this department, that discretion exists, 
discretion is necessary, discretion is being used. What we want 
to know is how. Isn't discretion of some sort inevitable? We 
are not going to deport every immigrant. What can you tell us 
about your current guiding criteria for the exercise of 
discretion? What is your order--what is the order of removal 
strategy? And if you and the secretary believe Congress must, 
quote ``change the laws'' to give you discretion, what do you 
suggest we do?
    Mr. Homan. Well, as I testified earlier, the priorities 
within the executive order are listed. We prioritize criminals 
and national security threats first. Then we look at fugitives, 
those who entered the country illegally, been ordered removed 
by an immigration judge--which means they have had their day in 
court and their due process--have been ordered removed by a 
federal judge, and they fail to depart. We call them 
immigration fugitives. They are someone that are also a 
priority, which weren't a priority in the past administration, 
unless they became a fugitive after January 1, 2014. And that 
took over 400,000 people off the table who had their day in 
court that we basically weren't looking for.
    Also, those that have been ordered removed were removed and 
re-entered to the United States, which is a federal felony. 
They are also priorities. The aperture is open, so when we find 
illegal aliens, first of all, we are not out doing sweeps or 
raids looking for illegal aliens. We go out looking for the 
targets I just described to you, but if we find somebody here 
in the country illegally, we are going to put them in front of 
an immigration judge. That is our job. And I think it is the 
right thing to do.
    As far as the numbers you quoted, there has been a 
significant increase in non-criminal arrests because we weren't 
allowed to arrest them in the past administration. We were 
arresting criminals, so you see an uptick in criminals a little 
bit. Moderate. But you see more of an uptick in non-criminals 
because we are going from zero to 100 under a new 
administration.
    And when we talk about non-criminals and criminal aliens in 
the United States, most of the criminal aliens we find in the 
interior of the United States, they entered as a non-criminal. 
If we wait for them to violate yet another law against the 
citizens of this country, then it is too late. We shouldn't 
wait for them to become a criminal. But once they do, we will 
prioritize them. But non-criminal enforcement is important 
because if there is no consequence to illegal activity and 
entering this country, as long as you can get by the Border 
Patrol, the fine men and women of the Border Patrol--I served 
them, honored to wear the green a long time ago--we can't send 
the message, get by the Border Patrol, get in the interior, as 
long as you don't go break another law, you are home free? Then 
you are never going to gain control of the border.
    Mr. Price. But that--by that standard, you are talking 
about every immigrant in the country without papers.
    Mr. Homan. As I said earlier, if you are in this country 
illegally and you committed a crime by entering this country, 
you should be uncomfortable. You should look over your 
shoulder. And you need to be worried.
    Mr. Price. So what is this prioritization of people who 
have committed serious crimes? What does it mean? Does it mean 
anything?
    Mr. Homan. Absolutely. We still prioritize criminal 
national security threats. And what we are saying is, but no 
population is off the table. When you start taking entire 
populations off the table, then you have destroyed the 
foundation of law enforcement.
    I mean, if we don't enforce the law, then that is not the 
country I grew up in, sir. If you violate the law, you should 
be held accountable. And the reason Congress passed laws is to 
protect this country. And like I said, if we don't--we are a 
sovereign country. We need to decide who comes in and out of 
this country. If we don't hold people accountable for entering 
this country illegally, then what are we all doing?
    Mr. Price. Well, this isn't a question of securing the 
borders. I think we agree on that premise. It is a question of 
how our enforcement resources, limited resources--actually, 
pretty severely limited resources, when you consider 11 million 
people here without papers--you know, how are those to be 
deployed? And are we to set any priorities at all in terms of 
the danger to the community posed by certain classes of 
individuals?
    It seems to me you are saying both things here. You are 
saying, yes, we are prioritizing those dangerous folks, but by 
the way, we are going after everybody.
    Mr. Homan. I mean, we do prioritize who goes first, who 
should we look at first. Prioritization doesn't mean, okay, 
here is what we are looking for and everybody else forget 
about. We look for these people first, but these people should 
be on the table.
    I mean, it is meaningful enforcement. We do prioritize. The 
numbers speak for themselves. But if we are really serious 
about criminal aliens and making sure we get them off the 
street, then Congress can certainly help me dealing with 
sanctuary cities that don't want to help us with criminal 
aliens, give me access to jails that don't want to help me 
remove criminal aliens, and doing things that helps me put the 
men and women of ICE--put them in a safer position. Rather than 
the arrest of the illegal aliens and criminal aliens in a 
county jail, in the safety and security of county jail, they 
have to go knock on a door.
    And it is only a matter of time before one of the men and 
women of ICE don't go home at night because they had to go 
arrest a criminal alien in a home rather than getting them in a 
county jail in a sanctuary city that the sanctuary city is--are 
a danger to the men and women of ICE. And so you can certainly 
help me if we want to target more criminals. Congress is 
certainly positioned to help me do that.
    Mr. Price. These are limited resources. These are hard 
choices, I would grant you. But it seems to me over the years 
there has been a bipartisan agreement for the most part that 
people who pose a danger of the community should be on the 
priority list for enforcement, for detention, and deportation.
    And the notion that, on the other hand, everybody is a 
danger, you seem to be suggesting that it is almost an 
indiscriminate danger posed by the entire immigrant population, 
then you are talking about for every dollar that is diverted 
toward that larger population, you are talking about a dollar 
that is not spent going after dangerous people. And so 
governing is about hard choices. And we are looking for some 
specific indication of how you are making those choices.
    And if the law needs to be changed to address your 
priorities, then how should we change it?
    Mr. Homan. First of all, I want to be clear, we do 
prioritize criminals and national security threats. We 
prioritize. Which means they are more important to us. They 
come first. But prioritization doesn't mean everybody else is 
off the table, we don't take any action. There has to be 
enforcement of immigration law on the borders or we are going--
you can't argue with the fact that--that the operational tempo 
we have right now has had a significant impact on illegal 
immigration on the southern border. It is working.
    I have been doing this for 33 years. If there is not a 
consequence to deterrence the illegal activity is not going to 
cease. We finally have that and it is working. So we do 
prioritize criminals and national security threats, but again, 
when you enter this country, sir, illegally, you are violating 
the laws of this country. It is a crime. You need to be held 
accountable.
    We will certainly make sure they get their due process. 
They will see a judge. We spend billions of dollars a year on 
border security, detention, immigration judges, attorneys. And 
at the end, when a federal judge makes a decision, that 
decision needs to mean something or the whole system has no 
integrity. That is what I am trying to explain. So 
prioritization absolutely does happen.
    As far as legislation to keep the men and women of ICE 
safer, in my opinion, sanctuary cities are a danger to law 
enforcement officers. It is a danger to communities. Jails that 
don't honor our detainers. Jails--Cook County, Chicago, Chicago 
has significant criminal rates right now. It is the history of 
this city. They got--crime is running rampant. Are they doing 
everything they can to solve their crime issue? No. Why not? 
Because ICE officers, federal law enforcement officers aren't 
allowed to enter Cook County jail.
    Federal law enforcement can't walk into Cook County jail to 
talk to somebody that is, number one, illegally in the United 
States, committed a crime entering these United States 
illegally, and committed yet another crime against a citizen, 
and my officers aren't allowed to go in the jail to apprehend 
that subject so he doesn't go back on the street to reoffend. 
Recidivism rate runs around, what, 40 percent to 55 percent. 
They are going to reoffend.
    So there are certainly things Congress can do to help me 
keep the men and women of ICE safe, keep our communities safe, 
and drive down the crime rate.
    Mr. Price. Mr. Chairman, I am sure my time is expired. 
Sanctuary cities, as you know, is a very loose, porous term 
that applies to lots of situations. Let me just say that if the 
idea is that ICE should have access to knowledge and access 
beyond just knowledge, to people who have committed serious 
crimes who are being released from our penal system, then you 
get no quarrel from me and I think from most people.
    But if you are suggesting that in various other ways local 
law enforcement needs to be the long arm of ICE, you know as 
well I do that will compromise their access and their work with 
local communities. It will make their job infinitely more 
difficult. And there is plenty of good law enforcement to that 
effect.
    Thank you, Mr. Chairman.
    Mr. Carter. Thank you, Mr. Price. I am going to go to Mr. 
Culberson next. And I am going to have to surrender the chair 
to Mr. Culberson. I have got to leave. We have gone over. 
Everybody but Mr. Fleischmann has gone over our 5 minutes 
today. And I intended that. You are a very important part of 
what we do in this department. And thank you for what you do, 
all of you. I can tell you from experience of 35 years that it 
is dangerous for an officer to approach a resident. In fact, I 
believe more officers are killed or injured going to domestic 
disturbances than probably any other single events, when they 
are just fighting in the house, and yet the officer gets 
killed.
    And so when you make it unfortunate that the only way they 
can do their job is go interfere with families, they are at 
higher risk sometimes than any other place where they go and do 
their job. So--in defense of what Mr. Homan is saying, I agree 
with him. And it makes absolutely no sense to me over my 
experience of multiple jails that I had oversight over, that 
they don't allow people to interview in jails.
    But that is a different question. And I wanted to end by 
saying I agree with everything you had to say. I have got to 
go. God bless you. Thank you for what you do.
    Mr. Culberson, thank you.
    Mr. Culberson [presiding]. Thank you, Judge.
    Director Homan, Commissioner Wagner, Chief Provost, I want 
to thank you on behalf of the people of the United States for 
your service in protecting us. Director Homan, you are exactly 
right. We are a nation of laws. And if the law is not enforced, 
if there is no consequence to illegal activity, there is no way 
to get it under control.
    I am reminded of the very first inscription on the first 
coin ever minted in the Republic of Mexico was liberty and law, 
because our liberty does depend on law enforcement. And deeply 
appreciate the commitment of each and every one of your 
officers have to keeping us all safe by enforcing the law.
    And a great example of that is the fact that I have seen 
just from the President's open and very close direction that 
the law is going to be enforced and the border secured that I 
have seen numbers that illegal crossings have declined by as 
much as 70 percent since January. Is that accurate?
    Ms. Provost. Those numbers have declined dramatically. The 
lowest numbers we have seen in several years.
    Mr. Culberson. It is encouraging that the President's 
executive order--that the border will be secured and the laws 
enforced and that countries that refuse to issue travel 
documents to people that are in the United States illegally 
that are going to be deported, that countries that will not 
issue travel documents to those individuals, that that is going 
to be a pre-condition to any negotiation or discussion with 
those countries.
    And I heard you mention, Director Homan, that there used to 
be 23 to 24 recalcitrant countries, and that is now down to 
about 11, just enforcing the law, just common sense. Works.
    And the definition of sanctuary cities is actually very 
clear cut. There was a law passed, David, in 1996 that the--was 
passed for the specific purpose of stopping sanctuary cities 
from shielding people in the country illegally. It is title 
eight of the U.S. Code, section 1373, and it says in pertinent 
part that federal, state or local government entity or official 
may not prohibit or--and here is the key part--in any way 
restrict sharing information about people in their custody, 
their immigration status, with federal authorities.
    When Kate Steinle was murdered last summer, it affected me 
and I know everyone in the country very, very deeply. I chair 
the Commerce, Justice, Science Appropriations Subcommittee. 
Have worked for years to see that our border is secured and our 
law is enforced. And when I discovered 1373, I worked quietly 
and very effectively with Attorney General Loretta Lynch--and 
this is not widely known--but I persuaded her last summer to 
change Department of Justice policy last July, and the 
Department of Justice issued new guidelines that they 
notified--DOJ notified every county, city, and state in the 
country that if they did not comply with 1373, they were 
considered a sanctuary jurisdiction and they would forfeit all 
their federal law enforcement grant money.
    Mr. Price. Will the gentleman yield?
    Mr. Culberson. Yes, sir.
    Mr. Price. I understand very well what is in the law. And I 
understand very well the obligation of local jurisdictions to 
share information with immigration authorities about criminals 
who have been in custody who are being released. And the whole 
origin of the focus on dangerous criminals, you may remember 
years ago came when we found that tens of thousands of people 
were being released from America's prisons at all levels 
without immigration even knowing who they were. This was with--
I remember ICE Commissioner Julie Myers' testimony and the 
aftermath of that, this was the beginning of this effort.
    But when I say sanctuary cities is a very porous 
definition, I am referring to some pretty significant 
experience in the state of North Carolina and other places 
where people use that term to cover all sorts of exercises of 
discretion by local law enforcement that local law enforcement 
testifies very convincingly that it needs.
    Mr. Culberson. Yeah, we are not talking about making local 
law enforcement that arm of federal law enforcement. And 
specifically this is a very narrow and precise definition that 
local and state jurisdictions cannot interfere in any way with 
sharing information with federal authorities about illegals in 
their custody.
    So I made certain that the previous administration, 
Attorney General Lynch, changed the Department of Justice's 
federal grant policy and notified every jurisdiction in the 
country that unless they comply 100 percent of the time with 
1373, that they would lose their eligibility for federal law 
enforcement grants and that policy with all the jurisdictions 
were notified last summer. They had a chance to cure it. They 
did not do it.
    And when the new administration came in--and frankly, one 
of the principal reasons that President Trump won the election 
was his promise to the country that our laws would be enforced, 
our border would be secure, our nation will be respected again, 
that the flag, our men and women in uniform and the military 
and our men and women in uniform in law enforcement will be 
respected.
    Law enforcement is the foundation of all our liberties. And 
the Department of Justice inspector general at my request 
certified the top 10 sanctuary jurisdictions in the country, 
which includes the entire state of California, so this summer, 
the state of California will lose a minimum of $68 million, $69 
million in federal law enforcement grant money, unless they 
repeal their state law shielding illegal aliens in state jails, 
in state prisons in California.
    The state of Connecticut will lose all their federal law 
enforcement grant money this summer unless they repeal their 
law. New Orleans already changed their policy. As you said, the 
recalcitrant countries that refused to issue travel documents 
have already changed their policy. New Orleans has folded, and 
they have changed their sanctuary policy.
    Miami-Dade changed their policy, so they agreed that if--
they didn't want to lose the federal money. New York City will 
lose $15 million this summer. Philadelphia will lose $1.7 
million this summer. Cook County will lose a minimum of $3.7 
million this summer. Milwaukee will lose about $1 million. And 
Clark County, Nevada, will lose $1.7 million.
    Receiving federal money is not--you know, receiving federal 
model is optional. And the policy that I was able to institute 
as chairman of the CGS Subcommittee and that President Trump 
and Attorney General Sessions and the President of the United 
States have now broadened to homeland security grants, as well, 
if you want federal money, follow federal law. It is very 
simple. We do this with our kids. My money, my rules. This is 
very simple.
    So, Director Homan, I wanted to ask you. I have given you a 
copy of the memo that I am prepared to list the initial 10 
sanctuary jurisdictions that I already had certified as 
ineligible for federal law enforcement grants. Under the 
President's executive order, how many additional jurisdictions 
are you--do you believe that you could identify that are in 
violation of 1373 that would no longer be eligible for federal 
law enforcement grants or homeland security grants?
    Mr. Homan. I don't have that number in front of me, but I 
think it is well over 100 that have some sort of policy where 
they don't honor detainers or allow us access to the jails. I 
have to get back to you on the exact number.
    Mr. Culberson. And you are in the process of identifying 
those right now so that they could be certified by the attorney 
general?
    Mr. Homan. Yes. We got what we call the declined detainer 
report, which was a requirement through the executive order 
that we started. We pulled it back because there was some data 
issues with it. We have been meeting with the National 
Sheriff's Association the last few weeks. We are really close 
to a final product. And that will help us identify those 
jurisdictions that don't cooperate.
    Mr. Culberson. And it is important to note that the 
California judge that blocked temporarily President Trump's 
executive order on enforcing our immigration laws, who was 
appointed by President Obama, this judge in California 
explicitly upheld the ability of the administration to enforce 
section 1373, this law that the attorney general, at my 
request, used to certify these initial 10. There is about--you 
say 100 sanctuary jurisdictions that you are working on right 
now to--if I could, as soon as you have that list available, if 
you would share it with me, I would be grateful, because I will 
be sure to help you expedite the certification of those 
jurisdictions so they don't--it is their choice.
    If they want to shield criminal illegal aliens in their 
custody from being deported from the United States, don't ask 
for federal money. Those days are over. You cannot receive 
federal money and shield dangerous criminals from being 
deported. I very grateful to you for the good work that you do 
to protect people of the United States and your officers and 
doing all that you can to help ensure that there are no more 
Kate Steinles. It means a great deal.
    Mr. Homan. Thank you very much for the comments and thank 
you for your work, but I would be remiss if--it is not really 
me. It is the 20,000 American patriots that work for ICE that 
put their lives on the line every day to uphold the laws of 
this country. So thanks to them.
    Mr. Culberson. We deeply appreciate each and every one of 
you. And we have got your back. Thank you very much.
    Dr. Harris.
    Dr. Harris. Thank you very much. And also, you know, thanks 
to you as members of the law enforcement community of the 
United States, you don't get as much appreciation some days as 
you deserve.
    Acting Director Homan, I think I will leave the committee 
and write a letter to the President suggesting they take the 
word acting from in front of your title, because you obviously 
have a command of what needs to be done. And I see--you know, 
you are a former law enforcement--local jurisdiction, I guess 
New York City I think it said in your biography.
    In your mind, is there this dichotomy between the way the 
rank-and-file law enforcement want to think about cooperating 
with ICE and the way the political leadership does? You know, I 
am in a jurisdiction--my resident county executive decided he 
wants to be a sanctuary jurisdiction. So he doesn't want to 
cooperate with local ICE. And I agree with you, I think that 
makes it more dangerous.
    But I understand the political grandstanding. I get it. At 
the local level, when you talk to the men and women who are out 
on the streets every day trying to protect us, trying to 
protect Americans, do they also resent interacting with ICE? Or 
do they actually welcome the fact that there is some part of 
law enforcement that they are entrusted with, there is some 
part you are entrusted with, and that the cooperation should 
exist between those two?
    Mr. Homan. I can't speak for every street cop. I was a law 
enforcement officer, patrolman, not New York City, upstate New 
York. However, in my 33 years, the officer on the street wants 
to work with ICE. When they run into someone that is a 
criminal, a threat to the community, if they have an option of 
removing that threat, not only from the community, but from the 
United States, most law enforcement officers want to take that 
opportunity.
    And I will tell you, even though there are some 
restrictions in some counties and some cities about 
cooperation, I can tell you for a fact we have--we are working 
with some sheriffs and some chiefs and not on record, but they 
may not honor the detainers, but they are going to call us 
before they release somebody. They are trying to do the right 
thing out of really tough situations.
    So I think a law enforcement officer, to want to go into a 
life of law enforcement and put a badge on your chest every 
day, I think the rule of law means something to these people. 
And----
    Dr. Harris. No, thank you. Look, I agree with that. 
Everyone knows--I mean, I am the son of immigrants. My parents 
came to this country because it was the country of the rule of 
law, which separates us from a lot of other countries in the 
world.
    Mr. Homan. And many of my law enforcement officers came in 
as immigrants or they are children of immigrants, but they did 
the right thing. They followed the law. They become citizens. 
And that is all we are asking. I mean, the country I grew up 
in, law enforcement was respected and revered. And the constant 
every morning reading in the press about ICE officers and 
separating families and putting fear in communities, it is 
unfair to the men and women that chose to serve their country.
    Dr. Harris. Sure. No, you know that Gustavo Torres, you 
know, over at CASA, basically said you terrorize people. I 
mean, basically called our law enforcement terrorists. It is 
stunning, just stunning to me. I want to thank you. Again, 
thank you for the service and the service of the men and women 
who serve under you.
    You know, with regards to this idea of dangerous criminals, 
not dangerous criminals, gee, if somebody gets caught drunk 
driving, maybe we should just look the other way. You are aware 
that according to the CDC study in 2011, you drive drunk 80 
times before you are caught, 80 times. So in fact, someone who 
is in this country illegally who is caught drunk driving has 
probably threatened Americans 80 times by getting behind the 
wheel. And this is CDC. This is not made up.
    That is someone who came to this country and decided to 
repetitively break the law. And I am just going to disagree 
with the people who think that we should someone turn the other 
way, because that is a minor crime of some kind. It is not. It 
might be minor until they kill someone. And then all of a 
sudden, you know, it is too late for the outrage.
    Mr. Homan. Two points. I hear a lot of folks say, well, it 
is just a misdemeanor compared to a felony. Well, look, if I 
had my choice, I had someone who committed a white-collar bank 
fraud that is a felony or someone that committed a public 
safety misdemeanor, the misdemeanor is more important to me to 
get them off the street, first of all.
    And second of all, people say, well, it is just a 
misdemeanor. It really doesn't mean anything. Well, that 
depends on what side of that misdemeanor you are on. If you are 
a victim of that misdemeanor, if you are a victim of identity 
theft or theft of your vehicle or assault, that is a 
misdemeanor, if you are a victim of that, if you are on that 
side of that misdemeanor, it is certainly meaningful.
    Dr. Harris. And not only that, I would offer that people 
who commit serious crimes aren't always arrested for the 
serious crime. I mean, that is the broken window policy in New 
York. I mean, you have to--if you want to eliminate crime 
generally, you have to have more or less a zero tolerance. And 
I appreciate that you are going to have that.
    Now, I do want to end on just one topic. This idea of 
sanctuary campuses. Because, you know, just to extend what Mr. 
Culberson has talked about, you know, jurisdictions that take 
federal dollars and then choose not to cooperate with federal 
law enforcement, obviously we have this issue now of these 
universities who issue fairly global statements, University of 
Pennsylvania, you can go--you can search it online, just 
basically say, look, we are not going to allow ICE on campus, 
basically.
    And it doesn't say only to go after someone who is a DACA 
or a potential DACA. It is just, no, they are not allowed on 
campus. So I have a question for you. Where else are you not 
allowed to go, which is a relatively public place? I mean, it 
is just curious that, you know, these urban universities, they 
spread over large parts of--so there are zones where you are 
not allowed to actually physically be present, according to 
their policies? Are there other places in general where you are 
not allowed to be?
    Mr. Homan. Well, sir, as far as campuses, if they want to 
call themselves sanctuary campus and won't allow us to go 
arrest a public safety threat, national security threat, then 
we will just get a warrant to go on campus anyways.
    I have seen a lot of media reports where schools are--you 
know, high schools and elementary schools are going to create a 
policy where ICE is not allowed to arrest anybody on campus, 
that is where the mixed messaging is coming from. We don't 
arrest people in schools, in grade schools and high schools. We 
don't do it.
    So who is putting the fear in the immigrant communities? 
These groups that are mixed messaging what ICE does. There is 
no reason to pass a policy that ICE won't arrest somebody in 
elementary school. We wouldn't do it anyways. And that is why I 
have a sense of location policies.
    Like I said, the 20,000 men and women that work for ICE, 
they are law enforcement professionals, but they have hearts. 
Do they feel bad about what is going on in central America? 
Yeah. I have been to Central America. Those countries aren't as 
nice. The United States is much nicer. And I can't blame 
anybody from wanting to come here.
    But you can't want to be a part of this country and not 
respect our laws. You can't have it both ways. You want to be a 
part of this country? Follow the law. Respect the law. And we 
will accept that. But you can't have it both ways. You can't 
say I want to be a part of the greatest country on Earth, but I 
want to ignore their laws. You can't have it both ways. That is 
not the America I grew up in.
    Dr. Harris. Thank you all very much. And I yield back.
    Mr. Culberson. Thank you very much, Dr. Harris.
    I just can't tell you how much we--the people of the United 
States I know appreciate what you have just said is so true. We 
trust the good hearts and the good sense of our men and women 
in uniform, each and every one of you. We are so grateful for 
your service, whether you be in the military or in law 
enforcement. We trust your good hearts and your good sense to 
do the right thing for the right reasons.
    That is the America we grew up in. What a comfort. That is 
precisely why Donald Trump won this election. One of the major 
reasons. People want to see the laws enforced and our men and 
women in uniform respected.
    I wanted to ask if you could, Director Homan, about the--an 
inspector general's report that came out under the previous 
administration regarding fingerprints and individuals who had 
been in the country illegally that DHS fingerprint database 
against which aliens are checked was incomplete. And according 
to the inspector general, the incomplete database under the 
previous administration, there were at least 858 individuals 
from countries of concern who were granted U.S. citizenship, 
despite the fact that these individuals lied about having 
alternate identities, made fraudulent statements, or concealed 
important information from adjudicators. These individuals had 
been ordered deported or removed under their alternate 
identities.
    Yet when they concealed their identity, these individuals, 
because of the incomplete database under the previous 
administration, were granted citizenship. The inspector general 
reported that some of these individuals went on to hold 
security clearances, and one even worked in law enforcement. I 
wanted to ask you, sir, because the law as I understand it says 
that these individuals, once DHS identifies these folks, that 
you can refer them to the Department of Justice for revocation 
proceedings, and it is mandatory for DOJ to revoke their 
citizenship and to deport them.
    Of those that were investigated, under, again, the previous 
administration, the inspector general said only 28 cases have 
been referred to the Department of Justice for revocation 
proceedings, and ICE decided to administratively close another 
90 cases, again, under the previous administration. So under 
President Trump's leadership, the law is going to be enforced, 
our men and women in uniform respected, our nation of laws is 
going to be restored as the foundation for all our liberty, 
does ICE plan to investigate all of the remaining individuals 
identified in that inspector general's report, and any other 
individual that obtained naturalization through fraud or 
concealment of their identity?
    And if you could tell us how many of those you are going to 
refer to the DOJ and keep me posted so I can help back you up 
as chairman of the Commerce, Justice, Science Appropriations 
Subcommittee to ensure these folks are revoked, have their 
citizenship revoked and are deported.
    Mr. Homan. Of course. I would have to get an update on 
where we are at on that initiative. I know we are working very 
closely with CIS to identify those folks. And of course, again, 
we have to prioritize who is within that group, so those that 
may be in a position to affect national security or some sort 
of critical infrastructure, they will be dealt with first.
    But I am surprised by the numbers you presented of cases 
that are administratively closed. That is something I will take 
back with me today and I will get back to you on that by--I 
certainly think----
    Dr. Harris. Thank you.
    Mr. Homan. Yep. We are certain looking into and leaning 
forward on that.
    Dr. Harris. Thank you very much. Ms. Roybal-Allard.
    Ms. Roybal-Allard. Thank you, Mr. Chairman. First of all, 
let me just say that I have law enforcement in my own family. 
So I have firsthand knowledge of the dedication and the courage 
of law enforcement officers, the dangers that they face, and 
the sacrifices that not only they make, but their families.
    But that doesn't mean that we as elected officials and 
members of Congress shouldn't question, challenge, get 
clarification, or recommendations on policies and laws. And as 
policymakers, we shouldn't need to apologize for doing so.
    And the fact is that as was mentioned by another member of 
this committee, part of the reason that we are in this 
situation is because Congress itself isn't doing its job. Much 
of this could be addressed by passing comprehensive immigration 
reform.
    And the result of not doing what we have an obligation to 
do results in some of the things that Mr. Culberson has said, 
which really goes in many ways contrary to the very thing that 
we are trying to do. Taking federal money away from local law 
enforcement is only going to make it harder for law enforcement 
to go after the real criminals, the murderers, the rapists, the 
drug lords. And so this is just an example of what the 
consequences are of Congress not doing its job.
    Having said that, many of the questions that I have, have 
already been asked. But I would like to ask you, Mr. Wagner, 
regarding the issue of credible fear claims and CBP policies. 
The number of individuals and families attempting to cross our 
southern border has decreased over the last several months, but 
many of those still coming are desperately fleeing violence in 
their homes and their countries, violence that is often 
directly targeted at them and their families.
    CBP southwest border apprehensions in the second quarter of 
this fiscal year were 56 percent lower than the first quarter. 
However, the number of credible fear applications dropped by 
only 21 percent, and the percentage of positive credible fear 
determinations was largely unchanged at 77 percent. Earlier 
this year, there was a significant number of reports of CBP 
officers at ports of entry turning away individuals attempting 
to claim credible fear. This was documented in the press and 
more recently in a report by Human Rights First based on 
firsthand interviews.
    According to that report, some of the individuals turned 
away were subsequently subjected to kidnapping, rape and 
robbery. In some cases, individuals were allegedly being told 
they are not welcome, while in other cases asylum seekers were 
instructed to try again another day when the port was less 
busy.
    It is my understanding that CBP is legally required to 
process credible fear claims when they are presented, and it is 
not authorized to turn back individuals claiming fear even 
temporarily. In addition to commenting on those allegations, 
what steps can be taken or have been taken to ensure this is 
not occurring or continuing to occur at the ports of entry, 
such as, is there training or other guidance, reminding CBP 
personnel how they are required to treat individuals who 
express fear?
    Mr. Wagner. Sure. It was a question really of the space 
available to process people. And our facilities were at 
capacity to be able to take more people in, go through the 
processing, and turn them over to ICE after that. And the 
building was full, and we could not humanely and safely and 
securely hold any more people in our space.
    The ports of entry converted administrative space to be 
able to hold people in as comfortable a manner as we could. You 
know, we converted a lot of space to be able to do that. The 
ports of entry just do not have the kind of space to hold large 
volumes of people during the processing and then holding them 
until they are picked up.
    So we worked a process out with the Mexican authorities to 
be able to limit how many people a day could come across the 
border into our facility to be able to be processed. But it was 
not a question of us not wanting to do it. It was a question of 
us not having the space to be able to do it safely and humanely 
and providing space in Mexico for them to wait until the space 
freed up on our side to be able to move people into it.
    Ms. Roybal-Allard. Okay. And can you elaborate a little bit 
more on some of the contingency plans you have established to 
mitigate the limiting factors that you just talked about?
    Mr. Wagner. So like we demonstrated, working with Border 
Patrol and with ICE, that we could set up temporary facilities, 
like we did in Tornillo and Donna, Texas, that we can quickly 
set up temporary space to house people humanely and securely 
while they are awaiting processing and then waiting to be 
picked up. Those facilities are not needed right now, so they 
have been taken down, but we are well prepared to be able to 
set them up on fairly short notice should a surge of migrants 
return to the southwest border.
    Ms. Roybal-Allard. So it wasn't an issue of officers not 
knowing what the law was. It was more of an issue of capacity?
    Mr. Wagner. It was an issue of capacity and being able to 
put people into the facility without being overrun or having 
unsafe and unsanitary conditions. But I can tell you, we 
converted a lot of administrative space, such as this room, to 
temporarily house people for a day or so, so they could await 
being processed and await going through those procedures we 
need to do before we hand them off to ICE.
    You know, we converted a lot of space. We had people 
sleeping in hallways and conference rooms and building 
temporary showers and temporary bathing facilities for people 
to be able to do that.
    Ms. Roybal-Allard. Okay. And, Director Homan, we have heard 
that in most cases ICE is no longer paroling individuals with 
positive credible fear determinations while they await an 
asylum hearing. Is that accurate? And if so, can you explain 
the rationale for detaining these individuals seeking asylum? 
And to the extent that ICE is placing a heavier burden on 
detained persons to show they are not a flight risk or a risk 
to the community, what is the standard for how that can be 
demonstrated?
    Mr. Homan. If I could, just expanding on John Wagner's 
statement, you know, that is why we are here today, about the 
budget, ICE is in need of more beds, because the reason CBP was 
in the position they were in, because I couldn't take custody 
of everybody. We were full. So that is why they had to make 
contingency plans and that didn't help anybody, which is one of 
the reasons we are asking for more beds and situations like 
that.
    As far as parole, the instructions are to follow the rule 
of law. People will be paroled if they can establish their 
identity that they are not a flight risk or safety risk. A lot 
of these people who get credible fear show up at ports, they 
don't have a passport, they don't want to provide addresses 
where they are going. We can't verify their addresses.
    So if we can verify they are not a public safety threat, 
and they are not a flight risk, they will be paroled, but, you 
know, many times they are not able to do that. And that is 
their burden. So the law hasn't changed----
    Ms. Roybal-Allard. Is there a standard?
    Mr. Homan. No, again, it was lack of bed space and under 
prior administration we took an easier stance. Now, you know, 
my instructions to the field is follow the law. If they can 
establish identity, if they can establish where they are going, 
and we can verify that, and they are not a threat to community, 
then parole is an option. But we got to make sure we know who 
they are and where they are going and they are not a threat.
    Mr. Culberson. Thank you. Dr. Harris.
    Dr. Harris. Thank you very much.
    Mr. Homan, how many counties in the United States are what 
you consider sanctuary counties? I guess if we define them as 
not cooperating with detainer requests.
    Mr. Homan. You know, I should know that number. I just 
don't. I think it is well over 100 we have identified, but I 
can get back to you.
    Dr. Harris. Okay, if you can get back to me, I would 
appreciate it.
    Mr. Homan. I have that on my desk, so I can get back to you 
before the end of the day.
    Dr. Harris. Please, if you can. You know, I find it is 
interesting, because the claim is made that the sanctuary 
counties have lower crime. And that will fit just perfectly 
with Mr. Culberson's position, because if you have less crime, 
you don't need federal money. I mean, federal money is kind of 
scarce. You know, if you want to be a sanctuary jurisdiction 
and claim you have less crime, that is great. Let's send less 
federal money there. More for the other jurisdictions.
    Mr. Homan. What I think is even more significant, sir, is 
those jurisdictions that don't allow me access to their jails. 
But on the other hand, they get SCAAP funding from DOJ for 
housing people in the country illegally. It does not make sense 
to me that one hand of the government wants to give them money 
to hold them, the other hand of government is not allowed 
access to the jails.
    Dr. Harris. No, I agree. I know----
    Mr. Culberson. Will the gentleman yield? For the record, I 
want to make it clear that the policy I had instituted last 
summer cuts off SCAAP funding, Byrne JAG funding, and COPS 
funding to every sanctuary jurisdiction in the United States. 
If you want federal money, follow federal law.
    Dr. Harris. Thanks. Again, Mr. Homan, the idea of visa 
overstays, I mean, the list--you know, fiscal year 2016, I 
mean, you have visa overstays from countries in the hundreds 
from countries that have rampant terrorist activity or 
terrorist training grounds. What is the--what is ICE doing to 
find and repatriate individuals who have overstayed their 
visas? Because I think in some cases from some countries, this 
could really be a threat.
    Mr. Homan. We get data from CBP and from SEVIS on those 
that overstay their visas. They are prioritized within homeland 
security investigations. They will look at a series of factors 
which I can't discuss here. And what makes them a priority for 
national security, they will take those cases for further 
investigation and immediate action.
    Those that don't rise to that level of national security 
are given to our law enforcement support center, fugitive 
operations center in Burlington, Vermont, to run through 
databases to see if they have criminal history and see if they 
are a danger to the community, and they will be prioritized.
    A lot of them that don't fall within those ranks were not 
worked over the past years. I have committed to this secretary 
that is something we are going to do now. So non-immigrant visa 
overstays are now something that we are going to be actively 
working. HSI will take the priority cases, national security. 
ERO will take public safety first. But everybody else will be 
on the table.
    Dr. Harris. And is it--I mean, how successful are you at 
finding the people who are visa overstays? I assume that if you 
are a terrorist and you come here on a visa overstay, you are 
going to make yourself hard to find. I mean, is it--how 
successful can we be in finding the people who don't want to be 
found when there are visa overstay?
    Mr. Homan. Actually, we just did an operation where we 
targeted--I think it was 1,500 visa overstays. I mean, you are 
right. Some of them have left the country, but there is no 
report on it. And some have adjusted their status in the 
records, CIS were not caught up. Many we can't find. Many--they 
are in the wind.
    Anybody that rises to the level we think has a national 
security concern or public safety concern, they are worked 
right away. We will pull out all stops to try to locate them. 
And the targeting center is very good at that. I can't say we 
arrest them all, but we take a serious look at that.
    But I would say, out of all the visa overstays, many are in 
the wind. And we are looking for them. And there--you know, a 
lot of them come to the country with no intent of leaving. Of 
course, they came here and overstayed a visa, because rather 
than crossing a border, they can do it that way, which we have 
learned our lessons from 9/11 about----
    Dr. Harris. Absolutely.
    Mr. Homan [continuing]. In regard to visas.
    Dr. Harris. No, thank you very much. And yield back.
    Mr. Culberson. Thank you, Dr. Harris.
    Mr. Price. Thank you, Mr. Chairman. I want to seek a little 
further clarification on this sanctuary cities question. I 
think it will be to our benefit to have that. But I want to 
make a couple of points before I do that.
    First of all, I want to associate myself with Ms. Roybal-
Allard's comments about the high esteem and respect in which we 
hold our military, our law enforcement, including immigration 
enforcement. That is not what our questions are about, and I 
think it is not such a good idea to suggest otherwise or imply 
otherwise.
    I, as a representative of a district in North Carolina 
known for low crime rates and for effective law enforcement, 
regularly confer with law enforcement. I think I am considered 
a strong supporter. Had a meeting with law enforcement from 
around the district, oh, about a month ago, and I must say, the 
questions I raised about so-called sanctuary cities and how 
vague that definition is, those come from those people. That is 
the source of my questions. This isn't something I just dreamed 
up. They are also, by the way, very concerned about the 
administration's proposed cuts in grant funding under FEMA and 
many other issues.
    But, please, the questions we raise about the rule of law 
and about law enforcement are not about whether we respect law 
enforcement or respect the sacrifices and the risks that people 
take. I hope everybody understands that.
    Secondly----
    Mr. Homan. Sir, can I respond to that?
    Mr. Price. In just a moment. Secondly, the rule of law. 
There have been some suggestion here today that the law is the 
law is the law. Well, the rule of law is a basic principle of 
this country, and again, we take this principle--with our House 
democracy partnership, we take this in to work with 
legislatures in developing countries all over the world.
    But the rule of law has many aspects. Yes, it is about 
maintaining border security. It is about maintaining a legal 
and safe immigration system. The rule of law is also about 
respecting the roles of law enforcement at various levels, 
taking seriously questions about when there might be tensions 
or might be conflicts between the duties, the priorities of 
local law enforcement and federal law enforcement, including 
immigration enforcement. That is a legitimate discussion under 
the rubric of the rule of law.
    The rule of law is also about being honest and clear about 
what discretion exists under the law and insisting on 
accountability for the way that discretion is being exercised. 
That is what my questions were about. No question this is a 
part of elaborating what the rule of law means and should mean 
in our country.
    Now, speaking of the law, we have talked about 8 USC 1373, 
sanctuary cities. It prohibits policies that prevent 
communications with ICE about immigration status. My 
understanding is that complying with a detainer request is not 
required under the law. It is not a violation of 8 USC 1373. 
That doesn't mean that it shouldn't be done, but we need to 
make clear about what is in the law.
    And just underscores my point, what sanctuary cities means, 
how it is defined is a matter of some dispute and some 
question. So that brings me to my question, which is basically 
what do you have in mind here? The easy case, the easy case for 
all of us, I expect, is the felon who has done his time and who 
is released, there is no question I should know about that 
person and that--I would expect in almost every case, a 
detainer will be placed and deportation will be sought.
    There are some not so easy cases, though. And at the end of 
that spectrum would be somebody picked up for a routine traffic 
violation. Are you looking to be informed about that person? 
Are you looking to issue a detainer against that person, 
someone apprehended in that kind of way? Or are people caught 
up in sweeps where some criminal activity might be involved, 
but they are also innocent bystanders, and so on? There are 
some difficult cases here.
    And rather than dismissing them, I think we need some 
clarity and some accountability of what--if the administration 
is going to change not just the law, but the implementation and 
the interpretation of the law, we have a perfect right, indeed, 
we have an obligation to ask what that means.
    Mr. Homan. Well, I can respond to the first part of your 
question, sir. In no way did I suggest or imply that anybody on 
this committee does not respect the law enforcement work at 
ICE. If you heard during my oral statement, I think I put the 
blame pretty much squared on the groups in the media, mixed 
messaging what we are doing. I respect everybody on this 
committee.
    But I must say, during opening statements in this 
committee, I heard two things, what ICE is doing is un-
American, and un-American enforcement are exactly the words, 
and unconscionable. That is what I take difference to, is that 
the men and women of ICE are very American and what they are 
doing is not un-American. They are enforcing the laws enacted 
by this Congress.
    On the rule of law accountability, we certainly want to be 
held accountable. And as I have explained before, we do 
prioritize what we do. You know, criminals in recent--criminals 
and public safety threats and national security threats still 
are the priority. And we make sure they are a priority.
    When the E.O. was first rolled out, we did an operation in 
five states, and I came up on the Hill here and met with like 
50 congressional representatives that claimed that we were just 
out arresting anybody we could find. I showed them the same 
numbers. I can tell you today, 75 percent of those people we 
arrested had a criminal history. So the men and women of ICE 
are executing the mission within the priorities.
    And as far as prosecutorial discretion, the men and women 
of ICE exercise prosecutorial discretion every day. I can 
mention one operation we did in California on MS-13 gang 
members. And other people during the service of those warrants 
were found that weren't gang members, but they were illegally 
in the United States, several of them were recent mothers, had 
babies in arms, we didn't take them into custody. We did mail 
out NTA (Notice to Appear).
    When we were out arresting, last year, family groups and 
UACs that have final orders during Operation Border Guard and 
Border Resolve, you heard about us out arresting these 
families, destroying communities. What you didn't hear was that 
27 families we walked away from, because they had infants--
breast-feeding infants. So the men and women of ICE exercise 
prosecutorial discretion every day.
    Mr. Price. I am very--I commend you for that answer. Of 
course you do. And it is commonsense. It is compassion. And it 
is absolutely necessary to exercise that kind of discretion. My 
only point in raising this was to say, okay, if discretion is 
being exercised, then it is not off-limits to ask you about it.
    Mr. Homan. No, sir.
    Mr. Price. Or to question the priorities. And it is not an 
answer to say, well, we are just enforcing the law. If you 
don't like what we are doing, change the law. That is not--you 
know, the appropriate response here is to tell me what you just 
told me about the way you have exercised discretion. And we can 
talk about the basis on which you are doing that.
    Mr. Homan. I don't think I have made a statement if you 
don't like the law, change it. What I said----
    Mr. Price. I am referring to your secretary's comment.
    Mr. Homan. Well, I stand by the secretary. He is committed 
to the rule of law and he stands by the men and women of ICE 
and CBP. They--look, no one is looking for an apology. I guess 
we are all looking for recognition that what the men and women 
of our agencies do is extremely dangerous. They are enforcing 
the laws. And they are true Americans. And to use comments like 
un-American enforcement and unconscionable, I think it is 
unfortunate that--you know, we can't--I am not saying, sir, 
anybody in this committee is vilifying the men and women of law 
enforcement. But all you got to do is pick up the paper every 
day and read the stories about CBP and ICE about what we do.
    And I am just trying to get the message out, it is just as 
important to educate people what we don't do as to educate them 
what we do, do, because there is prioritization, there is a 
mission. We are--you know, our job is to execute the mission 
within the framework provided us. I don't decide what that 
framework is. You know, again, I don't write the laws. I didn't 
write the executive orders. Our job is to execute the mission 
within the framework provided us. And I think we are doing 
pretty close to a perfect job of that.
    Mr. Price. I appreciate your acknowledgement that no one 
here is casting aspersions on the character or motives of your 
men and women in uniform. We, I think, uniformly respect their 
role and respect their patriotism and all the sacrifices they 
are making daily. Could you address my sanctuary cities matter?
    Mr. Homan. Sanctuary cities, I think, in my opinion, raises 
serious officer safety and community safety issue. For every 
person that I can't arrest in a county jail in a sanctuary city 
means that a law enforcement officer has to knock on the door 
of a home to arrest somebody that has a criminal history when 
they could have arrested them in the safety and security and 
privacy of a county jail.
    Mr. Price. Okay, but my question had to do with what you 
have in mind here in terms of whom you are seeking information 
on, whom you are looking to issue detainers. And you remember, 
I raised the question about people picked up in--for minor 
traffic violations or people picked up incidentally in the 
process of a sweep, something of that sort.
    Mr. Homan. We will issue detainers on anybody in the 
country illegally. What I would like, though, is especially 
those who are public safety threat to get that information 
quickly. So what I don't want is someone that is a public 
safety threat to walk out of that county jail and hit the 
street when they could have been handed to our custody. So the 
new detainer form that has been issued looks for those who are 
in the country illegally.
    What action we take on that detainer depends on the--you 
know, the case and the factors within that case. But we are 
looking to enforce immigration law. Of course, our priority is 
the criminals first, but if you are asking me are we going to 
put detainers on people that have not been convicted of a 
crime, yes, we will.
    Mr. Price. And the implications of that for you expect of 
local law enforcement and whom you might choose to label a 
sanctuary city, pin that label on?
    Mr. Homan. I think that--first of all, I don't think 
sanctuary cities is defined just strictly under 1373. I think 
sanctuary cities--I take a much broader definition of sanctuary 
cities that those that don't cooperate--like, they can share 
information with us, but they are less willing to turn these 
people over to us, I call that not cooperating, cooperation----
    Mr. Price. All right, but who are those people? That is the 
question. Who are those people? What is the universe here?
    Mr. Homan. Sir, it depends--if you are in Cook County, it 
is everybody. It is criminal aliens and non-criminals. If you 
are in California, they will turn over people that are 
significant criminals, maybe murder and rape, but for 
aggravated assault, armed robbery, we don't see those people. 
Everybody jurisdiction is different on what level cooperation 
they give us.
    Mr. Price. I am understanding. I understand that. What I am 
asking you is, what is your expectation? And how are you going 
to identify non-cooperation in terms of a sanctuary city's 
concept? What is your expectation, your demand of these 
localities?
    Mr. Culberson. Well, if I could, Mr. Price, if I may, 
Director Homan, very quickly, if the gentleman would yield, the 
law says they cannot--local jurisdictions cannot interfere in 
any way. So 99 percent compliance with the request for 
information with federal authorities is not sufficient. It is 
100 percent required.
    Mr. Price. I understand that the law is about 
communications, not about detainer requests. What I am asking 
is what is ICE's expectation going to be about the 
communications request? Is this going to be a broad sweep, 
anyone that comes into touch with the law enforcement? Is it 
going to be something more focused on people coming out of the 
penal system or something in between?
    Mr. Culberson. If I may, Director Homan, to help with this, 
because I did the legal research on this personally to figure 
this out, David, and the federal grant program--excuse me, the 
federal law that you are attempting to enforce has to have some 
reasonable relationship to the federal grant program. In this 
case, I have got jurisdiction over all the federal law 
enforcement grant money. 1373 was passed for the purpose of 
ensuring cooperation and communication between federal and 
local law enforcement. So you can tie, for example--it is 
actually up to ICE and the secretary's discretion to identify 
those jurisdictions that are not cooperating----
    Mr. Price. That is exactly my question. What is the----
    Mr. Culberson. If you are not cooperating, you render 
yourself ineligible for federal grants.
    Mr. Price. And is not cooperating just something for which 
there is no definition available at present? Or can we 
anticipate what this is going to look like?
    Mr. Culberson. Director and the secretary have that 
discretion.
    Mr. Homan. If we know there is somebody in the country 
illegally in violation of the law, we place the detainer on 
them, we expect cooperation with that law enforcement agency. 
Now, we do have discretion. Not everybody we have--that we look 
out in a county jail we will take custody of. Again, you have 
got limited resources. We want the criminals first. But a lot 
of people released from the county jails may have an arrest 
without a conviction. That is as important as a conviction, I 
think so.
    We got to remember, we are talking about a county jail. 
They are in the county jail for some reason. So they are in the 
county jail because they violated some municipal law or some 
crime, so these are people we are interested in.
    So, again, my job is to enforce the immigration law. So I 
certainly would like anybody that is in the county jail that is 
in violation of immigration law to be turned over to me with 
the priority on criminals. Now, if a jurisdiction comes to me--
like I explained earlier, they don't honor a detainer, they are 
going to call me on the significant criminal for the release 
and they are not going to hold them the minute past they 
normally will, but they are going to call us, certainly I would 
welcome that. That is better that nothing.
    But I would like full cooperation. I mean, for 60 years, 
every law enforcement agency in this country accepted 
detainers. It only has arisen in the last 2 years. So I 
certainly would like people to help me enforce the law. I 
mean--we are not asking them to be immigration officers. We are 
asking them for communication on somebody that is here in 
violation of the law that can be turned over to us to take 
action.
    Mr. Price. I know our time is expiring here, but of course, 
we understand what you just expressed in terms of what your 
priorities would be. I do think it leaves a lot of uncertainty, 
though, as to what you might label uncooperation and what 
therefore might bring a municipality or a county under the 
label of a sanctuary jurisdiction and therefore put in jeopardy 
their support for various programs that they value.
    Speaking of the rule of law, part of the rule of law is 
predictability and certainty and accountability. And I hope we 
are not looking for an overly broad discretion on the part of 
ICE to slap that label on a jurisdiction. I think, in fact, we 
have a right to expect and demand a precise notion of what you 
regard as permissible behavior under the law and what would 
lead you to designate a sanctuary city.
    Right now, I can just tell you, there is lots of 
uncertainty and anxiety about this among municipalities that 
have a wide range of practice. It is not--one size does not fit 
all. And so going forward, we are going to need some clarity on 
this.
    Mr. Culberson. Thank you, Mr. Price. I can tell you that 
the 1373, the definition of sanctuary cities is, in the first 
instance, very clear under 1373 that local and state 
jurisdictions cannot interfere in any way. So it is a 100 
percent compliance requirement that 100 percent of the time 
state and local jurisdictions have to share information with 
ICE.
    Under the directive that the President has issued, the--
this is all designed to encourage cooperation. And all of us I 
know respect law enforcement. All the laws that we pass are 
designed to encourage local and federal law enforcement 
officers to communicate, cooperate, because the goal is public 
safety, which we are all devoted to. We are all here to make 
sure that our constituents and our fellow citizens are safe and 
secure. And we deeply appreciate your commitment to that and, 
again, it is the local jurisdiction's decision to walk away 
from the federal money. If they choose to--if they want to be a 
sanctuary city, that is their decision. Just don't ask for 
federal money. Those days are over.
    Yes, ma'am?
    Ms. Roybal-Allard. I just want to emphasize what is being 
said. We really do need clarification as to what is going to be 
considered a sanctuary city, because I know that, for example, 
some of the cities in California may cooperate if somebody is 
in jail, just as Mr. Homan has said, they will do that, but 
they have refused to--when they stop somebody for other 
reasons, a traffic violation or something, they have refused to 
ask if that person or anybody that happens to be in the vehicle 
or wherever they are at, for their immigration status. And in 
some cases, where police have said, no, we are not going to ask 
people about their immigration status because then they are not 
going to want to work with us with crimes, they have been 
tagged as a sanctuary city, where they may cooperate in the 
jails, but they will not cooperate by asking immigration status 
when they stop.
    So to me, that is just another example of why we need 
clarity as to what designates a sanctuary city.
    Mr. Culberson. Director Homan.
    Mr. Homan. I understand the confusion. And, sir, I am not 
trying to avoid the question. DHS leadership is working with 
DOJ leadership to try to come up with an operational meaning of 
what we are going to consider for operational reasons the 
sanctuary cities. So that is still in discussion.
    As soon as we, you know, get closer to clarity, we 
certainly will share it with you, but that is something that we 
are struggling with, right? We all understand 1373, but 
operationally what does it mean to us? So DHS is working with 
DOJ to come up with some sort of clear operational instructions 
to law enforcement agency on what a sanctuary city is and how 
we define it.
    Mr. Culberson. But it begins with cooperation.
    Mr. Homan. It begins with cooperation. And one thing I can, 
sir, to 1373, not only sharing the information, but allow us 
access to the jails.
    Mr. Culberson. Right.
    Mr. Homan. Because secure communities--if someone gets 
arrested and they take their fingerprints, those fingerprints 
are bounced off DHS databases. We will drop a detainer on 
someone we have a record on. However, if you are illegally in 
the United States, you never were encountered by the Border 
Patrol or ICE before, we are not going to get a feedback from 
DHS database. So you can be in the country illegally, and we 
won't have your fingerprints.
    That is why we need access to the jails to talk about 
people who when they came into custody they claim they were 
foreign born. We need to talk to those folks and find out, do 
you have status or not have status? Because a lot of criminal 
aliens we have not encountered before, so we need to make sure 
we get into the jails and talk to these folks who are lacking 
the biometric information to make sure we don't release those 
folks to the street, too.
    So information sharing has to include access to the jails, 
because a lot of people--we call them foreign born no match. We 
don't know who they are. We need to get in there and do an 
interview and find out who they are.
    Mr. Culberson. So I think it is fair to say we all agree 
that the starting point is cooperation and sharing information 
100 percent of the time. Director Homan, is that basically 
accurate?
    Mr. Homan. Yes.
    Mr. Culberson. So if jurisdiction fails to cooperate, fails 
to share information 100 percent of the time, they are going to 
be considered a sanctuary jurisdiction under the guidelines 
issued by the DOJ last summer. I had this done last summer. I 
just didn't make a lot of waves about it.
    And by the way, the other part of the policy that DOJ put 
in place at my request is that local law enforcement agencies 
have to certify under oath that they are cooperating 100 
percent of the time or they are in violation of the False 
Claims Act, which is a felony punishable by 5 years in prison. 
Therefore, the city of Santa Clara--Santa Clara County, which 
was a party to the litigation that led to the order of the 
judge in San Francisco, did not even apply for SCAAP funding, 
COPS funding, or Byrne JAG funding. They dropped their 
application because they knew they were a sanctuary 
jurisdiction. They didn't even bother to ask for the federal 
money. And that is their decision. If you want to protect 
criminal illegal aliens in your custody, don't ask for federal 
money, because you are not going to get it.
    One final question, if you could, Director Holman. In 
addition to identifying for all of us those 100 jurisdictions 
that you consider sanctuaries--because the goal here is to 
protect lives, so there is no more Kate Steinles. How many 
jurisdictions like Santa Clara County either did not apply for 
federal funding or changed their policy, like Miami-Dade or New 
Orleans? And I want to thank for the record the county 
commissioners in Miami-Dade County and the city council in New 
Orleans for changing their policy to cooperate, because that is 
saving lives, isn't it?
    Mr. Homan. Yes, I have to get back to the information. I 
know we have had some jurisdictions come back to the table and 
are now cooperating, especially after the first iteration of 
the declined detainer report went out. So we will definitely 
get back to you that information, who is now cooperating, when 
they weren't, and what changed since the executive order.
    I know we track that, because we report on the declined 
detainer report, at least the last iteration, so I will get 
back to you as soon as we can on that information.
    Mr. Culberson. And I want to stress, Ms. Roybal-Allard and 
Mr. Price, the goal is for these jurisdictions to change their 
policy. We don't want them to walk away from their federal 
money. We want them to protect lives and property by changing 
their policy and cooperating. That is the goal. It is the goal 
we all share.
    Mr. Homan. Absolutely. And my goal is, again, protecting 
lives. I mean, I need to do everything I can for every law 
enforcement agent and officer that works for ICE to lessen the 
risk of their jobs. If they can arrest a criminal alien inside 
the safety of a jail rather than knocking on a door, that is 
the right thing to do, not only for public safety, but for the 
officer safety.
    Mr. Culberson. But we deeply appreciate your service to the 
country, each and every one of you, and please convey to your 
officers, the men and women in the field that you represent how 
strongly this subcommittee supports their work, how much we 
admire and appreciate them, and God bless you. And thank you 
very much for all that you do.
    We will have additional records that will be submitted--
additional questions that will be submitted for the record from 
Chairman Carter and members of the subcommittee. With that, the 
committee is adjourned. Thank you very much.
<GRAPHIC><TIFF>T7050A.184

<GRAPHIC><TIF1>T7050A.185

<GRAPHIC><TIF2>T7050A.186

<GRAPHIC><TIF3>T7050A.187

<GRAPHIC><TIF4>T7050A.188

<GRAPHIC><TIF5>T7050A.189

<GRAPHIC><TIF6>T7050A.190

<GRAPHIC><TIF7>T7050A.191

<GRAPHIC><TIF8>T7050A.192

<GRAPHIC><TIF9>T7050A.193

<GRAPHIC><TIF10>T7050A.194

<GRAPHIC><TIF11>T7050A.195

<GRAPHIC><TIF12>T7050A.196

<GRAPHIC><TIF13>T7050A.197

<GRAPHIC><TIF14>T7050A.198

<GRAPHIC><TIF15>T7050A.199

<GRAPHIC><TIF16>T7050A.200

<GRAPHIC><TIF17>T7050A.201

<GRAPHIC><TIF18>T7050A.202

<GRAPHIC><TIF19>T7050A.203

<GRAPHIC><TIF20>T7050A.204

<GRAPHIC><TIF21>T7050A.205

<GRAPHIC><TIF22>T7050A.206

<GRAPHIC><TIF23>T7050A.207

<GRAPHIC><TIF24>T7050A.208

<GRAPHIC><TIF25>T7050A.209

<GRAPHIC><TIF26>T7050A.210

<GRAPHIC><TIF27>T7050A.211

<GRAPHIC><TIF28>T7050A.212

<GRAPHIC><TIF29>T7050A.213

<GRAPHIC><TIF30>T7050A.214

<GRAPHIC><TIF31>T7050A.215

<GRAPHIC><TIF32>T7050A.216

<GRAPHIC><TIF33>T7050A.217

<GRAPHIC><TIF34>T7050A.218

<GRAPHIC><TIF35>T7050A.219

<GRAPHIC><TIF36>T7050A.220

<GRAPHIC><TIF37>T7050A.221

<GRAPHIC><TIF38>T7050A.222

<GRAPHIC><TIF39>T7050A.223

<GRAPHIC><TIF40>T7050A.224

<GRAPHIC><TIF41>T7050A.225

<GRAPHIC><TIF42>T7050A.226

<GRAPHIC><TIF43>T7050A.227

<GRAPHIC><TIF44>T7050A.228

<GRAPHIC><TIF45>T7050A.229

<GRAPHIC><TIF46>T7050A.230

<GRAPHIC><TIF47>T7050A.231

<GRAPHIC><TIF48>T7050A.232

<GRAPHIC><TIF49>T7050A.233

<DOC>
<HEAD>


 
                           W I T N E S S E S

                              ----------                              --
--------
                                                                   Page
Homan, T. D......................................................   207
Kelly, Hon. J. F.................................................    73
Provost, C. L....................................................   207
Wagner, J. P.....................................................   207
Zukunft, Admiral P. F............................................     1
<DOC>
<HEAD>


 
                               I N D E X

                              ----------                              --
--------

   Coast Guard Requirements, Priorities, and Future Acquisition Plans

                                                                   Page
Arctic Military Presence and Commerce............................    19
Border Security 



Border Security Improvements.....................................    31
Closing Remarks 



Counterterrorism.................................................    35
Cyber Attacks....................................................    22
Cyber Security...................................................    12
Cuban Migration..................................................    25
Disaster Relief..................................................    23
Icebreaker.......................................................    15
Jones Act........................................................    18
Lease Alternative................................................    26
Legal System.....................................................    33
Marine Inspectors................................................    13
Opening Statements...............................................     1
Ports............................................................    37
Procurement Funding Strategy.....................................    25
Production Schedule..............................................    15
Recapitalization of the Coast Guard..............................    10
Smuggler Prosecution.............................................    30
Social Media Abuse...............................................    29
Surveillance.....................................................    17
Unfunded Priority List...........................................    28

               U.S. Department of Homeland Security (DHS)

Border Security:
    Legal Movement of People and Commerce........................   104
    Wall Along the Southern Border...............................   101
Central America Relationships....................................   105
Criticism of DHS Workforce.......................................   103
Cybersecurity:
    Cyber Attacks................................................    94
    Information Sharing..........................................   109
Detention:
    Capacity.....................................................    90
    Facilities...................................................    92
    Facilities Standards.........................................    93
    Policies.....................................................    91
FEMA Grants: Program Cuts........................................    95
Immigration Enforcement:
    H-2B Visas...................................................   108
    Sanctuary Cities.............................................   107
Jones Act........................................................   108
Off the Shelf Technology: Acquisition............................   109
Opening Statement: Secretary Kelly...............................    78
Operation Streamline.............................................    99
Strategic Imperatives............................................    89

                                  <all>
</pre></body></html>
